<html>
<title> - TURNING IDEAS INTO ACTION: ENSURING EFFECTIVE CLEAN UP AND RESTORATION IN THE GULF</title>
<body><pre>[Senate Hearing 111-1036]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1036
 
                       TURNING IDEAS INTO ACTION: 
                      ENSURING EFFECTIVE CLEAN UP 
                      AND RESTORATION IN THE GULF 

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-626 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         ROGER F. WICKER, Mississippi
DANIEL K. INOUYE, Hawaii             GEORGE S. LeMIEUX, Florida
JOHN F. KERRY, Massachusetts         JOHNNY ISAKSON, Georgia
BARBARA BOXER, California            DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey
MARK BEGICH, Alaska


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2010....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Snowe.......................................     3
Statement of Senator Begich......................................    20
Statement of Senator Wicker......................................    26
Statement of Senator Udall.......................................    68
    Letter dated July 20, 2010 to Anthony Sedillo c/o Office of 
      Senator Tom Udall, from Joseph P. McEnaney, St. Cloud 
      Mining.....................................................    68

                               Witnesses

Captain Matthew J. Sisson, Commanding Officer, Coast Guard 
  Research and Development Center................................     5
    Prepared statement...........................................     7
Douglas Helton, Incident Operations Coordinator, Office of 
  Response and Restoration, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................     9
    Prepared statement...........................................    10
Dennis Yellowhorse Jones, President, U-Mate International, Inc...    29
    Prepared statement...........................................    30
Frederick R. (Fritz) Stahr, Ph.D., Research Scientist, School of 
  Oceanography, University of Washington.........................    37
    Prepared statement...........................................    39
Scott Pegau, Ph.D., Research Program Manager, Oil Spill Recovery 
  Institute (OSRI)...............................................    43
    Prepared statement...........................................    44
Cynthia Sarthou, Executive Director, Gulf Restoration Network....    48
    Prepared statement...........................................    50
Dr. Nancy E. Kinner, Co-Director, Coastal Response Research 
  Center, and Professor of Civil/Environmental Engineering, 
  University of New Hampshire....................................    56
    Prepared statement...........................................    57

                                Appendix

Response to written questions submitted to Douglas Helton by:
    Hon. Maria Cantwell..........................................    81
    Hon. Olympia J. Snowe........................................    82
    Hon. Roger F. Wicker.........................................    84


                       TURNING IDEAS INTO ACTION:
                      ENSURING EFFECTIVE CLEAN UP
                      AND RESTORATION IN THE GULF

                              ----------                              


                        WEDNESDAY, JULY 21, 2010

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 253 of the Senate Russell Office Building, Hon. Maria 
Cantwell, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Senate Oceans, Atmosphere, Fisheries, 
and Coast Guard Subcommittee of the Commerce Committee will 
come to order.
    I thank the witnesses for being here today. We are going to 
have two panels. First panel will be Captain Matthew Sisson--
Sisson?
    Captain Sisson. Sisson.
    Senator Cantwell.--Sisson, who is the Commanding Officer of 
Research and Development Center for the United States Coast 
Guard; and Mr. Doug Helton from the Office of Response and 
Restoration, National Oceanic and Atmospheric Administration.
    And then we'll have a second panel of people who have been 
involved in ocean research.
    As the single-largest marine oil spill in our Nation's 
history, the BP oil spill in the Gulf of Mexico is both an 
environmental and human tragedy of monumental proportions. 
Virtually no part of the Gulf region's economy has gone 
unscathed, and the devastation facing the environment is 
unprecedented.
    In 1989, the Exxon Valdez showed us just how unprepared we 
were for the massive oil tanker that ran aground in Prince 
William Sound spilling over 11 million gallons of crude oil, 
and, today, the BP oil spill is showing us just how unprepared 
we still are in 2010.
    Since the Exxon Valdez oil spill, there has been very 
little investment in the research and development of cleanup 
technologies by industry, academia and government agencies.
    Private companies, in their pollution-response plans, must 
cite the technology and equipment that they will use to respond 
to a spill, but to save time on research, however, they are 
often outsourced to non-profit groups such as the oil-spill 
recovery organizations that provide contract services during an 
oil spill, and simply the list that the contract is in place as 
a response plan is a way of compliance.
    Our primary response technology of today--skimmers, in-situ 
burns, boom and chemical dispersants--were all developed 
decades ago.
    Meanwhile, exploration and drilling technology has advanced 
at a meteoric pace due to heavy investment by oil and gas 
industry and the drive to drill in deeper waters with extremely 
sophisticated equipment.
    The Deepwater Horizon oil spill has revealed a huge 
disparity between our nation's ability to extract oil versus 
our ability to respond to an oil spill.
    There are several promising technologies and techniques--
such as solidifiers, remediation techniques, absorbent-fiber 
membranes--but these innovations have not yet been fully 
developed or assessed or made operational as part of oil-spill 
response.
    For example, today, we will hear from Dr. Fritz Stahr of 
the University of Washington, who has worked to develop sea-
glider technology for sophisticated underwater scientific 
monitoring, a tool that could easily be used to detect 
underwater plumes in the Gulf of Mexico.
    And we will also be hearing from Dennis Yellowhorse Jones, 
a geologist and entrepreneur, who has developed an organic 
remediation method for breaking down oil using a unique mineral 
compound, a method that could be used to clean up the Gulf's 
shorelines.
    Thousands of ideas and proposals have been submitted to the 
government and BP. The Coast Guard has received over 3,500 
technology proposals so far, I think something like 77 of which 
have been approved or forwarded to the incident command for use 
in the Gulf.
    And BP has received over 100,000 submissions, which the 
company has only, I think, been able to process through about 
12,000.
    We need to do everything possible to assure that oil-spill 
response is the best response that we can make it. Recognizing 
BP's inability to respond to the many proposals and the Coast 
Guard's Research and Development Center, established the 
Interagency Alternative Technology Assessment Program, and I'm 
sure we're going to hear, Captain Sisson, about that today.
    But while the alternative technology and assessment program 
process is in place, I think it shows that we are still 
struggling to face, in the midst of an emergency, the 
desperately needed solution to a permanent process for vetting 
and evaluating oil-spill technology.
    This process is only a temporary fix, and we need a 
permanent process so that we are in the same place now in the 
future in case of another big spill.
    So we are going to hear today about what needs to be done 
to help jumpstart oil-spill-technology research and 
development, provide further incentives and structure. We need 
to turn new technologies into reality and to develop protocols 
and standards that will provide us a 21st century oil-spill 
safety net.
    I have introduced legislation, the Oil Spill Technology and 
Research Act. Many of these pieces we have proposed in the past 
and have been parts of various pieces of legislation, and we 
will be proposing them again as legislation moves through the 
legislative process.
    Twenty-one years ago, we saw the devastating cost of 
complacency, and now we are living that nightmare again.
    This oil spill is not a Louisiana tragedy. It's not a 
Florida tragedy or a Mississippi tragedy or Alabama. It is an 
American tragedy, and it's up to us to ensure that America's 
waters and shores are protected in the most rigor that we can 
muster.
    So we have to ask ourselves, when this history is written, 
will we say that we rose to the occasion and made sure that we 
had a better response plan in place for the future? I know that 
we are going to do our part here on the Subcommittee and on the 
full Committee.
    So I thank my colleague for being here today, the Ranking 
Member, Senator Snowe, for having this hearing and bringing 
attention to the fact that we need to upgrade our technology.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Chair Cantwell, and thank you, 
most importantly, for holding this hearing today on, without a 
doubt, the worst oil spill in the history of our country.
    Last week, nearly 3 months after the explosion that 
destroyed the Deepwater Horizon rig--claiming, tragically, the 
lives of 11 men--and left as much as 60,000 barrels of oil 
pouring into the Gulf every day, responders finally have 
managed to affix a temporary cap and hopefully halt the flow.
    In hindsight, we can look back and see, without a doubt, 
that the industry and the Nation were simply unprepared for a 
disaster of this magnitude.
    As the Ranking Member of the Subcommittee, I see it as our 
primary responsibility to ensure we close the loopholes that 
allowed this travesty to occur in the first place and that we 
dedicate all appropriate available resources to restoring the 
devastated ecosystems and the economy of the Gulf Coast.
    Just over a month ago, as Ranking Member of the Senate 
Committee on Small Business, I and Chair Landrieu held a 
hearing as well to address the approval process for the new 
technologies that could assist with the clean up and response 
effort.
    During that discussion, it became clear to me that 
inefficiencies remained in the process, notably that the 
Federal Government and BP had set up a duplicative track for 
individuals and businesses to apply for approval of their 
technology.
    Today, I hope to hear from our panel how that procedure has 
been streamlined, how it has contributed to the response effort 
and what steps the administration is already taking to vet new 
technologies and methods that can contribute to a restoration 
of the marshes, the beaches, the shorelines, in the face of 
more than 100 million gallons of oil spilled from this ruptured 
well.
    I am pleased as well to welcome our two panels of witnesses 
here today.
    Captain Sisson and Mr. Helton, your agencies are on the 
front lines of this battle and must work proactively and 
aggressively to transition from first response to long-term 
restoration, an effort likely to take years, if not decades.
    On our second panel, we'll hear from three representatives 
of the academic community, Drs. Pegau, Kinner and Stahr, who 
will speak from their years of experience responding to spills, 
developing response partnerships and defining the importance of 
baseline research in response efforts such as this one.
    We'll also hear from Mr. Dennis Yellowhorse Jones who has 
developed a new organic response methodology, and Ms. Cynthia 
Sarthou, who has in-depth, first-hand perspective on the 
efforts undertaken to date to respond to this crisis.
    From the first days of this spill, I was particularly 
concerned with the pace and tenor of the response. In a letter 
to the president last month, I urged him to seize control from 
BP and establish a single point of accountability for approving 
new technologies.
    Since that time, we've seen some improvement, and I know 
there have been a number of proposals that have been 
submitted--more than 3,600 to the Coast Guard--but none is now 
in use at this point.
    Yet the fact is the first of these were not even tested 
until more than 2 months had elapsed. So we've had very few 
proposals that have even begun to be implemented. I will 
appreciate hearing from the Coast Guard today exactly what is 
the status of all those proposals that have been submitted and 
where we stand today on any of them having been implemented.
    We must act now to ensure that a similar process for 
vetting suggestions that may expedite the restoration of 
critically damaged ecosystems does not experience the same 
delay we experienced in the response process. Carving out a 
more substantive role for NOAA will be integral to that effort.
    In May, after learning from Dr. Lubchenco at a hearing 
before the full Commerce Committee that NOAA's comments on the 
Department of Interior's latest 5-year drilling program 
garnered no formal response, I filed an amendment to the 
defense supplemental appropriation bill that would have given 
both NOAA and the Coast Guard a voice in the permitting 
process.
    This amendment, along with numerous other provisions 
enhancing NOAA and the Coast Guard's role, will be considered 
by this committee during executive session tomorrow, and it 
doesn't come a moment too soon.
    Relegating our Nation's preeminent ocean-related agencies 
to the back bench is part of what has gotten us where we are 
today in the wake of this catastrophe with problems we don't 
know how to solve and consequences no one ever anticipated.
    The use of chemical dispersants is a prime example of an 
area in which NOAA's involvement has been tragically lacking. 
These compounds, designed to break down oil into minute 
particles, certainly have value in preventing large clots of 
oil from forming and ultimately impacting sensitive areas like 
the marshes that comprise the majority of the Louisiana 
coastline.
    As part of the response to this bill, nearly two-million 
gallons of dispersants have been applied. Much of that is in an 
unprecedented fashion, at the source of this leak, nearly a 
mile below the surface.
    While the dispersants have been used in close consultation 
with the Environmental Protection Agency, which is tasked with 
clearing the products for inclusion on the National Contingency 
Plan's list, even the EPA admits they know next to nothing 
about the short- or long-term impacts on the marine environment 
or the safety of the seafood harvested from areas in which they 
have been used.
    NOAA's scientific expertise must be brought to bear on this 
issue and across the board NOAA should assist in preparing 
response plans and activities that more accurately reflect the 
threats posed by the activities being carried out in our 
oceans.
    This past Monday, BP announced it has spent more than $4 
billion responding to this catastrophe. Over a third of the 
Gulf of Mexico remains closed to fishing. An entire tourist 
season has been lost to businesses and homeowners on the 
beaches along the coast.
    The tragedy here is that for all of our vast expertise, we 
have still allowed this event to occur that has had such a 
dramatic impact on our culture, our environment and our 
economy.
    It is vital that we take the lessons learned over the 
course of the last 3 months and apply them not just to future 
response efforts, but to the work that remains to set the Gulf 
Coast right back on a path toward recovery, and as soon as 
possible.
    So I thank you, Madam Chair, for holding this hearing 
today, because it is critical to give attention to these vital 
issues so we can expedite this process because of the profound 
effect that it's having on the Gulf Coast. Thank you.
    Senator Cantwell. Thank you, Senator Snowe, and thank you 
for your leadership on the Small Business Committee on similar 
hearings that were held on this and related subjects to small 
businesses being impacted from the Gulf, and for your voice in 
making sure that NOAA's voice is actually heard as a scientific 
agency giving concern to various project proposals and yet not 
getting a response.
    The fact that you are helping to lead the charge on that or 
leading the charge on that, I think, will really make NOAA's 
scientific concerns heard in the process. Very, very important. 
So I thank you for that leadership.
    Captain Sisson, we're going to start with you. Thank you 
for being here. I am sure your job has been very taxing, but we 
appreciate you coming to help us think through this process of 
how we can improve on getting better technology for the future 
on oil-spill cleanup. So thank you.

  STATEMENT OF CAPTAIN MATTHEW J. SISSON, COMMANDING OFFICER, 
          COAST GUARD RESEARCH AND DEVELOPMENT CENTER

    Captain Sisson. Madam Chair, Senator, good morning. I am 
Captain Matt Sisson. I am Commanding Officer of the Coast 
Guard's Research and Development Center in New London, 
Connecticut.
    I appreciate the opportunity to appear before you today to 
discuss how the public can propose their ideas for oil-spill 
response on the Gulf Coast, the R&D center's role in that 
process and how to turn ideas into action.
    From the initial days of the Deepwater Horizon spill, the 
Coast Guard and other Federal agencies were receiving thousands 
of ideas. We owed it to the public to create a fair, equitable 
and transparent system to track, evaluate and respond to them.
    On May 17, the R&D center, at the request of the Federal 
on-scene coordinator and the national incident commander, stood 
up the Interagency Alternative Technology Assessment Program, 
or IATAP, with six Federal agency partners.
    We issued a broad agency announcement, or BAA, on June 4, 
which calls for a three-page white paper describing proposed 
ideas in five categories--oil sensing, wellhead control and 
submerged oil response, traditional oil-spill response 
technologies, alternative oil-spill response technologies and 
oil-spill damage and restoration.
    Following feedback from Congress last month, we are 
simplifying and clarifying the deepwaterhorizonresponse.com 
webpage and to explain how to submit your idea to the Federal 
Government.
    This process is open to all sources, not just large 
companies, but also small businesses, academia, nonprofits, 
individuals. It is not a competition. Our criteria are simple: 
Technical merit, effectiveness and deployability.
    Once a white paper is received, the submitter is sent an e-
mail receipt and a tracking number and they continue to receive 
automated notifications throughout each stage of the process.
    IATAP performs an initial triage to see whether the idea 
shows immediate promise, merits further investigation or is not 
applicable to the spill.
    If an idea has potential, immediate benefit, we recommend 
it to the Federal on-scene coordinator, who determines whether 
to procure the technology based upon his operational need. 
Ideas that appear to have merit but need more information 
undergo a more detailed evaluation.
    Now, we have received nearly 3,600 submissions through the 
BAA, and we have performed initial triage on nearly all of 
them; 1,400 have received an official notification of our 
determination. Of those 1,400, 87 were forwarded to the Federal 
on-scene coordinator, 28 are undergoing further evaluation and 
more than 1,100 were informed that their idea did not support 
this incident.
    Recommendations the FOSC is currently evaluating including 
a holographic laser system for deep-ocean oil-droplet 
detection; an automatic information system, or AIS; transmit 
capability for vessels of opportunity, or VOOs; a small, self-
propelled beach-sand cleaning machine; and as you may have seen 
on television, a large airship or blimp to gauge its 
effectiveness as a reconnaissance vehicle, a command-and-
control platform and to detect distressed wildlife.
    This is not the total of our interagency efforts. With the 
U.S. Navy supervisor of salvage, we assess the capabilities of 
A Whale, a 1,100-foot-long supertanker reconfigured as an oil 
skimmer.
    We have tested whether our radars that we recently 
purchased for the Deepwater program and our Coast Guard 
aircraft can properly detect and map oil in the Gulf.
    Through the national incident commander's flow-rate 
technical group, we have partnered with Woods Hole 
Oceanographic Institute and MIT Experimental Hydrodynamics 
Laboratory to conduct sonar and Doppler readings, collect 
samples from the leak source and measure riser openings to 
accurately estimate the total amount of oil spill to date.
    Funding from the Oil Spill Pollution Act led to the 
development of in-situ burning by the R&D center in the early 
1990s, a technique which has already consumed as much oil in 
the Gulf as the Exxon Valdez spilled in 1989.
    Eighty of the R&D center's 94 personnel are now working 
Deepwater Horizon response exclusively, including occupying 
positions at the Unified Area Command.
    The spill requires the largest environmental disaster 
response in our history, and we need good ideas from all 
sources. We continue to refine the IATAP process, but it has 
performed its mission to provide the Federal on-scene 
coordinator with response ideas that have been systematically 
evaluated from the widest possible pool of human ingenuity.
    Thank you for your opportunity to testify today. I look 
forward to answering any questions and ask that my full written 
statement be submitted for the record.
    [The prepared statement of Mr. Sisson follows:]

 Prepared Statement of Captain Matthew J. Sisson, Commanding Officer, 
              Coast Guard Research and Development Center
    Good morning, Madam Chair and distinguished members of the 
Committee. Thank you for the opportunity to testify before you on the 
process for submitting Gulf Coast cleanup proposals to the Federal 
Government.
    The Oil Pollution Act of 1990 (OPA 90) and applicable Federal 
legislation and regulations provide the United States Coast Guard with 
broad responsibilities and authorities regarding oil spill response 
oversight on U.S. navigable waters. These responsibilities and 
authorities include conducting, in coordination with other Federal 
agencies, research on innovative oil spill-related technology. In order 
to best leverage the numerous offers of innovative technology 
assistance to the Deepwater Horizon spill response, the Coast Guard, at 
the request of the Federal On-Scene Coordinator (FOSC) and the National 
Incident Commander (NIC), established the Interagency Alternative 
Technology Assessment Program (IATAP).
    The IATAP is a documented, systematic, government-managed process 
to solicit, screen and evaluate alternative or new technologies in 
support of ongoing Deepwater Horizon spill response activities. This 
government interagency process provides for fair and consistent 
evaluation of each and every idea. The system is designed to provide 
submitters with timely acknowledgement notifications upon receipt of 
their proposal, as well as determination notifications as their 
proposal progresses through the evaluation process.
    The IATAP workgroup is comprised of subject matter experts from the 
Coast Guard, the U.S. Environmental Protection Agency (EPA), Minerals 
Management Service (MMS), National Oceanic and Atmospheric 
Administration (NOAA), Fish and Wildlife Service, Maritime 
Administration, U.S. Department of Agriculture, and U.S. Army Corps of 
Engineers. Other agencies or entities may be added to the workgroup as 
required depending upon the technology under evaluation. The IATAP 
objectively evaluates proposals with technical rigor, and provides 
potentially effective solutions to frontline responders.
    On May 21, 2010, the Coast Guard R&D Center initiated an interim 
system prior to the formal stand-up of the IATAP to handle ad hoc 
submissions received via phone and e-mail.
    On June 4, 2010, a formal IATAP process began with the issuance of 
a Broad Agency Announcement (BAA) on the Federal Business Opportunities 
(FedBizOpps) website soliciting requests for oil spill response 
technology. The BAA calls for the submission of white papers describing 
proposed technology solutions with applicability in five distinct 
problem areas:

  <bullet> Oil sensing improvements to response and detection;

  <bullet> Oil wellhead control and submerged oil response;

  <bullet> Traditional oil spill response technologies;

  <bullet> Alternative oil spill response technologies; and

  <bullet> Oil spill damage assessment and restoration.

    This BAA is open to all sources and is available from the front 
page of FedBizOpps. Through this process, the Coast Guard recognizes 
the potential for novel, highly innovative solutions from small 
businesses, individuals and non-traditional sources. Submissions may 
include those from single or team entities such as academia, private 
sector organizations, government laboratories and federally funded 
research and development centers. The government also encourages non-
profit organizations, educational/academic institutions, small 
businesses, small disadvantaged businesses, historically black colleges 
and universities/minority institutions, women-owned businesses, 
service-disabled veteran-owned small businesses and historically 
underutilized business zone enterprises to submit concepts for 
consideration and/or to join others in a submission.
BAA Process
    The BAA white paper submissions are screened based upon overall 
scientific and technical merit, feasibility, the availability of 
proposed solution and submitted cost information.
    The IATAP workgroup, as managed by the USCG R&D Program, and in 
consultation with other interagency partners, is screening and sorting 
submissions based on technical feasibility, efficacy and deployability. 
The initial screening of the BAA responses will result in a 
determination that either the concept:

  <bullet> Has a discernible benefit to the spill response effort;

  <bullet> Needs more detailed investigation or evaluation and will be 
        forwarded to the appropriate government agency overseeing that 
        portion of the Deepwater Horizon response (EPA, MMS, NOAA, 
        USCG, etc.); or

  <bullet> Does not have immediate applicability to support this event.

    All submissions will be provided with a response and tracking 
number identifying the initial screening determination. All submissions 
are managed in the order they are received regardless of origin to 
ensure fairness in evaluation.
    If the initial screening determines that the concept has 
applicability and potential immediate benefit to the spill response 
effort, the technical portion of the proposal and the IATAP 
recommendation is forwarded to the Deepwater Horizon response FOSC for 
further action under its authority, in consultation with the 
responsible parties and/or other Federal agencies. If the initial 
screening determines that a more detailed investigation or evaluation 
is required it will be forwarded to the appropriate government agency 
overseeing that portion of the Deepwater Horizon Response (EPA, MMS, 
NOAA, or USCG), and that agency is responsible for further action.
    To date, we have received 3,596 submissions from the BAA and 1,376 
have completed the initial screening process. We are testing 
submissions that have cleared the initial screening process for 
potential deployment.
Conclusion
    Through the IATAP, the Coast Guard is ensuring all applicable 
capabilities and resources--government, private, and commercial (to 
include small business) will be considered for use in developing and 
improving solutions to secure the environment and facilitate a rapid, 
robust clean-up effort.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Cantwell. Do we have your full written statement, 
Captain? How many pages is it?
    Captain Sisson. Four, ma'am.
    Senator Cantwell. OK. Thank you. Thank you very much.
    Mr. Helton, welcome. Thank you for being here.

 STATEMENT OF DOUGLAS HELTON, INCIDENT OPERATIONS COORDINATOR, 
   OFFICE OF RESPONSE AND RESTORATION, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Helton. Thank you, Chairwoman Cantwell and Senator 
Snowe, for the opportunity to testify today about NOAA's roles 
in response to the Deepwater Horizon incident and NOAA's ideas 
for activities to improve future oil-spill-response activities.
    My name is Doug Helton. I'm the Incident Operations 
Coordinator in NOAA's Office of Response and Restoration. 
During spills, I help to manage emergency response efforts 
focusing on NOAA's role as the primary science advisor to the 
U.S. Coast Guard.
    This event started with a tragic loss of life of the 11 
crew members. And, like the rest of the public, I'm saddened by 
the events and frustrated as the spill continues to disrupt 
communities and injure natural resources in the Gulf.
    As you know, NOAA responds to spills all over the country. 
We have responded to thousands of spills in our history and 
have a long history of science-based response decisions. My 
office was called over 200 times last year to provide emergency 
scientific support.
    NOAA has three critical roles during spills. We serve as 
the science advisor to the Coast Guard, provide trajectory 
predictions, conduct over flights, identify sensitive areas and 
conduct surveys to guide cleanups. We also conduct damage 
assessments and restore natural resources injured by the spill.
    And, finally, we represent the Department of Commerce in 
spill-response decisionmaking activities through the National 
Response Team.
    My written testimony includes information on NOAA's roles 
in response to the Deepwater Horizon spill, and so I'll focus 
today in my oral statement about oil-spill research needs.
    Spill research and development has been in a boom-and-bust 
cycle for many years. After a major spill, such as the Exxon 
Valdez, there's a national resurgence in interest in spills, 
but then this interest wanes.
    Recent spills in Washington State, California, and 
Massachusetts raised awareness and concerns about the adequacy 
of response technologies at the state and local levels.
    But, now, with the Deepwater spill, we're faced again with 
an incident that has captured the national attention, and 
research gaps that we have--such as mechanical recovery 
technologies, oil sensors, dispersant use, modeling of 
deepwater releases, seafood safety and the social and human 
dimensions of spills--are all painfully obvious gaps.
    I'd like to talk about additional oil-spill research needs. 
The public has high expectations for a prompt and effective 
response, and responders must be equipped with the appropriate 
tools to meet those expectations. A robust research and 
development program can improve how we respond.
    And Congress recognized that need for research on oil 
pollution when they passed the Oil Pollution Act, but the R&D 
envisioned by the Oil Pollution Act has not been achieved. With 
fewer large spills, and competing national priorities, there 
has been a decline in oil-spill research in both the public and 
private sector.
    Achievement of the comprehensive research and development 
program by OPA can only increase our effectiveness of our oil-
spills research and response technologies.
    While existing research has resulted in advancements of 
some technologies, more must be done to strengthen our Nation's 
capabilities. A renewed R&D commitment to focus on the most 
pressing needs, particularly now with the Deepwater releases 
and releases elsewhere in cold, icy waters of the Arctic is one 
place to start.
    An effective response, based on science and smart 
decisionmaking reduces environmental and social impacts, and it 
also reduces the cost of spills.
    As the Deepwater Horizon spill is demonstrating, there's a 
need to understand how oil behaves, moves and disperses both on 
the surface and in the water column. Research is needed for the 
rapid and accurate detection of oil and water and the effects 
of oil and dispersants on deepwater habitats and species, such 
as deepwater corals.
    And the research on long-term effects of spilled oil would 
also improve cleanup. More than 20 years later, there's still 
oil in Prince William Sound from Exxon Valdez.
    Research is needed to improve our understanding of the 
long-term effects of this oil on species and habitats. And 
while oil-spill research has focused on physical sciences, for 
the most part, social-science research is also needed on the 
human dimensions of spills.
    How can we minimize the impacts on communities? And what 
can be done to make them whole? Better communication and 
sharing of information with impacted communities and 
incorporating their concerns is key.
    The Deepwater Horizon spill will impact the Gulf for years 
to come. We can't prevent impacts, but with good science, we 
can improve response decisions. When spills happen, there's a 
rush of funding for science, but quality research takes time as 
well as support and sustained resources.
    While we're working with all haste, it's important to 
understand that we have to take the time to ensure that the 
science is accurate and meaningful. It's important that we 
continue this work between spills, so that we can develop the 
tools and understanding before, rather than during, the next 
spill.
    Thank you for allowing me to testify today on NOAA's 
response and areas of future R&D. I'm happy to answer any 
questions.
    [The prepared statement of Mr. Helton follows:]

Prepared Statement of Douglas Helton, Incident Operations Coordinator, 
 Office of Response and Restoration, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce
    Thank you, Chairwoman Cantwell and members of the Committee, for 
the opportunity to testify on the Department of Commerce's National 
Oceanic and Atmospheric Administration's (NOAA) role in the response to 
the Deepwater Horizon BP oil spill and NOAA's ideas for activities to 
improve future response and resource assessment efforts.
    My name is Doug Helton and I am the Incident Operations Coordinator 
for the Emergency Response Division in NOAA's Office of Response and 
Restoration (OR&R). I appreciate the opportunity to discuss the 
critical roles NOAA serves during oil spills and the importance of our 
contributions to protect and restore the resources, communities, and 
economies affected by this tragic event. Before I move on to discuss 
NOAA's efforts, I would first like to express my condolences to the 
families of the 11 people who lost their lives in the explosion and 
sinking of the Deepwater Horizon platform.
    NOAA's mission is to understand and predict changes in the Earth's 
environment and conserve and manage coastal and marine resources to 
meet our Nation's economic, social, and environmental needs. NOAA is 
also a natural resource trustee and is one of the Federal agencies 
responsible for protecting, assessing, and restoring the public's 
coastal natural resources when they are impacted by oil spills, 
hazardous substance releases, and impacts from vessel groundings on 
corals and seagrass beds. As such, the entire agency is deeply 
concerned about the immediate and long-term environmental, economic, 
and social impacts to the Gulf Coast and the Nation as a whole from 
this spill. NOAA is fully mobilized and working tirelessly to lessen 
impacts on the Gulf Coast and will continue to do so until the spill is 
controlled, oil is cleaned up, natural resource injuries are assessed, 
and restoration is complete.
    My testimony today will discuss NOAA's role in the Deepwater 
Horizon response and natural resource damage assessment process 
associated with the Deepwater Horizon oil spill, for which BP is a 
responsible party, and opportunities to strengthen the Federal response 
to future events through research and development.
NOAA's Roles During Oil Spills
    NOAA has three critical roles mandated by the Oil Pollution Act of 
1990 and the National Contingency Plan:

        1. During the emergency response, NOAA serves as a conduit for 
        scientific information to the Federal On-Scene Coordinator. 
        NOAA provides trajectory predictions for spilled oil, conducts 
        overflight observations of oil on water, identifies highly 
        valued or sensitive environmental areas, and conducts shoreline 
        surveys to determine clean-up priorities.

        2. As a natural resource trustee, NOAA conducts a joint Natural 
        Resource Damage Assessment (NRDA) with co-trustees to assess 
        and restore natural resources injured by the oil spill. NRDA 
        also assesses the lost uses of those resources, such as 
        recreational fishing, canoeing, and swimming, with the goal of 
        implementing restoration projects to address these injuries.

        3. Finally, NOAA represents the Department of Commerce in spill 
        response decision-making activities through the National 
        Response Team.
Response
    The U.S. Coast Guard (USCG) is the Federal On-Scene Coordinator and 
has the primary responsibility for managing coastal oil spill response 
and clean-up activities in the coastal zone. During an oil spill, 
NOAA's Scientific Support Coordinators deliver technical and scientific 
support to the USCG. NOAA's Scientific Support Coordinators are located 
around the country in USCG Districts, ready to respond around the clock 
to any emergencies involving the release of oil or hazardous substances 
into the oceans, shorelines and related areas. Currently, NOAA has all 
of its Scientific Support Coordinators located throughout the country 
working on the Deepwater Horizon oil spill.
    With over thirty years of experience and using state-of-the-art 
technology, NOAA serves the Nation by providing its expertise and a 
suite of products and services critical for making science-based 
decisions. Examples include trajectory forecasts on the movement and 
behavior of spilled oil, overflight observations, spot weather 
forecasts, emergency coastal survey and charting capabilities, aerial 
and satellite imagery, and real-time coastal ocean observation data. 
Federal, state, and local entities look to NOAA for assistance, 
experience, local perspective, and scientific knowledge. NOAA's Office 
of Response and Restoration (OR&R) was called upon for scientific 
support 200 times in 2009.
Natural Resource Damage Assessment
    Stewardship of the Nation's natural resources is shared among 
several Federal agencies, states, and tribal trustees. NOAA, acting on 
behalf of the Secretary of Commerce, is the lead Federal trustee for 
many of the Nation's coastal and marine resources, and is authorized by 
the Oil Pollution Act of 1990 (OPA) to recover damages on behalf of the 
public for injuries to trust resources resulting from an oil spill. 
Regulations promulgated by NOAA under the Oil Pollution Act encourage 
compensation in the form of restoration of the injured resources, and 
appropriate compensation is determined through the NRDA process. Since 
the enactment of OPA, NOAA, together with other Federal, state, and 
tribal co-trustees, has recovered approximately $500 million for 
restoration of natural resources injured by releases of oil or 
hazardous substances, as well as injuries to national marine sanctuary 
resources, including vessel groundings.
National Response Team
    The National Oil and Hazardous Substances Pollution Contingency 
Plan, more commonly called the National Contingency Plan, is the 
Federal Government's blueprint for responding to both oil spills and 
hazardous substance releases. The purpose of the National Contingency 
Plan is to develop a national response capability and promote overall 
coordination among the hierarchy of responders and contingency plans. 
NOAA represents the Department of Commerce on the National Response 
Team and works closely with regional response teams and local area 
committees to develop policies on dispersant use, best clean-up 
practices and communications, and to ensure access to science-related 
resources, data, and expertise.
NOAA's Response and Damage Assessment Efforts
    NOAA's experts have been assisting with the response to the 
Deepwater Horizon oil spill from the beginning, providing coordinated 
scientific services when and where they are needed most. NOAA's support 
includes daily trajectories of the spilled oil, weather data to support 
short- and long-range forecasts, and hourly localized ``spot'' 
forecasts to determine the use of weather dependent mitigation 
techniques such as oil burns and chemical dispersant applications. NOAA 
uses satellite imagery and real-time observational data on the tides 
and currents to predict and verify oil spill location and movement. To 
ensure the safety of fishermen and consumer seafood safety, NOAA 
scientists are in the spill area taking water and seafood samples, and 
NOAA has put fisheries closures in place to maintain consumer 
confidence in the safety of consuming seafood from the Gulf of Mexico 
region. In addition, NOAA experts are providing expertise and 
assistance regarding sea turtles, marine mammals, and other protected 
resources such as corals.
    To facilitate on-the-ground understanding of the spill's impacts, 
NOAA is awarding grants for rapid response projects to monitor the 
impacts of the oil spill on Louisiana's coastal marshes and fishery 
species through the Sea Grant Program. To support the local communities 
as they deal with the economic, social, and environmental impacts of 
the spill, the Gulf Coast Sea Grant Programs are hosting a series of 
open forums across the Gulf where citizens have the opportunity to 
interact with industry, government, and university representatives. 
NOAA-organized volunteer beach clean-ups to remove debris from state 
beaches are helping to facilitate the cleanup of oil along the 
shoreline.
    With multiple agencies supporting a diverse array of research 
projects in response to the Deepwater Horizon oil spill in the Gulf of 
Mexico, it is important to coordinate research activities to ensure the 
best use of limited resources. NOAA's Gulf Coast Sea Grant Programs 
developed a website (http://gulfseagrant.tamu.edu/oilspill/index.htm) 
to serve as a central database listing ongoing research activities and 
identifying funding opportunities for oil-spill related research, 
whether conducted by government, academic, or privately-supported 
scientists. The website's intent is to provide a single, comprehensive 
view of research activities in the Gulf that are being undertaken in 
connection with the Deepwater Horizon oil spill and to foster 
coordination of these efforts.
    At the onset of this oil spill, NOAA quickly mobilized staff from 
its Damage Assessment Remediation and Restoration Program to begin 
coordinating with Federal and state co-trustees and the responsible 
parties to collect a variety of data that are critical to help inform 
the NRDA. NOAA is coordinating the NRDA effort with the Department of 
the Interior (another Federal co-trustee), as well as co-trustees in 
five states and representatives for at least one responsible party, BP. 
NOAA and the co-trustees are in the initial phase of this process and 
are currently gathering data on resources such as fish, shellfish, 
birds, and turtles, and mammals; their supporting habitats such as 
wetlands, beaches, and corals; and human uses of affected resources, 
such as fishing and recreational uses across the Gulf of Mexico. The 
trustees will then quantify the total losses and develop restoration 
projects that compensate the public for their losses.
    NOAA is also involved in many activities to assess the presence of 
subsurface oil from the Deepwater Horizon spill. Since the beginning of 
May, NOAA has been conducting and coordinating sampling of the sub-
surface region around the Deepwater Horizon well-head and beyond to 
characterize the presence of subsurface oil. The sub-surface search 
involves the use of sonar, UV instruments called fluorometers, which 
can detect the presence of oil and other biological compounds, 
submersible laser-scattering instruments to determine oil concentration 
and distribution and collection of water samples from discrete depths 
using a series of bottles that can be closed around a discrete water 
sample.
    NOAA, Federal partners, academics, and others in the research 
community have mobilized to research and quantify the location and 
concentration of subsurface oil from the spill. NOAA Ships Gordon 
Gunter Thomas Jefferson, Nancy Foster, Delaware II, and Pisces have 
conducted and continue to conduct missions to collect water samples 
from areas near the wellhead as well as further from the wellhead and 
in the coastal zone. Water samples from many of these missions are 
still being analyzed and additional missions are in progress or being 
planned to continue the comprehensive effort to define the presence of 
oil below the surface and understand its impacts.
    For both the response and the NRDA, offices throughout NOAA are 
mobilized and hundreds of NOAA personnel are dedicating themselves to 
assist with this unprecedented effort.
Opportunities to Strengthen Federal Response Through Research and 
        Development
    When passed in 1990, OPA envisioned a robust oil spill research and 
development program coordinated by the Interagency Coordinating 
Committee (ICC) on Oil Pollution Research. OPA recognized the need for 
research and created the ICC to coordinate and direct a dedicated 
program on oil pollution research, technology development, and 
demonstration among industry, universities, research institutions and 
Federal agencies, state governments and other nations, if appropriate. 
To date, funding has been provided through various state and Federal 
agencies and industry for oil pollution research. While coordinated 
interagency research activities are occurring, important research 
questions remain.
    Achievement of the comprehensive and collaborative research and 
development program envisioned by OPA can only increase the 
effectiveness of our Nation's oil spill response and restoration 
capabilities. While existing research has resulted in advancement of 
some research technologies, more must be done to strengthen our 
Nation's response capabilities. A renewed commitment of the ICC to 
focus on the most pressing research needs--particularly deepwater 
releases and releases in cold/icy waters--is one place to start. The 
Administration is committed to this effort.
Activities to Improve Future Response and Resource Assessment Efforts
    The Deepwater Horizon oil spill is a grave reminder that spills of 
national significance can occur despite the many safeguards and 
improvements that have been put into place since the passage of OPA. 
Although the best option is to prevent oil spills, the risk of oil 
spills remains a concern given the offshore and onshore oil 
infrastructure, pipes, and vessels that move huge volumes of oil 
through our waterways. If a spill does occur, responders must be 
equipped with the appropriate tools and information. An effective 
response, based on solid science and smart decision-making reduces 
environmental and socioeconomic impacts, as well as clean-up costs. 
Research and development and technological innovation by the public or 
private sector in the following areas would greatly enhance the tools 
and technologies available in the event of a spill.

  <bullet> Oil Fate and Behavior from Deepwater Releases--Our ability 
        to know where the oil is located is limited by what we can see 
        and detect. As the Deepwater Horizon oil spill is 
        demonstrating, there is a need to understand how oil behaves 
        and disperses within the water column when released at deep 
        depths. The emerging advancement in modeling three 
        dimensionally can greatly enhance response operations and 
        mitigation efficacy. NOAA's surface trajectory models predict 
        where the oil on the surface is going based upon wind, 
        currents, and other processes, and visual overflights validate 
        where it is now. NOAA is currently employing facets of deep 
        water oil spill models that were developed in part from the 
        findings of the MMS DeepSpill Joint Industry Research Project 
        done in 1999-2000 with international participation. However, we 
        still understand little about the movement of oil deep in the 
        ocean or the movement of dispersed oil that is suspended in the 
        water column. The enhancement of three dimensional models will 
        improve our ability to predict the movement of oil at depth and 
        allow us to direct precious resources to validate the model's 
        accuracy. Currently, NOAA is working to implement FY 2010 funds 
        to enhance three-dimensional models.

  <bullet> Technology for Oil Detection in the Water Column and on the 
        Seafloor--Research on new technologies for rapid and accurate 
        detection of oil in deep water and plumes in the mid-water is 
        needed. This would include the development of technologies to 
        enhance our understanding of the fate and transport of oil, and 
        to better understand the effects of oil on benthic habitat. 
        There also appears to be some utility in applying existing 
        technologies in a new and unique way to reach these same goals. 
        For example, in limited research applications, modern multibeam 
        echo sounders have been able to detect oil in the water column 
        and on the seafloor. In addition, sensors on autonomous 
        underwater vehicles and gliders are capable of detecting the 
        presence of oil and gas in the water column. Whether provided 
        by new technologies, or through re-examining the capabilities 
        of current technologies, highly accurate information on the 
        precise location of spilled oil would be of significant benefit 
        to a spill response, such as Deepwater Horizon oil spill. 
        Timely understanding of the precise location of the spilled oil 
        would allow responders to position their activities and better 
        utilize limited resources to maximize our contributions to 
        protect and restore the resources, communities, and economies 
        affected by these tragic events.

  <bullet> Surface Observations and Trajectory Models--Real-time data 
        on currents, tides, and winds as well as sustained observations 
        of physical and chemical parameters of the whole water column 
        are important in driving the models that inform the trajectory 
        forecast for the spilled oil. As the Integrated Ocean Observing 
        System generates more data from technological advances like 
        high frequency radar, the prediction of oil location can be 
        improved by pulling these observations into trajectory models 
        quickly. Through the collaborative efforts of the U.S. 
        Integrated Ocean Observing System (IOOS), two of the three 
        radars along the northern Gulf of Mexico coast were quickly re-
        established and made operational and now all three are 
        delivering surface current data. Because we cannot predict 
        where a spill will occur, data delivery from high frequency 
        radars is envisioned to be part of a seamless national system.

    Data collected by space-based synthetic aperture radar can be used 
        to produce high resolution images of the Earth's lands and 
        oceans and can also be used in all types of weather, as it can 
        ``see through'' clouds and darkness. Current use of NOAA-
        generated experimental products suggest that data from space-
        based synthetic aperture radar can assist in detecting and 
        refining the areal extent of oil, which would provide valuable 
        information to help determine where response efforts and 
        resources should be deployed.

    Current hydrographic surveys carry out sustained observations of 
        the whole water column in the Gulf of Mexico, Florida Bay, and 
        Florida Keys, and will be extended if the oil or dispersant 
        spread through the Strait of Florida and into the Gulf Stream. 
        These surveys, along with satellite observations and numerical 
        models, allow monitoring of currents and features responsible 
        for the transport of oil and dispersant. A sustained observing 
        system for this region would allow NOAA to provide predictive 
        information about how the spill may impact the East Coast of 
        the United States.

  <bullet> Long-Term Effects on Species and Habitats--Spilled oil can 
        remain in the sediments along the shoreline and in wetlands and 
        other environments for years. More than twenty years later, 
        there are still toxic levels of sub-surface oil in Prince 
        William Sound from the Exxon Valdez spill. Research is needed 
        to improve our understanding of the long-term effects of oil on 
        sensitive and economically important species and habitats. 
        Continued research is also needed to determine the effects of 
        oil and dispersants that are suspended in the water column on 
        pelagic species, as well as research on the effects of oil on 
        deep water corals, chemosynthetic communities (animal 
        communities living in the deep sea on dissolved gases and 
        benthic habitats) and benthic habitats. Important interagency 
        studies are currently underway that will provide valuable 
        information on the sensitivity and resilience of these 
        deepwater communities, and will inform response actions.

  <bullet> Data Management Tools for Decision Making--The key to 
        effective emergency response is efficiently integrating current 
        science, information technology, and real-time observational 
        data into response decision-making. NOAA has developed the 
        Emergency Response Management Application (ERMA), a web-based 
        information management application, to facilitate preparedness, 
        response, and restoration decision-making for oil spills and 
        for other coastal hazards. ERMA integrates observations (e.g., 
        NOAA National Buoy Data Center data, weather data, shoreline 
        data, vessel traffic information, etc.) with archived data 
        sources (e.g., NOAA's National Oceanographic Data Center's 
        historical data) in an easy to use, Google-based format to aid 
        in evaluating resources at risk, visualizing oil trajectories, 
        and planning rapid tactical response operations, injury 
        assessment and habitat restoration. Having access to 
        retrospective data is critical to bring value to real-time 
        observational data being collected. NOAA is working with the 
        Department of the Interior (DOI) and state trustees to assure 
        that data management tools can be integrated.

    NOAA is currently using the Gulf of Mexico ERMA for the Deepwater 
        Horizon oil spill response to help manage the common 
        operational picture for all command posts (http://
        www.geoplatform.gov/gulfresponse/). The Gulf of Mexico ERMA is 
        updated daily to provide a dynamic and automated tool allowing 
        for greater access, more layers of data, and high-resolution 
        photography. ERMA allows users to navigate through different 
        layers of information to reveal actual data and magnify areas 
        of geographic interest--ultimately improving decisionmaking. In 
        addition to the Gulf of Mexico, ERMA is operational in the U.S. 
        Caribbean and New England.

  <bullet> Natural Resource Protection Tools--Environmental Sensitivity 
        Index (ESI) database and map products provide information that 
        helps reduce the environmental, economic, and social impacts 
        from oil and hazardous substance spills. ESI maps include 
        information on biological resources (such as birds, shellfish 
        beds, and endangered species), sensitive coastal and nearshore 
        habitats (such as marshes, tidal flats, and sea grass beds, 
        National Estuarine Reserves and National Marine Sanctuaries), 
        and human-use resources (such as public beaches, parks, and 
        drinking water intakes). ESI maps are one tool that spill 
        responders can use to identify priority areas to protect from 
        the spreading oil, develop cleanup strategies to minimize 
        impacts to the environment and coastal communities, and reduce 
        overall cleanup costs. NOAA's goal is to update ESI maps 
        approximately every 10 years to ensure responders have up-to-
        date information.

  <bullet> Research to Improve Tools for Assessment and Restoration--
        Current techniques to assess and restore injured natural 
        resources need to be constantly updated and refined. As our 
        understanding of complex ecosystems evolves, so should our 
        modeling tools and restoration techniques. For example, 
        currently, site-specific protocols for assessing injuries to 
        unique, high-value habitats such as those found in the Arctic 
        are needed. In addition, research and tools to better assess 
        and quantify natural resource services--such as water 
        filtration and capture, flood protection, carbon sequestration, 
        recreation, and education--across a range of habitat types can 
        help ensure the public is fully compensated and the environment 
        is fully restored.

  <bullet> Air Quality Impacts--In addition to its marine 
        responsibilities, NOAA assists in predicting the air quality 
        impacts from oil and hazardous substance spills. The 
        characteristics of pollution released from large areas of 
        burning oil and the widespread evaporation of oil are 
        significantly different from routine air quality/atmospheric 
        dispersion scenarios. Research and development of improved 
        tools to estimate the characteristics of compounds entering the 
        atmosphere, and integration of those tools with NOAA's existing 
        atmospheric modeling capabilities, would significantly improve 
        NOAA's ability to predict smoke and chemical concentrations in 
        the atmosphere resulting from such incidents.

  <bullet> Oil in Arctic Environments--Continued acceleration of sea-
        ice decline in the Arctic Ocean as a consequence of global 
        warming may lead to increased Arctic maritime transportation 
        and energy exploration that in turn may increase the potential 
        of oil spills in the Arctic. Recent studies, such as the Arctic 
        Monitoring and Assessment Programme's Oil and Gas Assessment, 
        indicate that we currently lack the information to determine 
        how oil will behave in icy environments or when it sinks below 
        the surface. We also lack a basic understanding of the current 
        environmental conditions, which is important for conducting 
        injury assessments and developing restoration strategies. 
        Research is needed to better understand the challenges of spill 
        response in Arctic waters and the most effective tools and 
        techniques to utilize in such environments.

  <bullet> Human Dimensions--Research is needed on how to incorporate 
        impacted communities into the preparedness and response, 
        restoration and recovery processes to help to address the human 
        dimensions of spills, including social issues, community 
        effects, risk communication methods, and valuation of natural 
        resources. Transparency and communications can be improved to 
        share information with impacted communities on how and why 
        decisions are made, and the breadth of response and NRDA 
        activities that have been and will be undertaken for the 
        Deepwater Horizon oil spill.
Conclusion
    As this committee is well aware, research takes time. A major 
research cruise can take a year to plan. A model can take years to 
develop and validate. A report can take months to get right. The 
Deepwater Horizon oil spill is causing harm that will impact coastal 
environments for years to come. Applying the latest science and 
continued research and development efforts in the public and private 
sectors can improve our response decisions, thereby reducing injury to 
our Nation's economy and environment.
    I would like to assure you that we will not relent in our efforts 
to protect the livelihoods of affected Gulf Coast residents and 
mitigate the environmental impacts of this spill. In the wake of such 
an event, we are reminded of the fragility of our coastal ecosystems 
and the dependence of coastal economies on the health and prosperity of 
our seas. Thank you for allowing me to testify on NOAA's response and 
damage assessment efforts and areas for future research. I am happy to 
answer any questions you may have.

    Senator Cantwell. Thank you, and thank you both for your 
testimony.
    Captain Sisson, you have over 3,500 different proposals 
that have been through the Alternative Technology Assessment 
Program, 77 of which have been forwarded to the Incident 
Command. Is that Admiral Allen? Is that----
    Captain Sisson. No, senator. That is directed to the 
Federal on-scene commander, who, at the time, until recently, 
was Admiral Watson. It is now Admiral Zukunft.
    Senator Cantwell. OK. And do they have a process there for 
reviewing those?
    Captain Sisson. Right now, those ideas are forwarded to the 
Critical Resources Unit, who arraigns them with the other 
operational needs and requirements of the spill response.
    Senator Cantwell. So have any of those 77 proposals been 
given final approval and are in current use?
    Captain Sisson. There are two right now that are being 
used. The U.S. Navy's blimp is one, and it's in a test-and-
evaluation phase, but it is being used in the Gulf.
    The other is a sorbent boom made by AbTech, called Smart 
Sponge. That has been approved for use both by the IATAP 
reviewers and the BP reviewers, and it's waiting for an 
opportunity to deploy.
    There are several others that are being tested right now.
    Senator Cantwell. And where are they being tested?
    Captain Sisson. They're being tested down on the beaches in 
Alabama, Florida and Louisiana.
    Senator Cantwell. This boom, is that what you're referring 
to or do you mean other technologies?
    Captain Sisson. Other technologies. There's a Gravely Rapid 
two-wheel tractor. It's a self-propelled beach cleaner that's 
smaller, more mobile than the current beach cleaner that's 
being used. It was authorized through a request for funds 
yesterday, and we're seeking to buy that and put it to work on 
the beaches, as it can go closer to the water than the current 
sand cleaner.
    Senator Cantwell. So everything that has been submitted 
through the Coast Guard--77 proposals have been submitted on. 
Two have actually or one is actually in use. The other one's 
approved, but not in use, and a third one you've just taken 
action in the last 24 hours. Is that right? The tractor I'm 
saying.
    You're saying the Navy blimp and the boom--The Navy blimp 
is in service, limited. The boom you're saying you're going to 
be testing. You've made a decision to use that technology. And 
the third one, you've started the acquisition process. Is that 
right?
    Captain Sisson. Yes, senator. We've also approved the 
automatic information system transmit capability. That's an AIS 
transmitter that'll be put on vessels of opportunity for 
greater command and control and message-receiving and 
transmittal from those vessels. It's been approved also, but 
it's still undergoing its initial purchase and deployment. We 
haven't tested it yet.
    Senator Cantwell. So out of those proposals, you can say 
four are--out of 77 proposals, four have made it through the 
process and the Coast Guard is deciding to use them.
    Captain Sisson. Yes, senator, and also I'd like to add that 
we did test the supertanker, A Whale. So it would be considered 
a fifth.
    Senator Cantwell. And decided not to use it, is that what 
you're----
    Captain Sisson. Yes, senator. The A Whale, although it's a 
compelling engineering feat, is not suitable to this particular 
type of spill, and that was the finding of our test team.
    Senator Cantwell. And I know the Coast Guard has access to 
the ideas that BP has submitted, but are you going to be going 
through that process? Are you going to be reviewing those 
submissions at some point?
    Captain Sisson. We review the BP database on a daily basis 
to make sure that there are no duplications or if there are 
duplications what the actions are between BP and the IATAP.
    But, at this time, we are not going through each and every 
BP submission and analyzing it on its own merits. We're 
strictly going through the BAA process for submissions.
    Senator Cantwell. Well, if you have about 3,500 submissions 
and they have over 100,000, how do you know that the process is 
working, that some of the things aren't falling through the 
cracks going through the BP process?
    I get the point of looking for duplication, but isn't the 
point that you might be missing some--somebody's getting stuck 
in a process of viability on their technology?
    Because I think it's probably safe to say the BP process is 
not working as well, in the context of their--If you just look 
at the sheer volume, I doubt that they've been able to process 
that information.
    Captain Sisson. Yes, Senator. We set up this process 
because of complaints received from the public about the BP 
database's difficulty in getting feedback. And we also felt 
that the government should have a standalone capability in this 
regard.
    Access to the BP database is not the same as reviewing each 
and every one, yes, senator, but we're not currently staffed to 
get that--It is possible, if we put on enough effort, but we 
don't have the staff for that right now.
    Senator Cantwell. Well, but, again, I think it draws the 
point that there is this much public interest and potential for 
technology and yet we're here at this point where we don't even 
have the capabilities of reviewing it. Is that correct?
    Captain Sisson. Well, Senator, we have the opportunity to 
look at that, and many of the inputs to the process from BP are 
more, I'd say, vituperative than they are helpful.
    There are many submissions that aren't exactly submissions. 
It's difficult to get through that database, and I think that 
that was one of the reasons why we went to a BAA submission, so 
that we could have an actual proposal with a technical approach 
and a rough-order-of-magnitude cost associated with it. It's 
easier for us to handle that.
    Senator Cantwell. And so you think you're getting the best 
of the ideas out of that BP database?
    Captain Sisson. Ma'am, I don't know that I have the best 
ideas from the BP database.
    Senator Cantwell. Thank you.
    Senator Snowe.
    Senator Snowe. Captain Sisson, can you tell me, you have 
received 3,600 submissions, 87 of which were deemed worthy to 
be forwarded, correct?
    Captain Sisson. Yes, Senator.
    Senator Snowe. And there are five that are currently being 
tested. None have been fully implemented at this point.
    The five that are being currently tested includes a Navy 
airship, and a foreign-flag skimmer, meaning only three are 
from U.S. businesses.
    Now, the Navy ship had to go through the process, correct? 
Why would they have to go through the process?
    Captain Sisson. Actually, there were multiple tracks on the 
Navy airship. It's actually the Navy who contracted a 
corporation, the American Blimp Company of Oregon. They own the 
blimp. It was offered up on several different tracks to the BAA 
process, also directly to the Coast Guard. And we were actually 
contacted by CG-53 to see if we could assist in testing this 
vehicle.
    So we each went out to our interagency partners--South and 
NAVAIR--and we worked with them to get the blimp up and running 
as soon as possible.
    Senator Snowe. We've been told for months now that all 
available assets have been brought to bear on this crisis. Is 
that true?
    Captain Sisson. I don't know the answer to that, Senator.
    Senator Snowe. Yes. I think that's the concern. I mean, I 
just don't sense an element of urgency in this process.
    I've been involved in a number of hearings now, and I feel 
like it's the status quo, that there's no synchronization 
between BP and the Federal Government and all of the agencies.
    I mean, what is it that we don't know? We need to have all 
the assets available down there to contain the spill, to 
disperse the oil, to do everything we can to implement new 
technologies. And it doesn't sound like we are giving this the 
kind of energy that this process requires, given the nature of 
the calamity at stake.
    I just think it's a bureaucratic process that has gotten so 
bogged down that we're just not making any headway. And it is 
not synchronized with BP to understand exactly what 
technologies are being rejected, what assets are being 
rejected, what ships are being rejected. We don't even know 
what they're rejecting. Do we?
    Captain Sisson. Well, since we have access to that 
database, we know when we send our ideas down that we think are 
good ones, we have a discussion----
    Senator Snowe. But are they overruling our ideas, given 
what's at stake for us as a country, I mean, our national 
interests?
    This really is a crisis of epic proportion for this 
country. So what's at stake is the public interest now. And so 
I just can't imagine that a corporate interest would be 
overriding the national interest and making those decisions.
    Captain Sisson. Senator, I can only speak for the work that 
I do, and in the case of the A Whale, the initial response from 
BP is that they were not interested.
    The initial response from the IATAP technical evaluation 
team was that it was worth a look.
    We had a basic disagreement and we settled that with a 
face-to-face meeting at Sector New Orleans on Lake 
Pontchartrain.
    On a sit-down meeting between the owners of the vessel, BP 
and the Coast Guard, we came up with a way ahead that they 
could deploy the ship close to the source, that we would put a 
combined Navy, Coast Guard and BP observation team aboard to 
test whether or not that ship could take aboard much in the way 
of oil and water and then give it several days on scene.
    We did that on two occasions over the Fourth of July 
weekend and then later on on the 12 and 13 of July. And I think 
that that was a case or template by which further cooperation 
is necessary.
    Senator Snowe. Well, I don't doubt that you're trying to do 
your very best, and I know it's not a decision that you would 
make.
    But I do think that the process is so complex, and the fact 
is that if BP can override any of our decisions, or make 
decisions that are contrary to our interests as a nation, 
that's problematic and deeply disturbing. I think that's the 
point here. That's what concerns me above all else. And the 
corporate interests are not necessarily the public's interest.
    They have decisions to make for their own interest. I 
understand that. They're a company. They're going to make 
decisions. They're going to make business decisions, but they 
don't necessarily square with the public-interest decisions, 
and that's what concerns me.
    The fact is that you have to go through a convoluted 
process because BP has rejected something outright. The Coast 
Guard should be making that decision, in the final analysis, 
based on what's in the best interest of the Nation--cleaning up 
and doing everything that we need to do to bring the very best 
to bear in that process, frankly, and so that's what's 
disturbing to me.
    There are only five of the 87 technologies and 
methodologies referred to the IATAP that are being tested and 
evaluated, so what is the status of the remaining 82?
    Captain Sisson. They are currently being reviewed by the 
Critical Resources Unit. Some of them are being lined up but 
are not being employed at this time because of other 
operational needs.
    Senator, I would like to point out that the Federal on-
scene coordinator can direct the use of technology. It is not 
BP's call.
    Senator Snowe. Have they?
    Captain Sisson. To date, I am not aware that they have.
    But I think we were talking about the other ideas. We're 
trying to refine the IATAP process. It's kind of like working 
behind a guy who's hanging drywall, but you're handing him a 
sledgehammer. We have to put the right tool in the hands of the 
people who are busily engaged in this effort, and that's a 
process that needs refinement.
    We've ended up sending members from the R&D and the IATAP 
down to the UAC on a permanent basis, so that they can advise 
the Critical Resources Unit. And that has actually done us a 
lot of good the last few days. We have to make sure that the 
tools that we offer to the Federal on-scene coordinator are 
what he needs.
    Senator Snowe. Do you have enough personnel to vet all 
these technologies?
    Captain Sisson. It is a large and daunting task, senator, 
and we are busily engaged with the bulk of the R&D staff to 
execute this work. All effort is scalable.
    Senator Snowe. So you don't have enough. That's obvious.
    Well, it's regrettable. I mean, someone is obviously making 
decisions that aren't in the best interests of fulfilling, I 
think, an urgent need here. What's at stake for the country and 
for the Gulf Region and for the people who live there and have 
to work there is losing their livelihoods and we are not 
helping them in a way that they deserve, in that sense.
    That's what's regrettable about this. There's just not a 
level of urgency involved here to amass all the resources that 
are absolutely essential and vital to getting this done.
    Thank you, Madam Chair.
    Senator Cantwell. Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Madam Chair, and thank 
you to the Coast Guard. I know every day in Alaska we value the 
Coast Guard and the work they do. We have the largest space up 
there in Kodiak, as you know, and it's just a great resource.
    But I want to follow up on a couple of points, I think, the 
Senator just went through. And, first off, you know, as I watch 
and listen--and I hope to be in Louisiana on Monday--but, you 
know, I look at the skimming and dispersants and booming, this 
is the same technology they used in 1989 when we dealt with the 
Exxon Valdez. So I'm trying to understand, in all these years, 
where is the technology advancement?
    I mean, back then, we didn't have a cell phone. Today, we 
have incredible technology around just using our phone and 
iPads and everything else. Where has the improvement occurred, 
if there has been any improvement? Honestly, I don't see it. 
Help me or clarify it for me.
    Captain Sisson. Well, the greatest outcomes of the Exxon 
Valdez, in my opinion, were the double-hull requirement on 
supertankers that drove down the oil incidents greatly.
    Senator Begich. That's a preventative spill issue. I'm 
talking about cleanup.
    Captain Sisson. Yes, Senator, the in-situ burn was 
developed post-Exxon Valdez largely by the Coast Guard's 
Research and Development Center.
    I worked on that project as a lieutenant back in the early 
1990s, and we actually had to use oranges instead of oil to 
pour onto the water because we couldn't put oil on the water.
    And then we got reports that a vessel had sunk off of 
Galveston, obviously because they had lost their cargo.
    These efforts were actually very successful, but had never 
been tried in the United States on any scale until now.
    And so we at the R&D Center are very proud of the fact that 
the in-situ burn is actually underway and working very well.
    Senator Begich. Let me ask you, if I could follow up on 
that, I know in Norway they actually do controlled spills to 
test their technology. They haven't done it in some time, but 
that has been their method.
    We are not allowed to do that in this country for a variety 
of reasons. It makes people very nervous. But would it help to 
advance with some controlled spills to really understand 
disbursements, understand controlled burns and other things?
    I mean, Norway, which, in a lot of ways, has perfected 
drilling in very hostile environments and also cleanup 
capacity. Can you give me a comment on that?
    Captain Sisson. Well, senator, we work within the laws that 
we're given, and we----
    Senator Begich. That's not what I'm asking you. I'm asking 
you your view on how Norway has approached this on controlled 
spills and management of that to determine the best use of 
dispersants and other technologies, in real-life experience, 
rather than waiting for a disaster to happen. Do you think 
that's a good idea or a bad idea?
    Captain Sisson. I think that's an idea worth considering, 
senator.
    Senator Begich. That's fair.
    Captain Sisson. But I would want to make sure that whatever 
I did to the ocean was fixable.
    Senator Begich. Absolutely. No, that's fair. I mean, I hear 
it all the time, but I just wanted to test that and check with 
you.
    Let me ask you--if I can follow up just on a question of 
personnel--earlier last week, I introduced a piece of 
legislation that deals with Arctic spill and research and 
technology. I think tomorrow we're going to do some markup on 
it here in this committee, in the broader committee.
    And one of the funding sources--because I think I want to 
expand an answer for you, I know it's hard when you're sitting 
up here to answer budgetary questions. You do not have enough 
money--I'm going to tell you that--from the research and the 
capacity to research and develop oil-spill technology.
    And so one of the pieces of legislation we've laid on the 
table is a three-cents, seven-cents. In other words, three 
cents per barrel on domestic-produced oil and seven cents on 
foreign oil--higher price for them, because I don't like 
foreign oil--produces about $300 million a year for NOAA and 
Coast Guard and other activities to really develop what we 
should be doing and should have been doing for the last 20 
years.
    Do you think those kind of resources would be--I'm asking 
in a positive way, so you cannot get in trouble with whoever is 
watching on the screen. Do you think that's a positive thing, 
that kind of resource? Would that help in developing and 
utilizing that kind of resource for you?
    Captain Sisson. Senator, the R&D Center has been involved 
in past years in oil-remediation and oil-spill response 
technologies. Yes.
    Senator Begich. Good. I'll leave it at that.
    Let me ask you, if I can just--again, a quick one. You had 
mentioned that BP or the discussion--you know, there has been a 
rejection and debate on some of the utilization, and you can 
direct the use of technology through--because you have that 
statutory right. And you had mentioned or you had assumed or 
thought that that has not been done yet.
    Expand on that, because I would think that if you all 
thought it was important, at the end of the day, you need to 
just do it and make the force of technology advancement or 
utilization of that technology despite the company's maybe 
question, because their track record hasn't been very good on 
their analysis of what works, to be very frank with you, and 
I'd rather put my hands, my trust in you guys.
    So why have you been hesitant to just say, We're doing 
this, and, BP, we're going to send you the bill later, and 
we're trying this new technology?
    Captain Sisson. At the R&D Center and the IATAP, senator, 
we create tools for the Federal on-scene commander to use. We 
hand them off to him to use in the OPTEMPO that he is working 
at.
    For instance, we immediately took a look at all the 
submissions and tried to divide them up into what could be 
immediately useful, but we didn't do that regards to what he 
may have needed that particular day. So the ideas that we've 
triaged and sent down may not fit his needs. That's the extent 
of my knowledge of the process.
    Senator Begich. Does your--And I'll end on this because I'm 
well over time here, but how aggressively do you promote the 
technology that you are bringing to the table?
    In other words, I understand the military structure, to a 
certain extent. You kind of move it and someone else moves it, 
someone else moves it, but you guys are developing it. You know 
the reality of how it'll work or not work. How aggressive are 
you? Are you able to step out of the command structure and say, 
Look, this is what you need down there, rather than, Well, 
we'll let it go to the next department to make that 
determination. How aggressive are you in that arena?
    Captain Sisson. Well, senator, I think that the IATAP 
process is a very clean and a great operating organization, in 
the sense that we have a direct line to the Federal on-scene 
commander. There is no chain of command between myself and 
Admiral Zukunft. The recommendations that we make have to be in 
light of what he needs at the time.
    That said, if they make a decision that they don't want to 
pursue a particular technology at this time, we're not to get 
in their way. They've got a battle to fight.
    Senator Begich. OK. I'll stop there, Madam Chair.
    Senator Cantwell. Mr. Helton, isn't the issue that we have 
lack of protocols or standards in place to evaluate technology?
    And, as in your testimony, you mentioned the fact that we 
really have not done the level of research to say what is best 
technology of today, and so, consequently, here we are with 
this crisis in place and now we're trying to do catch up for 
basically 20 years of lack of focus on this technology?
    Mr. Helton. Yes, I agree that we, as a Nation, have not 
invested in the R&D that we need, and NOAA has tried to move 
the ball forward with limited support in the sense of we have 
some base funding that we've put toward R&D. We had a very 
strong partnership with the University of New Hampshire, and 
you'll hear about that from the second panel, I'm sure.
    But some of the work that was done there actually has been 
directly relevant to this spill, including things like 
deepwater oil and gas and how that behaves and how quickly 
those plumes surface and how they behave. So there definitely 
is a need to do that.
    It's just that the challenges that we go from having a 
trickle to a fire hose of interest and how do we maintain an 
R&D effort in between those spills, so that we can develop the 
tools we need with the time it takes to properly test and vet 
these technologies.
    Senator Cantwell. Well, shouldn't it be more scientific 
than that? We see now--This committee has had oversight 
hearings over the number of large vessels, the growth in large 
vessels outside of oil tankers carrying large amounts of fuel, 
and so that has posed the question to us: Don't we need to have 
better regulations because of the large amount of oil that 
these ships are carrying? So we've had that discussion.
    Shouldn't the discussion have been: We are now doing more 
and more deep-sea exploration and that raises the risk of 
challenge to the kind of spill or catastrophe that would 
happen, and you would have thought that that kind of permitting 
process would have put you on pace to do the kind of research 
and development on what kinds of dangers might exist there and 
what kind of technologies would be needed.
    Mr. Helton. Yes, and we're looking at----
    Senator Cantwell. So it's not really a guess. I mean, we're 
not sitting here going to guess about what's the shape of the 
next catastrophe. It's more: What are the practices that we are 
doing and what kind of safeguards do we need to have against 
those practices?
    Because, obviously, boomers and skimmers, at this point in 
time, are totally inadequate to deal with the catastrophe.
    Mr. Helton. And we are continuing to explore in more and 
more remote locations, and we're continuing to propose 
navigation in places that are more and more remote potentially 
with the opening up of the Arctic for more navigation. So those 
are obviously very much a concern for my agency.
    We have put forward some of those concerns. You mentioned 
them in your opening statement, I believe, about some of the 
comments that NOAA's made in the past about are we prepared. 
And so I think those are on the record already that we share 
those concerns.
    Senator Cantwell. Well, I'm sure my colleague disagrees 
with me, but it's one of the reasons why I don't support 
opening up more of the Arctic, because if this catastrophe 
would have happened in the Arctic, we don't have any of the 
resources there. We wouldn't have had any ability to get the 
level of resources that we've been able to amass in the Gulf up 
to that particular area.
    But my question is the level of research that NOAA has been 
involved with so far has shown some promise in evaluating what 
is the crisis at hand today, which is the response to large 
volumes of oil moving about in the ocean. Is that correct?
    There's some basic technology that we could have, if we put 
our foot on the accelerator, been at a better place right now 
to understand where these plumes would be going, the types of 
information we could have achieved from them and better helped 
our response plan. Is that correct?
    Mr. Helton. Yes, and NOAA's focus in this regard has been 
improving things like our three-dimensional modeling, so we 
understand how oil behaves in the water column, not just from 
subsurface releases, but when you have a surface release and 
that oil disburses into the water column where does that oil go 
relative to the surface. We have----
    Senator Cantwell. Which is very different technology and 
focus than saying let's look at single-hull tankers or let's 
look at vessels that have now, because they're carrying so much 
cargo, become larger carriers of fuel.
    Mr. Helton. Yes, I agree that NOAA's role is much less on 
the prevention and design of safer vessels or platforms and 
more on improving our understanding of how oil behaves and 
moves and what we can do to do a better job of cleaning up 
shorelines, how we can make better decisions about tradeoffs of 
things like dispersants and burning.
    The other area that we've done a lot of work on recently 
has been on information technology. Everyone wants the 
information right away, and we've suffered for not being able 
to get information out as rapidly as possible.
    And we have developed some prototype information systems 
that are up and running for this spill where all members of the 
public can go and see what the latest trajectory is, where the 
contaminated shorelines are, where the fishery closures are. So 
we're working on that information technology as well, so that 
the information that we do collect and learn we can share more 
rapidly.
    Senator Cantwell. Thank you.
    Senator Snowe, do you have further questions?
    Senator Snowe. Yes, thank you.
    Mr. Helton, did NOAA have any contingency plans in place 
with respect to a response to an oil spill in the aftermath of 
Exxon Valdez? What has been learned from that and what types of 
technologies or chemicals were used in the process? What was 
tested that would have been considered in a contingency plan in 
the event of another oil spill?
    Mr. Helton. Yes, NOAA participates as a member of the 
National Response Team and the regional response teams around 
the country to help plan for and prepare for spills and other 
kinds of events like this.
    Senator Snowe. And was one developed since Exxon Valdez in 
that sense of with the use of chemical dispersants?
    Mr. Helton. Dispersants are an accepted and approved tool 
by the U.S., and they're pre-approved in some areas of the 
country where the regional response teams have evaluated their 
use and put terms and conditions on when it could be and should 
be used.
    Senator Snowe. Has NOAA had any discussions with EPA 
regarding the use of these chemical dispersants? I understand 
they're using a sub-sea application that has never been used 
before. Was that even tested in the past?
    Mr. Helton. There has never been--I don't think it was even 
envisioned to do subsea dispersants. All the dispersant work 
that we're aware of has focused on dealing with a leaking 
vessel or platform at the surface and dispersing oil in the 
surface waters, not at that depth.
    Senator Snowe. I see. So the response teams that were 
developed never used a subsea application.
    Mr. Helton. No, that was a novel application for this 
incident.
    Senator Snowe. I see. So it's never been tested in that 
sense.
    Mr. Helton. No----
    Senator Snowe. Very unusual.
    Mr. Helton. Yes.
    Senator Snowe. So we're using something that has never been 
done before.
    It is remarkable that in 20 years since Exxon Valdez that 
we have not been able to put certain technologies or carry out 
testing of chemicals. There were no chemicals ever used in the 
Exxon Valdez, nor in-situ burning, for that matter. It is a 
terrible oversight that we wouldn't have had all this tested in 
the interim in response to the plan.
    And I raise this because, before the Small Business 
Committee, there was an individual who has a small business, 
had a technology that has been developed for 20 years, which 
had been used in other types of oil spills, and it's surprising 
to me that a lot of these technologies that have already been 
vetted could have been used in this instance.
    So I'm just wondering why--and I'm going to ask you the 
same thing, Captain Sisson--in these contingency plans, some 
things that have been used before were omitted. Obviously, in 
this case, a subsea application wasn't used, but has Corexit 
ever been used?
    Mr. Helton. That's a standard dispersant that's stockpiled 
for use in the U.S., and it has been used on other incidents, 
but never to this scale.
    Senator Snowe. This scale of the approximately two-million 
gallons, I understand. So that amount has never been used.
    So it's really shocking to think that, in the last 20 
years, we haven't developed either the methods or the 
technology as part of a contingency plan.
    Mr. Helton. Well, there has been work on dispersants on a 
number of levels, from the efficacy of how they work and the 
biological effects, but, again, never envisioned at the scale 
that they're being used here.
    But there have been--of the chemical countermeasures that 
we have available, dispersants are fairly well studied, but, 
again, studying them and using them in a small scale is 
different than using them at depth and using them in such large 
volumes.
    Senator Snowe. Captain Sisson, have any technologies been 
incorporated in the contingency plans for the Coast Guard in a 
response plan? Because it's surprising to me that we have to go 
through this arduous process perhaps even re-vetting technology 
that has already been demonstrated to be effective, has been 
used in other types of oil spills in the past.
    Captain Sisson. To get the details of the contingency-plan 
responses, I'd have to get back to you, Senator.
    Senator Snowe. OK. So we don't know whether or not we're 
going through a duplicative process in some instances that 
already could have been part and parcel of a plan. Is that 
correct?
    Captain Sisson. Well, senator, I don't have personal 
knowledge of it.
    Senator Snowe. What?
    Captain Sisson. I don't have personal knowledge. I'd have 
to check and get back with you.
    Senator Snowe. Well I think that, again, it sounds like a 
massive bureaucracy and not at the level that's commensurate 
with the catastrophe at hand, frankly.
    I just cannot imagine that we would not have prepared for 
the worst-case scenario. Would it have made it different, had 
we prepared for the worst-case scenario at the outset or at 
least known the rate of flow from the oil?
    Because, obviously, what was predicted initially ended up 
being less than one-tenth of what exactly happened and what has 
happened. Would it have made a difference in the deployment of 
assets and personnel and anything else that we would have 
required?
    Captain Sisson. That's a question best answered by the 
Federal on-scene commander, Senator.
    I know that the flow-rate question came up fairly early. 
The videography was an issue very early on, and we worked very 
hard to fix that flow-rate technical question.
    Senator Snowe. Well, it could have made a difference. The 
interagency task force wasn't developed until June, early June.
    When you think about the lethargic response to this by the 
Federal Government, it is stunning, frankly. It is stunning.
    Not to mention how the rate of flow was soft pedaled and 
underestimated, instead of saying, ``we need to get everything 
out there that's possible.'' It was better to have it all out 
there and then decide whether or not you've got too much. But 
the reverse was true and could not contain the oil, and, 
ultimately, the damage. That's going to take years to rectify.
    Thank you.
    Senator Cantwell. Thank you, Senator Snowe.
    Senator Wicker, do you have questions for this panel?
    And after your questioning, I think we'll move to the next 
panel.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Madam Chair, and I have to agree 
with my colleague, Senator Snowe, about the bureaucratic 
cumbersomeness of the response.
    I'm going to try to remember this entire saga the next time 
I'm asked to vote for a huge Federal expansion or a huge 
Federal solution to problems that might exist out there in the 
United States of America.
    Big bureaucracies do seem to be cumbersome and inefficient 
and the senator has pointed that out very capably today.
    Let me ask either of you about weathered oil. It's 
certainly to our advantage that the skimmers get the oil 
immediately, before it washes to shore.
    I'm told that once the oil has been on the surface for a 
while--and it has been on the surface, in many instances, many 
places for 3 months--that it is not as capable of skimming or 
burning right there onsite. Is my information correct there?
    And, if so, are there technologies or effective ways of 
removing weathered oil from the surface before it washes onto 
shore?
    Mr. Helton. Well, when oil is spilled, it starts to weather 
immediately, and this oil, being released from depth, is 
already starting to degrade before it even reaches the surface. 
The challenges are that----
    Senator Wicker. How long does it take to reach the surface, 
Mr. Helton?
    Mr. Helton.--it depends on the droplet size, but our models 
indicate that it's several hours, 2 or 3 hours, but the smaller 
droplets are much slower to rise and the larger droplets rise 
faster.
    Senator Wicker. OK. Go ahead with your answer.
    Mr. Helton. So many of the technologies we have, such as 
burning and dispersants, work best on fresh oil, and when oil 
starts to mix with water and emulsify, it becomes less able to 
burn, has a higher water content. When it mixes and ages, it's 
less vulnerable to dispersants because the surface 
characteristics are different.
    But that weathering process is also a good thing in the 
sense that that's the sign that the oil is beginning to degrade 
and ultimately biodegrade.
    So what we're seeing on the shorelines of the Gulf is oil 
that might be as little as a week and maybe several weeks or 
months old by the time it drifts ashore. So we're dealing with 
weathered oil, mechanically picking it up.
    There are some skimmers that have the ability to pick up 
that material, but some of the technologies, like I said, like 
burning and dispersants, are less appropriate for that 
weathered oil.
    Senator Wicker. Are these technologies under further 
review, to your knowledge?
    Mr. Helton. I think that there's work being done on this 
incident as well as general R&D for oil-skimming technologies 
in trying to improve the effectiveness.
    And, as Senator Cantwell said, we're seeing the same 
technologies we had in the Exxon Valdez, but there have been 
improvements on the margins, in the sense of improving the 
recovery rates and the efficacy of some of these technologies 
in dealing with different kinds of oil, dealing with heavier 
oils. So there is some progress in those regards.
    Senator Wicker. Captain Sisson, do you have anything to 
add?
    Captain Sisson. I think that answers the question very 
well, senator. I know of one particular skimmer that's in an 
evaluation phase that has a sort of parachute--looking device 
behind it to catch those globs of weathered oil that lie about 
a foot or two beneath the surface. That's a new development 
that I hadn't seen before.
    Senator Wicker. So it's something that hasn't been used 
until the last few days, is that what you're telling us?
    Captain Sisson. It's still under development, senator.
    Senator Wicker. And where is the development center?
    Captain Sisson. It's part of our BAA submission process, 
sir.
    Senator Wicker. I see. So it has not actually been used 
yet----
    Captain Sisson. No, sir, not that I know of, sir.
    Senator Wicker.--to capture the weathered oil.
    All right. And, finally, let me ask you this, Mr. Helton: 
With regard to streamlining the testing of seafood for oil 
contamination, would it be fair to say that it's helpful if we 
can do that locally, to the extent we can? Would it be more 
efficient and take less time?
    Mr. Helton. I think it's important that it be done in a way 
that encourages confidence in the markets and that we're 
closing the right areas and we're opening the right areas and 
we're allowing seafood harvesting to occur in places where it's 
safe to do so and prohibiting it if we're not certain that it's 
safe.
    I am not aware of the logistics causing a significant delay 
in the testing. I know that some of the laboratory work takes 
time to process in the sense of getting the results back from 
the laboratories on what kinds of chemicals are detected in the 
analytical tests.
    But some of the sensory testing can be done, and is being 
done, locally in Pascagoula to ensure that the seafood passes 
the sensory testing.
    Senator Wicker. Is there more capacity at Pascagoula for 
more sensory testing, if we could get the work to them?
    Mr. Helton. I'd have to check with the Fishery Service to 
see what their capacity issues are. I know that, NOAA, as an 
agency, is stretched on this spill. We have brought in a lot of 
people from other labs and there are colleagues of mine in 
Seattle that have gone down to the Gulf, to Pascagoula, to 
assist in the sensory-testing efforts there, but I'd have to 
get back to you on specific----
    Senator Wicker. OK. Please do that, and is there any reason 
why we couldn't do chemical testing there at the Pascagoula 
facility also?
    Mr. Helton. I'm not sure if they have the analytical 
capacity to do that. I know some of the NOAA labs have those 
kinds of petroleum-testing equipment. I know that the 
laboratory in Seattle has some of that work. I'm not sure if 
Pascagoula has that.
    Senator Wicker. OK. Thank you very much.
    Senator Cantwell. Thank you, gentlemen. Thank you for your 
testimony.
    Obviously, this is something the Committee is going to be 
dealing with in very near term. Obviously, tomorrow, we're 
going to have a markup and legislation is going to be moving 
through the Senate.
    So we appreciate your testimony, and if members have 
follow-up questions, obviously, we'll leave the record open. So 
thank you.
    We're going to move to our second panel, and I'd like to 
welcome up Dr. Fritz Stahr, Manager of Seaglider Fabrication 
Center, which is at the University of Washington; Mr. Dennis 
Yellowhorse Jones, President of U-Mate International 
Corporation; Ms. Cynthia Sarthou, who is Executive Director of 
the Gulf Restoration Network; and Dr. Nancy Kinner, Director of 
the Coastal Response Research Center; and Dr. Scott Pegau, 
Executive Director of the Oil Spill Recovery Institute.
    I know that there are people who are clearing out from the 
first panel, but if you could move outside as quickly as 
possible that would be great, so that we could get the next 
hearing witnesses underway.
    Thank you. Thank you all for being here. We appreciate your 
making time to give testimony to the Committee on this 
important issue, and we're just going to start with you, Mr. 
Yellowhorse Jones. Is that how you pronounce your name?
    Mr. Yellowhorse Jones. Yes, ma'am.
    Senator Cantwell. And start with you and just go right down 
the panel. So thank you for being here.

   STATEMENT OF DENNIS YELLOWHORSE JONES, PRESIDENT, U-MATE 
                      INTERNATIONAL, INC.

    Mr. Yellowhorse Jones. Thank you. It's an honor to be here 
today to represent my company in conjunction with me here, I'm 
with Dr. Mark Nanny from the University of Oklahoma and an 
extreme colleague.
    My company is based out of Northwest New Mexico. We produce 
an organic material, humate, H-U-M-A-T-E. It's an organic 
mineral that's found in Northwest New Mexico and it's used for 
a variety of purposes. One is agriculture. Two is soil 
remediation.
    We have been working on extensive agricultural processes 
for the past 15 years, and we sell our product all over the 
world. Our largest customer is the Dole Food Company, and they 
use it on different plantations and various different crop 
types.
    We also sell it to the largest organic farm in Saudi 
Arabia, Al Khalediah Farm. It's owned by the royal family, and 
there, again, it's used as an organic medium and also to 
restructure contaminated soils.
    Over the past several years, we've been working closely 
with the University of Oklahoma and the gentleman behind me, 
Dr. Mark Nanny, to come up with solutions to use our product 
for soil remediation.
    It's environmentally safe. It's certified organic. It 
improves the soil structure and adds nutrients.
    Dr. Nanny has received EPA funding over the past several 
years to study our product there in Norman, Oklahoma, for 
strictly soil remediation and oil-contaminated soils.
    To date, we have been working very, very hard to try to 
have the Coast Guard and BP and different organizations review 
our proposal, which is called the Organic Solution. This was 
supplied to the Coast Guard as a white paper approximately 2 
months ago.
    We have heard back from the Coast Guard and we're told that 
we are in the screening process, and we really want to try to 
enlighten the American public, enlighten this committee that we 
are ready, willing and able to implement this technology.
    I would like to talk a little bit about what is humate. 
Humate is decomposed animal and plant life, and it's loaded 
with trace minerals. It's like a multiple vitamin to the soil. 
Everything that a multiple vitamin has in it, our humate has in 
it--calcium, iron, phosphorus, selenium, magnesium, in trace 
amounts. We consider this simple technology for a complex 
problem.
    And, in closing, I'd like to say that we are, again, ready, 
willing and able to implement this.
    Thank you very much.
    Senator Cantwell. Thank you very much for your----
    Mr. Yellowhorse Jones. I'll take any questions.
    [The prepared statement of Mr. Yellowhorse Jones follows:]

      Prepared Statement of Dennis Yellowhorse Jones, President, 
                       U-Mate International, Inc.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Attachment
                               Title Page
Deepwater Horizon Response
    Solicitation Number: HSCG32-10-R-R00019
    Agency: Department of Homeland Security
    Office: United States Coast Guard (USCG)
    Location: Contracting Office, USCG Research and Development Center
BAA Technology Gap Area Addressed: 4. Alternative Oil Spill Response 
        Technologies
Offeror:
    U-Mate International, Inc. (A Native American Company)
    Dennis Yellowhorse Jones, President
    P.O. Box 4131
    Scottsdale, AZ 85261
    Website: www.HUMATE.com
Teaming Partner:
    Dr. Mark A. Nanny, Professor, Environmental Chemistry
    School of Civil Engineering and Environmental Science, and 
Institute for Energy and the Environment
    The University of Oklahoma, Norman, OK 73019
Oil Remediation Proposal--An Organic Solution (Unclassified)
    Copyrighted 2010, U Mate International, Inc. with the following 
license: The Government is granted a paid-up, nonexclusive, 
irrevocable, worldwide license in this White Paper to reproduce, 
prepare derivative works, distribute copies to the public, and perform 
publicly and display publicly, by and on behalf of the Government.
    We are proposing a solution for oil contamination along the Gulf 
Coast where beaches, marshes and other lands by applying our humate to 
the affected areas. Our humate is a non-toxic, natural organic mineral 
that contains 60-90 percent humic and fulvic acids and other humic 
substances. We are fortunate to have large tracts of land with humate 
deposits estimated at 10,000,000 tons. Our humate is bagged under the 
product name, New Mot U-Mate and is OMRI (Organic Material Review 
Institute) Listed. It is also a U.S. Government (Federal Highway 
Administration) approved product. Humate has been found effective for a 
number of purposes: a soil conditioner. a fertilizer used by organic 
farms, a decontaminate for hard metals, an oil remediation component, 
etc. Our Company will solely utilize the expertise of the University of 
Oklahoma to implement and control our solution, which includes six 
applications of our humate tilled into the affected areas over a one-
year period, testing and modifying our initial concept for maximum 
results for dollars spent. Our plan initially calls for approximately 
3,250 tons of our humate per application over a five-mile contaminated 
beach area. Our humate can be mined on an as needed basis and the 
volume increased as necessary. The following is a brief outline of a 
plan put together by Dr. Mark Nanny of the University of Oklahoma and 
our Company:
    This study will characterize how humate application to petroleum 
contaminated shoreline sediments impacts the fate and resulting 
biodegradation of petroleum. It is proposed that humate, in the form of 
a finely ground powder, applied to petroleum contaminated shoreline 
sediments will facilitate in-situ remediation of petroleum through the 
sorption of petroleum to humate and stimulation of microbial 
degradation. Enhancement of these two processes will result in the 
improved remediation and restoration of the shoreline sediment quality 
relative to similar, but untreated, sediments. It is recommended that 
the humate-enhanced remediation process be examined over 2 years so 
that: (1) comparison of the degradation rate of labile petroleum 
components can be evaluated, and second, (2) so that the fate of 
recalcitrant organic molecules that are of environmental concern, such 
as thiophenes and polycyclic aromatic hydrocarbons, can be monitored 
for biodegradation and/or sorption to humate.
    The research goals of this project are:

        1. To demonstrate, over a 2-year period, that the application 
        of humate stimulates and enhances in-situ remediation of 
        petroleum-contaminated shoreline sediments relative to 
        untreated sites.

        2. To illustrate that the petroleum components are indeed 
        biodegraded and/or strongly adsorbed to humate.

        3. To determine an appropriate application rate and amount of 
        humate necessary to enhance in-situ remediation.

        4. To identify additional application methods that may be 
        necessary to further stimulate the humatc enhanced in-situ 
        remediation, e.g., application of fertilizer.

    It is proposed that application of humate will enhance the in-situ 
remediation of petroleum impacted shorelines sediments through multiple 
physical, chemical, and biological processes. (1) Humate will sorb 
petroleum components thereby; decreasing toxicity of the petroleum to 
indigenous microflora responsible for petroleum biodegradation; (2) 
humates may provide nutrients, act as a carbon substrate, and/or 
provide specific organic compounds stimulating microbial growth; (3) 
humates may provide a viable physical substrate surface for microbial 
growth and that allows access to sorbed petroleum; (4) humates provide 
moisture necessary for microbial growth in petroleum saturated 
environments; and (5) humates improve soil texture thereby allowing 
aeration which facilitates aerobic biodegradation. This later point is 
of importance because in the case of crude oil, which sometimes does 
not contain high concentrations of toxic components but rather is 
comprised mostly of saturated hydrocarbons, drastic changes in the 
physical characteristics of the contaminated soil (e.g., porosity, 
water retention capability, permeability) may impede vegetation growth, 
inevitably leading to a decrease in soil quality.
    Furthermore, humate-induced remediation is environmentally 
significant not only for the fact that it appears to stimulate 
remediation of crude oil contamination through hydrocarbon adsorption 
and biodegradation enhancement, but also because humates: (1) are a 
component of the natural organic carbon cycle, i.e., they are a 
naturally produced material; (2) are environmentally benign; (3) help 
improve soil characteristics that encourage and foster vegetation 
growth; and (4) may stimulate indigenous microbial growth that may 
initiate and enhance intrinsic bioremediation.
    Dr. Nanny has performed two oil remediation studies for the 
Integrated Environmental Petroleum Consortium (IPEC) who funded his 
research (with flow through funds from EPA). You can find his reports 
on the EPA website. He was held to strict protocols for QA/QC, 
methodology, sampling, and analysis.
    Additional technical information is available upon request.
                        Rough Order of Magnitude



Estimated costs:
Cost of New-Mex Humate ultra       $21,500,000
 fine
University of Oklahoma (including     1,584,000
 Dr. Mark)
Shipping                              1,955,000
Application equipment and labor         500,000
On-site storage                          20,000
                                  ---------------
    Estimated*                      $25,559,000
                                  ===============
    Cost per mile of beach           $5,111,800
                                  ===============
Coverage:*
  5 miles of beach
  20 foot width
  6 applications at average of 2
   inches
Time frame:
  Applications--12 months
  Follow-up--12 months


* Subject to specific identified area and testing protocol


    Senator Cantwell. Thank you.
    We're going to go through the panel, then we'll take 
questions at the end.
    Mr. Yellowhorse Jones. Yes, ma'am.
    Senator Cantwell. So thank you for your testimony.
    Dr. Stahr, welcome. Thank you for being here.

        STATEMENT OF FREDERICK R. (FRITZ) STAHR, Ph.D.,

          RESEARCH SCIENTIST, SCHOOL OF OCEANOGRAPHY,

                    UNIVERSITY OF WASHINGTON

    Dr. Stahr. Thank you for inviting me to testify today. My 
name is Fritz Stahr. I'm a Physical Oceanographer at the 
University of Washington, a research scientist and engineer 
there. I manage a group that makes an underwater robot called 
the ``Seaglider<SUP>TM</SUP>.''
    There are actually three Seagliders observing the plume of 
oil under the sea surface in the Gulf of Mexico right now, two 
of those owned by the Naval Oceanographic Office that we built 
for them about 3 years ago and still maintain for them, and one 
owned by iRobot Corporation, which is our sole licensee for the 
technology to be built for outside customers, outside the 
University of Washington now.
    They volunteered to put one of their engineering units in 
service to--everybody, really, in looking at this plume, and 
all that data is available online. And the written testimony, 
which I've submitted, contains the URL link to those data 
available from the Seagliders.
    So I'm here today to testify about that, in some respect, 
but also, in some respect, just as an outside scientist, an 
oceanographer looking at what has been going on, and having 
some experience with undersea vents.
    I'm also a mechanical engineer and a member of the Marine 
Technology Society. Members of the Marine Technology Society 
are in the oil and gas business as well as in science 
endeavors. They represent really the cadre of people who invent 
the ROVs, invent the specialized tools and instruments that are 
used both by the industry and by the scientists to explore the 
oceans and to use the ocean resources.
    And that organization contains a lot of members in the 
Seattle area, actually, and I'm the local section chair, the 
Puget Sound Section Chair of the Marine Technology Society.
    So, as an engineer, I'm a mechanical engineer also. I have 
some background in trying to understand things like blowup 
preventers with rams that don't work, which was very 
interesting to me.
    I think the most important part of what I'd like to say 
here today has to do with the fact that this was not a 
traditional spill. Spill implies containment in a vessel or a 
tank of some sort before it comes out and onto the ocean or 
onto the land.
    In this case, this was an oil vent. In deep-ocean science, 
we look at things called hydrothermal vents, which are places 
in the sea floor. You may know them as black smokers. This is 
where very hot fluid comes out of the sea floor at mid-ocean 
ridges and they act incredibly like what we have seen here, 
lots of oil, in this case, instead of hot water, but oil and 
gas coming out of the sea floor as a vent.
    And I think that one of the things that was difficult for 
many of us who have worked in the science of vents to 
understand was that there seemed to be little attention to 
those who are in that community in terms of turning to them for 
their expertise.
    So it wasn't surprising to me that someone I know in that 
community, Dr. Tim Crone, who's at Columbia University's 
Lamont-Doherty Earth Observatory, was one of the first of what 
I would consider sort of the general public of scientists who 
put out an estimate of what the flow rate really was.
    And we all really wanted to know that number for a lot of 
reasons, and the initial numbers, none of us could believe, 
particularly after we saw the first 30-second video clip.
    So Dr. Crone has experience in doing that, and, in fact, 
there were estimates quite early on at NOAA that matched much 
more closely to what we believe now to be something like 50,000 
to 100,000 barrels a day coming out of that undersea vent.
    The other thing that I wanted to talk about--and this is 
where the Seagliders come in--is that that venting process 
creates an undersea plume of oil droplets that may never come 
to the surface. So there is a plume that has now been 
established, I believe pretty well, between 800 and 1,300 
meters deep. The sea floor there is roughly 1,900 meters deep 
where the oil well is.
    This plume can be observed by things like the Seaglider, 
although we don't have perfect instrumentation on the Seaglider 
to do so, and that's where some development effort would be 
useful is to add instrumentations to really tell whether or not 
this was oil that the gliders are intersecting in their path up 
and down through the water column.
    And that plume--the nature of that plume is very much like 
what comes out of hydrothermal vents. So, again, the folks who 
research hydrothermal vents would be able to help in 
researching that plume and where it is and where it's going.
    And I think that that--the fundamental difference between a 
spill that comes out of a tanker on the surface and oil that 
comes in from a vent at the sea floor--is one of the things 
that was missed early on, and for quite a while about this. So 
we have lots of plans for dealing with vessels, but none for 
dealing with oil vents.
    And I think, last, but not least, I'd like to just mention 
that the observing technologies available to coastal 
communities, such as high-frequency radar, that NOAA's IOOS 
program, Integrated Ocean Observing System, are slowly, but 
surely, trying to get going around the country, some of those 
were not available because of funding.
    And I think the IOOS program, in general, is a great one. 
It gives us the ability to observe and monitor the ocean sort 
of 24/7, but they're operating on a relative shoestring of a 
budget right now.
    And I think that that would have helped the responders a 
lot in having some of those facilities available, not only at 
present for watching the ocean--in fact, those high-frequency 
radars have been turned on, due to money from the incident 
commander--but, in the past, so that we could better model 
where these oil slicks, et cetera are going to go.
    So that's the gist of my testimony, and I thank you very 
much and I would like to submit my written testimony for the 
record.
    [The prepared statement of Dr. Fritz Stahr follows:]

   Prepared Statement of Frederick R. (Fritz) Stahr, Ph.D., Research 
      Scientist, School of Oceanography, University of Washington
    Good morning Madam Chair, Ranking Member Snowe, and members of the 
Committee. My name is Fritz Stahr. I am a physical oceanographer at the 
University of Washington's College of the Environment School of 
Oceanography. Presently I run the Seaglider Fabrication Center within 
the School, which makes, and helps owners use an autonomous underwater 
vehicle (AUV, or more simply, underwater robot) called a 
Seaglider.<SUP>TM</SUP> Three Seagliders are presently deployed in the 
Gulf of Mexico around the Deepwater Horizon oil well observing various 
ocean properties, some which may show the presence of an underwater oil 
plume which comes from the seafloor oil well-head. Two of those units 
are owned and operated by the U.S. Naval Oceanographic Office 
(NAVOCEANO), which purchased them from us about 3 years ago, and for 
which we provide maintenance. The third is owned and operated by iRobot 
Corporation, which has a sole-license from the UW to make, sell, and 
maintain Seagliders for all parties outside the UW. You may see the 
data from all these Seagliders, as well as other ocean gliders, at a 
webpage sponsored by NOAA's Integrated Ocean Observing System (IOOS): 
http://rucool.marine.rutgers.edu/deepwater/.
    I am also a mechanical engineer, and Chair of the Puget Sound 
Section of the Marine Technology Society (MTS--https://
www.mtsociety.org/home.aspx). MTS has many members in the business of 
designing, building, and operating a wide range of research and 
operational marine equipment and instruments, including for both the 
oil industry and basic ocean research. My testimony today will touch on 
aspects of this Nation's capacity for better use of basic research-
related technologies, and observations as an engineer of the series of 
equipment failures that gave us 80+ days of crude oil venting from the 
seafloor.
An Oil ``Vent'', Not ``Spill'', and the Connection to an Active Ocean 
        Research Community
    To call this incident a spill implies the oil was in a container at 
one time, such as a ship or tank on land. But it actually comes 
directly from the Earth at 1,500 meters below the ocean surface in a 
fashion analogous to deep-sea hydrothermal vents, often called ``black-
smokers'' for their appearance of venting black smoke underwater 
(http://en.wikipedia.org/wiki/Hydrothermal_vent). Hydrothermal vents 
are found on or near mid-ocean ridges at depths from 700 to 3000+ 
meters beneath the ocean's surface. The terrestrial analogy to calling 
this a vent holds as well--oil ``gushers'' from uncontrolled well heads 
on land spew tall jets of oil into the air much like geysers at 
Yellowstone spew jets of water--both geysers and oil wells vent high-
pressure, low-density fluids from the Earth into either the atmosphere 
or ocean. I will continue to use the phrase ``oil vent'' throughout 
this testimony to distinguish this oil-generating seafloor feature from 
a spill (which is limited in scope to the size of the container) and 
emphasize its similarity to naturally occurring hydrothermal vents.
    In considering a response to an accidental seafloor oil vent, 
particularly at this depth and of this strength, it seems natural to 
turn to one of the two communities used to working at there--ocean 
researchers and engineers who measure and explore hydrothermal vents. 
(The other community now accustomed to working at that depth are oil 
drilling and well-head engineers, but they are relative newcomers to 
this extremes of the environment). To work safely at the high pressures 
and extreme fluid temperatures and corrosive compositions found at 
seafloor vents one requires well designed, specialized equipment and 
instruments such as custom Remote Operated Vehicles (ROVs), high-
pressure instrument housings, ultra-robust probes and tools--all things 
basic researchers have been inventing and using for decades. As a post-
doctoral researcher, I measured hydrothermal-vent generated heat from 
groups of black-smokers in the northeastern Pacific with Dr. Russ 
McDuff (UW). There exists a very active community of vent researchers 
at universities and laboratories around the world, including UW, all of 
whom understand the technological and scientific demands of working at 
ultra-high pressure with fluids that are extremely acidic, toxic, hot, 
and volatile--very much like the oil from the DeepWater Horizon vent. 
Therefore it was reasonable that one of the first independent 
scientists to estimate the true flow rate of the oil vent based on the 
30-second video clip BP finally released was a colleague who worked on 
exactly that problem with hydrothermal vents as part of his doctoral 
dissertation--Tim Crone, now at Columbia University's Lamont-Doherty 
Earth Observatory. His work, along with that of three colleagues of 
diverse expertise, on this flow-rate estimate was published in an Op-Ed 
piece in The New York Times on May 21, 2010, (about a month after the 
original blow-out) titled ``Measure of a Disaster,'' in which they 
conclude:

        Taking all this into account, our preliminary estimates 
        indicate that the discharge is at least 40,000 barrels per day 
        and could be as much as 100,000 barrels. Certainly, our 
        assessments suggest that BP's stated worst-case estimate of 
        60,000 barrels has been occurring all along. What matters most 
        is that we take the steps to find out if it has.

    All the oceanographers I know, and much of the general public, 
agreed with the last statement--we wanted to determine what the real 
flow-rate was. But no one could do so for two reasons: First, access to 
the well-head for such a direct measurement was controlled entirely by 
BP and the U.S. Coast Guard (USCG); and, second, neither BP nor the 
onsite incident commander (USCG) took steps to learn how much oil was 
actually entering the environment from this vent. This willful 
ignorance on BP's part is understandable as they have a pecuniary 
interest in that number. Current Federal law will use that rate, and 
the time it flowed, to help determine how much oil was vented, and 
therefore what clean-up cost BP will incur. However, it is unclear why 
the USCG did not turn to natural partners in the ocean science 
community to gather that information and put it ahead of the 
containment and clean up efforts.
Frustration of Research Oceanographers at NOAA's Public Stance 
        Regarding Flow-Rate
    BP, the USCG, and NOAA either were ignorant of, or missed entirely, 
an opportunity early on in this crisis to employ existing basic-
research techniques, and scientists knowledgeable in them, to determine 
the flow rate from this oil vent. Knowing that number (or at least an 
accurate range for it) may have guided a more meaningful and focused 
containment and clean up effort. The fact that public statements by the 
USCG and NOAA indicated no real interest in knowing the flow rate for a 
long time into the disaster frustrated me and fellow oceanographers. We 
were deeply disappointed that the government agencies nominally 
responsible for protecting our oceans, shorelines, and fisheries took 
the same stance that BP did in this respect. Further, we were baffled 
by a failure to employ tools and techniques we already have to 
determine flow rate from deep-water hydrothermal vents, or to contact 
members of the ocean science and technology community who were speaking 
out on behalf of all the rest of us with estimates based on publicly 
available data. The situation left many of us wondering whether we were 
the only ones who cared or believed that knowing the oil vent flow-rate 
was important to the response.
    As a bit of raw data on what people inside NOAA thought, or knew, I 
recently found and watched a 10-minute video clip created sometime on 
or shortly after April 22, 2010, taken in various rooms at NOAA's 
HazMat office in the Western Regional Center in Seattle. The video 
records people meeting in-person and by phone, with images of 
whiteboards, notepads, and audio, in which one can see and hear 
estimates for oil flow-rate from various sources. The numbers are the 
likes of ``64k to 110k barrels a day'', and ``52-110,000 barrels a 
day''. (Clip available at http://blog.al.com/live/2010/05/
video_shows_Federal_officials.html, published May 1, 2010--NOAA credit 
slide at the end of clip.) Given that the NOAA HazMat group's job is to 
envision the worst case for a spill and help the affected area cope 
with it in a response they term ``least regrets,'' I can understand why 
NOAA would not necessarily release those numbers to the public.
    I believe that no oceanographer, however, would be surprised that 
the flow-rate estimates generated by Dr. Crone and his colleagues 
correlate well to those generated (or gathered) almost a month earlier 
by NOAA HazMat. But once this correlation was apparent, it became 
scientifically embarrassing that NOAA continued to maintain publicly 
the original extremely low flow-rate estimate of 5,000 bbls/day. As the 
op-ed piece authors said, ``what matters most is that we take steps to 
find out'' whether the flow rate has been higher all along.
    Perhaps sensing that frustration, the Flow Rate Technical Group 
(FRTG) was finally formed by the Incident Commander and is led by an 
experienced and technically savvy ocean scientist, Dr. Marcia McNutt. 
Some had high hopes for a quality result from a 32-member strong team, 
many in academia and others from Federal agencies such as the U.S. 
Geological Survey, the Department of Energy, and Minerals Management 
Service. Divided along lines of different scientific approaches to the 
question, it appeared promising to those of us on the outside. On May 
27, they published a ``consensus'' number of 12-19,000 bbls/day for 
flow rate. But the press release did not make it clear what 
subsequently was revealed--that those numbers really represented the 
low-end of the range as none of the groups could agree on the high-end 
of the range. Some of the FRTG groups estimated up to 40,000 bbls/day 
and others wouldn't say what the high-end could be, so no value for 
that was published and the press (and public) believed the high-end to 
be 19,000 bbls/day. In a later report FRTG released (June 10, 2010), 
the FRTG noted that a group led by scientists from the Woods Hole 
Oceanographic Institute with an ROV that was allowed access to the 
well-head estimated the flow rate after the top-kill attempt failed 
(May 29, 2010), but before the riser was cut, to be 65-125,000 bbls/
day--certainly much higher than anything the FRTG published 2 days 
before or subsequently, but in line with NOAA HazMat's original 
estimates made in the days just after the rig sank. All of this just 
served to cause those of us on the outside further doubt of the Federal 
Government's intent or ability to protect us, and the ocean 
environment, from the ravages of an out-of-control seafloor oil vent. 
Lack of knowledge means lack of control--clearly where the country has 
been put by this incident.
The Underwater Oil Plume
    Another parallel to hydrothermal vents exhibited by this oil vent 
is the creation of an underwater plume at a level of neutral density 
for some of the vented fluid. As they leave the seafloor, both types of 
vent fluids have momentum (from pressure) and buoyancy (from being 
lower density than the surrounding seawater). The momentum typically 
dissipates within a short distance by draining into turbulence all 
around the plume (typically seen as billows and vortices on the edges). 
But the buoyancy persists and drives the plume higher off the seafloor. 
In the case of a hydrothermal vent, this buoyancy is due to the high 
temperature of the venting water, often as much as 400+ C. But it mixes 
with surrounding 2-4+ C water and becomes neutrally buoyant a few 
hundred meters above the bottom, rarely rising all the way to the 
surface except in the case of an underwater magma eruption. From this 
oil vent, some fluid will be buoyant enough to rise all the way to the 
surface creating the large slicks being observed, mapped, skimmed, and 
washing ashore. But some of the oil will become so small as to become 
neutrally buoyant only part way to the surface. (A numerical and lab 
study of this process was conducted in May by professors at the 
University of North Carolina--video at http://www.youtube.com/
watch?v=6Cp6fHINQ94.)
    These subsurface plumes are then subject to the currents and 
microbial breakdown processes at depth, away from sunlight and surface 
wave effects. Such plumes were detected by Dr. Samantha Joye 
(University of Georgia) and Dr. Vernon Asper (University of Southern 
Mississippi) in their ship-board cruises during May and June. The 
plume(s) appear in a depth range of 800 to 1,300 meters. Dr. Joye 
discussed this, and many other important effects on the natural 
environment and oil from Deepwater Horizon vent in her testimony on 
June 9 to the House of Representatives Committee on Science and 
Technology, Subcommittee on Energy and Environment. Dr. Asper was 
instrumental in getting iRobot Corporation to launch and fly their 
Seaglider on the west side of the oil vent to look for this plume.
    Gliders, unfortunately, can only help track this neutrally buoyant 
plume down to 1,000 meters, as none of those currently on the market 
are capable of diving deeper. Further, they do not as yet, carry any 
sensors that directly detect oil, only detecting parameters that are a 
proxy for oil, such as Colored Dissolved Organic Matter (CDOM) 
fluorescence and oxygen concentration. So, while gliders, and other 
AUVs, can currently help somewhat, there is significant room for 
improvement in that technology to monitor oil-vent plumes. Two 
developments are underway with promise. Professor Charlie Eriksen at 
the University of Washington's School of Oceanography is in the process 
of testing a Deepglider* that has a dive depth and operational capacity 
to 6,000 meters below the sea surface. This will cover to the deepest 
place an oil well has ever been drilled 93,000 m) or is ever likely to 
be drilled. And second, a German company, Contros Systems and Solutions 
GmbH, makes a fluorometer-type sensor for polyaromatic hydrocarbons 
(oil) but it is too large and power-hungry to be integrated onto a 
glider. Pushing either of these technologies along will likely assist 
us in really measuring the next oil vent plume that occurs from deep-
sea drilling incidents.
    And last, in the ``frustrated ocean scientist'' arena again, I was 
outraged that both BP and NOAA denied the existence of these subsurface 
plumes long after conclusive physical evidence came aboard research 
vessels in the form of oil-coated filters from water collected at plume 
depths. Once more, it seemed that the agency charged with helping us 
measure and understand what was happening in the ocean due to this oil 
vent spent whatever potential it had for positive impact on obscuring 
the facts.
Ocean Observing Facilities Unavailable Due to Lack of Funds, but Needed 
        to Understand Fate of Oil Slick
    NOAA has been slowly building an ocean observing system around the 
country known as the Integrated Ocean Observing System (IOOS). It is 
intended to benefit all sectors of our society--business, agencies, 
general public, and science--and is a system of systems building on 
many facilities and instruments already installed and taking data for 
other projects. We hope that someday it will help us observe the ocean 
like we do the atmosphere--continuously and everywhere along the coasts 
and Great Lakes. But at present it operates on a shoestring budget so 
in some cases is not sustainable on a full-time basis. (Legislation 
authorizing IOOS passed in early 2009, but a prototype system funded by 
a consortium of fisheries and academia in the Gulf of Maine was 
operational as early 2001.) When the White House asked for a list of 
ocean observing assets available in the Gulf of Mexico at the outset of 
this event, it was the Gulf of Mexico Coastal Ocean Observing System 
(GCOOS) of IOOS that responded. The list delivered contained some high-
frequency radars (HFRs) that can track surface currents far out to sea. 
But those HFRs had been shut down months earlier due to lack of 
operational funding. They are running now thanks to funding from the 
Incident Command, and are critical to tracking the currents pushing the 
oil slick around. But knowing what the currents were before the 
disaster, and for years before that, could have helped greatly in 
understanding the system into which this oil vent erupted. (See http://
www.cencoos.org/sections/news/Gulf_oil_spill_2010.shtml) for HRF data 
from the Gulf.) The general lack of funding for basic ocean 
observations and research in the Gulf was well covered in a New York 
Times article by Paul Voosen published June 3, 2010, titled ``Federal 
Funding Cuts Leave Oceanographers, Spill Responders in Dark''. What we 
need in terms of fund for IOOS and its regional associations pales in 
comparison with many other demands on tax dollars. Even the equivalent 
of one ``inexpensive'' NASA robotic mission of $200 million would make 
IOOS a functional reality.
Opportunities for Action in Measuring, Monitoring, and Evaluating 
        Accidental Oil Vents
    What is clear from all this is that our country has put little 
effort into creating tools and instruments to measure, monitor, 
evaluate, and clean up a deep-sea oil vent caused by a well-head 
incident such as the Deepwater Horizon rig explosion and sinking. While 
oil company engineers do amazing work to create drills, rigs and 
methods to work in deep water, it is apparent from this event that no 
one can design, build, and operate a one-hundred-present fail-safe 
system for deepwater oil wells. A national effort, that includes work 
on both engineering and scientific challenges, is critical if we are to 
be truly prepared for another such event. We must take some action and 
several paths forward are offered in two bills proposed to this 
committee by members.
    Senator Cantwell proposes the ``Oil Spill Technology and Research 
Act of 2010'' which creates a committee to oversee research and 
development spanning a wide range of concerns revealed by this 
disaster--from surface and sub-surface current prediction capability 
(typically a pure research endeavor), to containment and removal 
technology (typically done by agencies and oil companies), to 
rehabilitation methods (often handled by concerned citizen volunteers). 
The Committee will act through NOAA and the National Academy of 
Sciences, which is important as it provides a balance necessary to make 
these efforts move forward with transparency and attention to 
impartiality. Though funded at a relatively small scale, the fact-
finding part of this effort alone may be worth it--as Socrates pointed 
out, knowing what we do not know is the critical first step to true 
learning.
    Senator Rockefeller proposes the ``Securing Health for Ocean 
Resources and Environment Act,'' or the ``SHORE Act,'' which invests in 
a variety of improvements to NOAA and the Coast Guard to better monitor 
and respond to oil spills, indentify aging oil infrastructure that puts 
us at risk, provides grants to states and other regional organizations 
to improve their readiness to respond, and establishes a long-term 
environmental monitoring system for the Gulf of Mexico where most deep 
offshore oil is being pursued. The funds for this are greater, but so 
is the scope and duration. And those funds come from industry-paid 
fees, which at present, are popular with the public given what has 
happened in the last 90 days.
    Both of these bills are good steps forward in turning ideas into 
action and adding to our clearly weak arsenal of oil vent (and oil 
spill) response, monitoring, clean up, and restoration technologies. 
Even wider recognition of the important role basic oceanographic 
research plays in this field will be a welcome addition to the mandate 
of NOAA and the Coast Guard.
    Thank you for inviting me to testify today.

    Senator Cantwell. Thank you, Dr. Stahr. Thank you for that 
testimony and we definitely will have questions for you about 
the Seaglider. So thank you.
    Dr. Pegau, thank you very much.

STATEMENT OF SCOTT PEGAU, Ph.D., RESEARCH PROGRAM MANAGER, OIL 
                SPILL RECOVERY INSTITUTE (OSRI)

    Dr. Pegau. Good morning, and thank you for the opportunity 
to speak with you today.
    My name is Scott Pegau. I'm the Research Program Manager 
for the Oil Spill Recovery Institute. OSRI is a 
Congressionally-mandated organization that was developed after 
the Exxon Valdez oil spill. We bring together Federal, state 
agencies and local peoples to guide where our research and 
technology development should go.
    As the Research Program Manager, I'm responsible for 
ensuring that OSRI's funding goes toward the best science and 
technology in trying to get it transferred into the applied 
world, and we use a research plan to guide where we're going 
for the next 5 years.
    The subject before us today has many aspects, given time 
constraints, how focus on issues related to adoption of new 
cleanup technologies, although there are overlaps with other 
areas.
    In developing new technologies, there are some obstacles 
that won't ever change, but there are some that we can address, 
such as improving the process for getting new technologies 
adapted. We've got to keep in mind that an underlying issue 
that we have to deal with is that spill response is conducted 
by a large number of small businesses. For instance, there are 
at least six spill-response organizations in Alaska alone.
    The decentralized approach limits the technologies that can 
be purchased or maintained. High-end technologies, like spill-
surveillance aircraft with cutting-edge sensors are outside the 
capabilities of small businesses. To purchase and operate those 
highly specialized equipment would require being done by a 
national spill-response group.
    Developing and adapting new technologies could be made much 
easier by developing a clear set of standards that equipment 
must meet, providing facilities that allow for testing 
opportunities and clearly outlining how to become approved for 
use during a spill.
    We all want proven technologies during a spill response. 
This requires us to actually have tested them prior to the 
spill. So we need to look at testing, from bench-top tests, 
large-scale laboratory tests and field testing.
    For instance, as an example for bench-top testing, the 
access of oil or other materials needed, you can go to the 
National Institute of Standards and Technologies and buy 50-
millileters--you know, a little cube of oil--for 380 bucks, 
that's about $300,000 a gallon, if you want to buy crude oil 
for developing your new sensor. Obviously, that's not feasible 
for larger things.
    Large-scale national test facilities are expensive to rent. 
They're expensive to operate, and getting permission for field 
testing runs into issues of regulation and approvals that few 
can figure out.
    Similarly, testing is critical for transitioning scientific 
products, such as circulation models and ocean-observing 
capabilities.
    During a spill, there's rarely time to ensure that new 
scientific data can be incorporated into the spill-response 
model or that the response personnel understand the limitations 
to the information being provided. This testing must be 
accomplished ahead of time as part of a clear transition 
effort.
    Funding is obviously an obstacle. Currently, new 
development is primarily left to industry. They're doing some 
really neat things, but it does lead to other issues. They 
don't often align with the people's desires necessarily. 
Otherwise, we generally require pooling of the limited assets 
of the non-industry groups to try to move our field forward.
    Keep in mind that there will always be a gap between 
current science and its application in spill cleanup. This gap 
is natural, and it's actually desirable, as science is out 
there to go down many wrong paths in identifying the best path.
    When we look at funding, it's critical that the funding 
organizations bridge between the scientific and the applied 
worlds. Like others here, I rely heavily on the input from 
spill-responders. I need their reality check. We've been 
supporting several different things, and some of them have gone 
through very fast because the spill responders said, Yes, I 
need that.
    We developed a balloon surveillance system that was a 
scientific idea that came out 2 years ago. A year ago, we 
tested it, and BP has purchased it for operation.
    We've had some failures, which are quite happily not in the 
field at this point.
    As well as the input from the responders, we require input 
from the scientists to keep us aware of the new directions in 
improving opportunities we must consider. It's only by bridging 
these two worlds that we can efficiently ensure best technology 
transfer.
    Thank you.
    [The prepared statement of Dr. Scott Pegau follows:]

  Prepared Statement of Scott Pegau, Ph.D., Research Program Manager, 
                  Oil Spill Recovery Institute (OSRI)
    My name is Scott Pegau and I am the Research Program Manager for 
the Oil Spill Recovery Institute (OSRI) in Cordova, Alaska. OSRI's 
mission is to support research, education, and demonstration projects 
designed to respond to and understand the effects of oil spills in the 
Arctic and sub-Arctic marine environments. As the Research Program 
Manager I am responsible for guiding OSRI's funding toward the best 
ecological and technological research and development related to oil 
spill recovery. OSRI is one of a very small group or organizations that 
fund this type of research. I also have experience as a researcher who 
has submitted proposals for conducting oil spill related research and 
development.
    My comments focus on trying to develop new cleanup technologies 
that are likely to be utilized. I address the issue from the funding 
organization's perspective, however, there are many similarities faced 
by businesses that are trying to develop new technologies. Issues 
associated with restoration can be different, although they have some 
similarities.
    When considering on the issues that impede introduction of new 
technology and approaches into spill response I find that there are 
several causes, but primarily there are three root issues that come 
into play.

        1. Oil is a toxic substance. This creates numerous difficulties 
        in proving a system works by making it difficult to test the 
        system.

        2. Oil spill response in the U.S. is conducted by a large 
        number of small businesses. There are six spill response 
        organizations in Alaska alone. Because they are small 
        businesses there are generally limitations to the types of 
        equipment they can afford or operate. The relatively small 
        spill response community can create difficulties for outside 
        approaches to be adopted.

        3. The spill response efforts are highly scrutinized with high 
        probability of litigation. This leads to wariness in using 
        unproven technologies during spill response.

    Note the Catch 22 situation between the first and third root issue.
    When looking at developing new technologies the first issue to 
consider is ``What type of technology is needed?'' Most development is 
in response to lessons learned at an earlier spill. I am closely 
watching events in the Gulf to help inform me of gaps in our response 
capabilities. Unfortunately, the degree of information control being 
applied in the Gulf is making that job extremely difficult.
    When dealing with situations that haven't occurred before this is a 
little trickier. Often issues are fairly obvious, like needing to 
improve the abilities in inclement weather conditions, or the ability 
to operate in different sea ice conditions. Based on experience we can 
guess at a majority of issues that need to be addressed, but our 
experience only provides us with a theoretical model of the situation. 
As with any model there are differences between the model and reality. 
These differences lead to adapting our approaches on the fly. Such an 
example in the Gulf is the use of dispersants at the well head, which 
is an application outside of what they were designed for. The way to 
reduce these unexpected issues is to conduct the appropriate 
experimental spills so we can learn in a more controlled set of 
conditions and extent than relying on spills-of-opportunity. Such 
controlled spills have not been possible since the early 1980s in the 
U.S., which is probably one of the greater factors in preventing the 
advancement of spill response capabilities. We can't fix problems we 
are not aware of.
    Another issue regards knowing whether a new technology works or is 
any better than the existing systems. Standards are needed against 
which new equipment can be tested. How can a manufacture invest in 
developing new equipment if they don't know what the measures of 
success are? Or how can a responder be confident that a new piece of 
equipment works if there are no standards? There are now testing 
standards for skimmers, but I don't think many of the skimmers have 
been actually tested using the standards. Additional standards need to 
be developed so manufacturers are aware of the tests their equipment 
must pass if it is to be considered for spill response. This will also 
provide a measure that demonstrates the equipment is proven technology 
to the response organizations that are the potential adaptors of the 
technology.
    This can become more complicated if protocols are written with one 
technology named rather than listing the required capabilities. If the 
measurement protocols require a Turner fluorometer then there is no 
incentive for other companies to develop competing equipment because it 
cannot break into the market.
    Beyond developing standards there must also be an ability to 
demonstrate that the technology meets those standards. This means there 
must be an ability to test the design, potentially at several different 
levels. Benchtop testing is needed during development, large scale 
laboratory tests are needed to show it may work in the environment, and 
in the end actual field tests must occur. There are many difficulties 
in conducting these tests.
    One example to consider is the development of a new oil detection 
sensor. Among the first things needed is a sample of oil to work with. 
I am involved in such a project so I am learning the difficulties 
involved. The Advisory Board and Scientific and Technical Committee 
that guide OSRI funding includes members from the oil industry, and I 
work with a number of other individuals in the industry so I have a 
much better starting point than most, but here is what I am finding.
    Based on recommendations from my Board I made a request for two 
liters of oil from the North Slope. I was put in contact with a couple 
of very cooperative people who thought it would be no problem to 
provide a couple liters of oil, but they had to check with the lawyers. 
The latest response is that they expect that it will take two to 3 
months to get a decision whether my request can be filled. I could go 
to the National Institute of Standards and Technology and purchase oil 
for $379 for 50 ml (over $300,000 per gallon). This is not an option 
for someone who needs to test a large piece of equipment. A much more 
clearly defined means is needed for people to access affordable samples 
of oil and other materials, such as dispersants, for use in the 
development of new technology.
    Once a new technology is developed it must be tested either in the 
lab or in the field. There is a strong reluctance to apply an unproven 
technology during an actual spill response so the preference is to 
operate in a laboratory environment. However, there are very few large 
scale testing facilities. The Minerals Management Service Ohmsett 
facility is the large national facility. It is fairly expensive to 
rent, which creates difficulties for small businesses trying to prove 
their approach. The last quote I saw for operating the facility was for 
approximately $40,000 for 3 days of testing of a new large skimmer. 
There is a lot of work involved in being able to conduct these tests so 
I don't think the cost is unrealistic, but it can be prohibitive to 
smaller organizations. The funding for testing of this new skimmer was 
provided by a partnership of four organizations including OSRI. MMS has 
been very willing to let people test equipment when other tests are 
running, but it is difficult to figure out how to properly schedule 
these tests. Small businesses would greatly benefit if a small number 
of days were made available at the national facilities for testing 
their technologies at lower costs. For Arctic issues this means being 
able to work at the U.S. Army Cold Regions Research and Engineering 
Laboratory ice facilities.
    In the end we still need to prove the technology in the field. 
Currently that is done by waiting for a spill-of-opportunity. When a 
spill occurs there may be a reluctance to use newer technologies in 
case it fails. It is also very difficult to arrange a test in a timely 
manner. There are a large number of potential technologies that are 
being marketed to the spill responders during a spill. The volume of 
new techniques may inhibit any being selected for testing. There are 
several ways that the issue of field testing may be overcome. One way 
is to develop a list of technologies waiting for testing during a 
spill-of-opportunity. Most importantly, have a clearly defined approach 
to get technologies on the list.
    At this point most of improvements are incremental because they are 
easiest to get into the field. Another method to get equipment field 
tested is to allow controlled releases. The U.S. hasn't had controlled 
spills since the mid-1980s. I believe that lack of testing our 
knowledge is one of the biggest factors in our not moving forward in 
spill response capabilities.
    Finally, consider developing a national testing and training 
facility associated with a natural seep. While natural seeps don't 
provide all the conditions necessary to test all equipment they do 
provide an opportunity to test equipment in the field.
    The biggest issue facing field testing is regulatory. Regulations 
often prevent the newest technologies from being tested. For example, 
there is a lot of interest in using Unmanned Aerial Vehicles for spill 
response. These vehicles face significant hurdles in getting FAA 
permits to be used. This is not to say the hurdles are not appropriate 
and if people keep the regulations in mind there are still 
opportunities for advancement. OSRI tested a balloon-based surveillance 
system for spill response because tethered balloons have a simpler 
regulatory environment. This system allows for spill responders to get 
a greater view of the spill around them and gets the information 
directly to them instead of waiting for reports from aircraft, when 
they are flying.
    At other times the regulatory environment is more difficult to work 
with, for example getting permission for a controlled spill. An 
alternative to using oil in the environment is to develop an oil 
simulant to use in testing and training. Oranges and popcorn have been 
used as simulants, but have very limited application for actual testing 
of equipment. More appropriate simulants have been developed, but 
cannot get approval for use. Even normally benign and natural 
substances can have negative impacts when used at higher 
concentrations. It is becoming difficult to get permission to even use 
oranges or popcorn because they are not natural to the marine 
environment.
    Most of my comments so far have focused on the development of new 
response technologies, but there are a number of other aspects of 
research that may transition from the scientific world to the spill 
cleanup and restoration activities. One issue that must be overcome is 
that the scientific research needs to be cutting edge to get funding. 
This generally means very specialized equipment or training that is not 
ready or appropriate for transition into everyday use. Remember spill 
response organizations are generally small businesses that cannot 
afford to hire people with the skills needed to apply the cutting edge 
science that may not be used for a decade.
    It is difficult to incorporate cutting edge science during a spill 
response because people are extremely busy and don't have time to learn 
how to integrate the science into their current tools. This not true 
for restoration, which has more time to develop in its approach and has 
to be flexible in approach because of the range of species and 
environments that may be damaged. One thing OSRI tries to accomplish is 
to provide a bridge between the science and response world. It is 
critical to develop organizations that can bridge these worlds. By 
working to identify potential transitions and testing their application 
for spill response before a spill occurs we can help transition new 
science into cleanup and restoration efforts.
    OSRI works closely with the Alaska Ocean Observing System and spill 
responders to provide opportunities for the newest models and observing 
capabilities to be used by spill responders and for the scientists to 
understand how to provide their data in a manner that can readily be 
incorporated by responders. Being a bridge between science and the 
applied world is not easy. I am trained as a scientist and often think 
that I have some great idea. Fortunately, I work with a number of spill 
responders that help me understand the issues with applying those 
ideas. It is important to have groups that bring responders together 
with scientists to see where overlaps between capabilities and needs 
exist.
    Finally, we need to consider funding for bringing on the new 
approaches and equipment. There is little funding dedicated to spill 
recovery outside of industry. Minerals Management Service, U.S. Coast 
Guard, the Coastal Response Research Center (with NOAA), and Oil Spill 
Recovery Institute are primary funding organizations. Budgets are 
commonly under one million a year and organizations like OSRI funds 
improvements in environmental knowledge along with development of new 
equipment. Over the past few years the funding level has continued to 
decline. This may be in part because there hasn't been a major spill in 
years so people did not think that this type of research was necessary. 
The lack of a national oil pollution research plan makes it more 
difficult to sell the need for particular research. There is also a 
very appropriate focus on improvements in spill prevention. It is 
important to remember that no matter how much prevention is in place we 
still must be able to respond if those measures fail. The Deepwater 
Horizon accident is emphasizing that need.
    Funding from national programs, such as from the National Science 
Foundation, is difficult to obtain. This is largely because the needs 
are not cutting edge science. I submitted proposals for improvements in 
spill detection systems to national requests-for-proposals and 
generally the comments indicate the reviewers are looking for more 
complex systems than are needed in a spill response. Dedicated 
opportunities with required application are the approach that has 
succeeded.
    The standard peer-review funding process generally does not promote 
innovation. Reviewers examine a proposal with the thought ``Will this 
work succeed?'' and if there is doubt the proposal won't be funded. For 
innovative improvements the reviewers need to ask: ``Will this work 
fail?'' and ``If it fails, what will we learn from the attempt?''. The 
best approach to funding is through organizations that bridge the 
response and science worlds. However, with limited funding these 
organizations will also tend to fund the work most likely to succeed, 
which tends to be incremental changes. The advantage of limited funding 
is that industry, government, and non-governmental organizations must 
partner together, which provides for coordination between the funders.
    The bridge between industry and science also must bridge national 
and regional interests. Without a doubt there are many issues common 
between the Gulf of Mexico and Alaskan waters, but there are important 
differences as well. OSRI has an advantage in that we can focus on 
issues that are consistent with the desires of people in Alaska. At the 
same time the need to partner with other groups means many of our 
projects have applications nationally. National funding organizations 
generally do not have a means to address issues that are regionally 
important.
    Industry is the largest funder of new developments and are 
supporting some pretty amazing projects. The disadvantage with industry 
being the leaders of development is that their interests may not align 
well with the people living in the area where spill response may occur. 
For example, there is an emphasis on research on dispersants, which are 
controversial to people in Alaska. They also tend to respond primarily 
to regulatory requirements and financial advantages. These drivers do 
not necessarily focus research in the most appropriate directions.
    This leads us back to research and development by other businesses. 
These are the businesses that need the improvements in standards and 
testing opportunities described earlier. Funding organizations often 
get requests for help supporting new developments by these businesses. 
It is an area that remains difficult for me. I believe that we should 
provide opportunities for any business to tackle a defined problem 
rather than supporting a single business to develop their approach. At 
the same time there are definitely times when opportunities arise to 
assist in the development of particularly promising technologies that 
we should not pass up. If the process for businesses to get 
technologies tested and approved it should reduce pressure on the 
funding organizations.
    Even if an approach is approved for use there is no guarantee it 
will be adopted by oil spill response organizations. In Alaska, the 
largest spill response organizations are industry supported 
consortiums. This gives an advantage to industry supported developments 
and makes it a bit more difficult for outside industries to break into 
the field. I suspect that this is one of the reason there has been more 
interest in developing dispersants versus developing solidifiers.
    In conclusion there are some issues that we cannot deal with, such 
as the fact we are working with a toxic substance, and others that we 
can, such as improving the process for getting new technologies 
adapted. We must remember that spill response is conducted by a large 
number of small businesses. The decentralized approach limits the 
technologies that can be afforded. Oil spill response organization 
cannot afford to purchase and maintain high end technologies like spill 
surveillance aircraft with cutting edge technologies that many other 
countries operate. To purchase and operate highly specialized equipment 
would best be done by a national spill response group. This could be a 
duty of NOAA, MMS, or U.S. Coast Guard.
    Transitioning of newer technologies could be made easier by 
developing a clear set of standards that equipment must meet, providing 
facilities that provide testing opportunities, and clearly outlining 
how to take advantage of spills of opportunity, or better yet develop 
field testing opportunities through controlled releases or potentially 
using natural seeps.
    It is important that research is coordinated. Currently this is 
primarily done informally by looking for opportunities to partner with 
other organizations for funding projects and sharing research plans. 
The Interagency Coordinating Committee for Oil Pollution Research, 
which was formed under the Oil Pollution Act of 1990, has increased its 
activity, even before the current spill, but hasn't reached the point 
where they have a research plan that helps to guide the efforts of the 
member agencies.
    It is important to renew funding opportunities. Additional funding 
should go through organizations that can bridge the worlds of science 
and spill response. MMS, U.S. Coast Guard, Coastal Response Research 
Center/NOAA, and the Oil Spill Recovery Institute all are organizations 
that have established that bridge. It is also important to realize that 
there are regional differences in spill response needs that should be 
accounted for when funding new research.

    Senator Cantwell. Thank you very much.
    Ms. Sarthou.
    Ms. Sarthou. Thank you, Senator----
    Senator Cantwell. Is that right? I got Dr. Pegau's name 
wrong the first time, so I want to make sure. Is it Ms.----
    Ms. Sarthou. Sarthou.
    Senator Cantwell. Sarthou----
    Ms. Sarthou. It is Sarthou.
    Senator Cantwell. Thank you very much.

       STATEMENT OF CYNTHIA SARTHOU, EXECUTIVE DIRECTOR, 
                    GULF RESTORATION NETWORK

    Ms. Sarthou. My name is Cynthia Sarthou, and I am Executive 
Director of the Gulf Restoration Network or the GRN, which is a 
15-year-old environmental advocacy organization exclusively 
focused on the health of the Gulf of Mexico.
    And I have to say, at the beginning of my testimony, that 
in talking to some people from Alaska, the experience in the 
Gulf of Mexico may be slightly different than that of Alaska, 
possibly because they suffered the Exxon Valdez and there was 
some recognition of a potential disaster.
    Throughout my tenure with the GRN, I have tried to monitor 
the efforts of the work of the MMS, and much of my research and 
focus has been on the MMS. And during that period of time, 
we've seen a lot of research on many things, none of which have 
been technology development for purposes of oil-spill response.
    I have not worked on the Coast Guard as much, so I don't 
know quite where their status was, but my experience with this 
spill tells me that there has been very little research done by 
them as well, in the long term, on how to effectively respond 
to an oil spill.
    This despite the fact that oil spills are relatively common 
in the Gulf, which is why I'm kind of surprised that anybody 
would need to create a spill in order to do research.
    We have had over 167 spills in the last 10 years of 50 
barrels or more, which is 2,100 gallons, and 58 larger spills 
of 10,000 gallons or more, plenty of opportunity for, I think, 
efforts to use new oil-spill technologies.
    Of course, the failure, I believe, to really press for oil-
spill technologies may lie in MMS and the Federal Government's 
acceptance of the oil industry's, I guess, position that a 
large spill was actually technically impossible because they 
were too far advanced in their technology to ever let it 
happen, an assumption that I think we have found, by this 
disaster, to be false.
    What has become very clear from day one of the BP Horizon 
disaster is that there has been a total failure of MMS, the 
Coast Guard, the oil industry or even Congress, for that 
matter, to invest in research and development to improve oil-
spill-response capabilities.
    The OPA required that that research occur. It was never 
fully funded and has never gone forward, and although MMS has 
spent millions of dollars annually on research, most of that 
research has focused on the effectiveness of booms, skimmers 
and burns, such as the best possible weather conditions to use 
those measures and the extreme difficulty in capturing and 
stopping oil from blowout preventer failures in deeper waters. 
Few studies looked at the existence and effectiveness of new 
response technologies.
    As a result, the response to the BP Horizon disaster has 
involved the inadequate technologies used during the Exxon 
Valdez, with the exception, I now learn, of burning, which, 
although potentially effective in capturing oil, carries its 
own consequences, including burning turtles alive and releasing 
VOCs, et cetera, into the air, which are now getting complaints 
from some people on land who are trying to figure out why 
certain things are dying because of potential acid rain.
    Technology that has been allowed has not really stopped the 
spread of oil throughout the waters of the Gulf and onto state 
beaches and coastal wetlands, and, as you pointed out, that's 
not to say that there aren't potential technologies out there.
    We alone received hundreds of calls from people after the 
spill asking us why they were not allowed to deploy these 
technologies, despite the fact that these technologies had been 
approved in Delaware, after a spill, that they had been 
approved for Santa Barbara's use in Santa Barbara.
    Many of those, I might add, were bioremediation 
technologies that would have broken down the oil, and, from 
what I heard today of the Coast Guard's testimony, it seems 
like none of those technologies are moving forward. Most of 
what is moving forward are technologies for viewing or 
determining where the oil is or how to better find it or, you 
know, additional or new skimmers.
    An additional complaint that I have to tell you I've heard 
from entrepreneurs is if you don't know a Governor or somebody 
at high levels of government, you are not getting your 
technologies to go through.
    Now, I haven't been able to verify that, but I will tell 
you that two of the technologies I've heard tested were Kevin 
Costner's technology and the Whale, both of which got a lot of 
PR and seemed to have a lot of politics behind them.
    Additionally, even with regard to existing technologies, 
the Coast Guard and the oil companies have not had sufficient 
of those technologies in place before this spill to address a 
worst-case scenario, despite the fact that many of the plans, 
if you look at them, by the oil companies showed that expected 
worst-case scenario could be from 300,000 gallons a day, in one 
instance, which was pretty surprising, we found it, but most of 
them were 30,000 gallons a day, but, nonetheless--or 30,000 
barrels a day.
    So, nonetheless, it was predicted that there could be 
significant releases of oil from deep-water drilling, and when 
we look, none of that equipment was actually deployed in the 
area or stockpiled in the area for very quick response. So, I 
mean, our, I think, conclusion from that, and possibly yours, 
is that they clearly weren't ready for a disaster.
    My testimony also speaks to the absolute failure in this 
response to allow public access to information. We have had 
significant trouble getting any of the data. We have had a 
3,000-foot limit on our aerial deployment to try to monitor 
what's going on, despite the fact that they can't tell us what 
the real safety concern is.
    The Coast Guard recently put in a 65-foot barrier to any 
response. They subsequently lifted it for the press, but still 
are not allowing scientists within that 65-foot area. So we're 
not having an ability to really see or monitor the impacts.
    And the other issue which--I know I need to stop--is that 
on animal rescue, some of the groups that have the most 
expertise on animal rescue have, in fact, not been allowed to 
actually get engaged or to even give advice on it.
    So we're being told things like we cannot capture an oiled 
bird that can still fly, despite the fact that scientists are 
telling us that they can do that. It's just that the people who 
are doing it don't know how.
    So I thank you for allowing me to testify.
    [The prepared statement of Ms. Cynthia Sarthou follows:]

      Prepared Statement of Cynthia Sarthou, Executive Director, 
                        Gulf Restoration Network
    I am Cynthia Sarthou, the founding Executive Director of the Gulf 
Restoration Network. I have been working on ocean and coastal issues 
for over three decades, with the last xx years spent in the Gulf. The 
Gulf Restoration Network or GRN is a 15-year-old environmental advocacy 
organization exclusively focused on the health of the Gulf of Mexico. 
Our mission is to unite and empower people to protect and restore the 
natural resources of the Gulf for future generations. Our primary 
efforts have focused on ensuring healthy waters, protecting and 
restoring coastal wetlands, and defending marine fisheries and 
ecosystems. Our board members hail from all five Gulf States.
    Since our founding in 1994, the GRN has followed activities related 
to oil and gas development in the Western and Central Gulf of Mexico, 
attending hearings and filing comments. Throughout that time period, I 
continually heard from representatives of the Bureau of Ocean Energy 
Management, Regulation, and Enforcement, (``BOEMRE'') formerly the 
Minerals Management Service (``MMS''), and various oil companies that 
my concerns about the potential impacts to marine species and habitats 
from oil and gas exploration and development were negligible. The 
reason given was generally that the industry was so far advanced in its 
technological ability and its technology so fail safe that a major 
accident could never happen. As the BP drilling disaster has shown all 
too clearly, they were wrong.
I. Research and Development and Its Effectiveness in Preparing for the 
        BP Horizon Disaster
    What has been equally evident is that BOEMRE failed, as did 
Congress, to invest in research and development intended to improve oil 
spill response capabilities because of their belief that an oil spill 
of any significant magnitude was improbable. As a result, the response 
to the BP Horizon disaster has involved antiquated technologies, such 
as skimming, burning and the use of dispersant. Because of this lack of 
preparedness a significant amount of oil has spread across the waters 
of the Gulf and onto Gulf state beaches and coastal wetlands.
    After the Exxon Valdez spill in 1989, the Minerals Management 
Service (MMS), the Coast Guard and NOAA, had reason to believe that 
research into oil spill response technology was necessary to improve 
oil spill response efforts. In fact, Section  2761 of the OPA 
established the Oil pollution research and development program. 
However, monies needed to support the research under Section 2761 were 
not appropriated.
    Since 1995 the MMS has spent between $6 and $7 million annually on 
research,\1\ however, little, if any, of that research focused on 
developing new oil spill response technologies that could more safely 
and effectively contain oil either at the surface or subsurface. The 
MMS did conduct research on the effectiveness of booms,\2\ burns,\3\ 
dispersants \4\ and skimmers,\5\ looked into the best possible weather 
conditions to apply the respective measures,\6\ published many studies 
showing the extreme difficulty in capturing and stopping oil spills 
from blow out preventer failures in deep depths, and researched the 
formation of subsea oil plumes. However, even though dispersants are an 
approved method of addressing oil spills, neither the MMS nor EPA has 
completed research regarding the long-term impacts of chemically 
dispersed oil on the marine ecosystem. Yet, in response to the BP 
Drilling Disaster, they have approved the application of approximately 
2 million gallons of dispersant--the largest amount applied in U.S. 
history. Additionally, the MMS has not required that oil companies have 
sufficient amounts of other existing oil spill technologies in place to 
respond to a worst-case scenario oil spill. Instead, the MMS trusted 
oil companies to have the resources available and in place. As the BP 
Deepwater Horizon disaster illustrates, the companies are grossly 
unprepared to deal with a spill the magnitude of the current 
disaster.\7\ If the companies had sufficient booms and skimmers in 
place prior to the BP-Deepwater Horizon disaster, they could have 
prevented more of the oil from spreading along the Gulf coast.
---------------------------------------------------------------------------
    \1\ Le, Phuong. ``Little Money, Study Devoted to Oil Spill Cleanup 
Technology--The Boston Globe.'' Boston.com. 27 June 2010.Web.<http://
www.boston.com/news/science/articles/2010/06/27/
little_money_study_devoted_to_oil_spill_cleanup_technology/>.
    \2\ Air Jet Atomization and Burning of Oil Slicks, S. L. Ross 
Environmental Research Limited, 1991. http://www.mms.gov/tarprojects/
152.htm (see also Technology Assessment and Concept Evaluation for 
Alternative Approaches to In-Situ Burning of Oil Spills in the Marine 
Environment, Final Project Report, Marine Research Associates, North 
Stonington, Connecticut, September 1998. <http://www.mms.gov/
tarprojects/291.htm>).
    \3\ S.L. Ross Environmental Research, Ltd., and Applied Fabrics 
Technologies, Inc., The Effect of Buoyancy to Weight Ratio on Oil Spill 
Containment Boom Performance, Final Report, May 2003. <http://
www.mms.gov/tarprojects/457.htm> (see also Screening Test for Fire 
Resistant Booms in Waves and Flames, SL Ross Environmental Research, 
Ltd, April 1998. <http://www.mms.gov/tarprojects/244.htm>).
    \4\ Identification of Window of Opportunity for Chemical 
Dispersants on Gulf of Mexico Crude Oils, November 2007, By Randy 
Belore, S.L. Ross Environmental Research Ltd., Ottawa, ON, Canada 
<http://www.mms.gov/tarprojects/595.htm>.
    \5\ Investigation of the Ability to Effectively Recover Oil 
Following Dispersant Application--Final Report, SL Ross Environmental 
Research Ltd., 21 pp., December 2007. <http://www.mms.gov/tarprojects/
589.htm>.
    \6\ See Identification of Window of Opportunity for Chemical 
Dispersants on Gulf of Mexico Crude Oils, November 2007, By Randy 
Belore, S.L. Ross Environmental Research Ltd., Ottawa, ON, Canada 
<http://www.mms.gov/tarprojects/595.htm>.
    \7\ <http://www.gomr.mms.gov/PI/PDFImages/PLANS/29/29977.pdf> (page 
7-1) (BP's exploration plan stating that they could address a 300,000 
barrel a day spill); http://www.gomr.mms.gov/PI/PDFImages/PLANS/25/
26601.pdf> (see page F 1) (Shell claiming that they can respond to an 
oil spill of 80,000 barrels per day).
---------------------------------------------------------------------------
    While the MMS did conduct research into certain aspects of oil 
spill response technology, the response to the BP Deepwater Horizon 
disaster illustrates that BOEMRE failed to complete necessary research 
on or support development of new oil spill response technologies. Our 
research has revealed that BOEMRE has received little, if any, funding 
to verify the effectiveness of technologies developed by the private 
sector to address oil spills or support research and development of 
more effective oil spill response technologies. This is not to say that 
technologies have not been developed. GRN's staff received hundreds of 
calls and e-mails, as did BP and all of the state and Federal agencies 
involved, pressing for the use of new oil spill response technology. 
However, because there had been no research and approval of these 
technologies prior to the BP disaster, the agencies were faced with the 
impossible task of trying to effectively sort out the truly effective 
technologies, approve and begin use of them to address oil already 
spewing from the BP Horizon well. With the exception of the higher 
profile media worthy technologies, such as that pressed by Kevin 
Costner, this led BP and the Coast Guard to simply revert to the less 
than effective, but better known, techniques of booming, skimming, 
burning, and dispersing.
    If MMS had fulfilled its duty to increase the effectiveness of oil 
spill response technology, more oil would have been captured near the 
site of the blowout and the impacts associated with the Deepwater 
Horizon's would probably be much less severe.
II. Public and Scientist Involvement in Federal Government Response
    The Federal Government's response efforts have largely excluded 
members of the public and the independent scientific community. From 
the beginning, even obtaining information about response planning and 
deployment of equipment and manpower has been difficult. Additionally, 
the FAA imposed a 3,000 foot requirement on all over flights, which 
severely limited monitoring of response efforts or verification of 
impacts to coastal barrier islands and the like. Similarly, the Coast 
Guard recently issued a rule prohibiting the public from coming within 
a ``safety zone'' which encompasses 65 feet of any response vessels or 
booms on the beach or the water.\8\ The Coast Guard recently modified 
the rule to allow representatives of the press to obtain credentials 
that allow them within the safety zone.
---------------------------------------------------------------------------
    \8\ See Appendix A: Times Picayune Editorial, July 5, 2010.
---------------------------------------------------------------------------
    Although Administrator Jackson and Secretary Lubchenco have met 
with local groups throughout the Gulf to discuss their concerns, the 
knowledge of local organization's on existing contamination or others 
issues that could affect water sampling have not been solicited or 
incorporated into sampling plans. Equally concerning, EPA and NOAA have 
not required BP to make the monitoring data that they have collected 
available to the public. This significantly impairs the ability of 
independent and academic scientists to perform detailed analyses of the 
impacts of this disaster.
    Similarly, in bird rescue efforts, private non-governmental 
organizations, such as the Wildlife Rehabilitation and Education Center 
(Texas), although having significant experience with the rescue of 
brown pelicans and other birds, have been excluded from the rescue 
process efforts. These groups have asserted concerns that there has 
been no effort by the U.S. Fish and Wildlife Service (USF&WS) and BP's 
contractor, Tri-State Bird Rescue & Research (Tri-State), to share best 
techniques, discuss innovative approaches, and realistically evaluate 
changing needs and break-downs in the effort. Similarly, the U.S. F&WS 
and Tri-State rescue team currently lacks input from the non-profit 
groups and rescuers with the most extensive field rescue experience on 
the most-refined field capture techniques. As a result, there is a 
concern that bird mortality is higher than it might otherwise have 
been.\9\
---------------------------------------------------------------------------
    \9\ See Appendix B; Letter to Acting Director Rowan W. Gould from 
the Atchafalaya Basinkeeper, Gulf Restoration Network, Lake 
Pontchartrain Basin Foundation, Louisiana Environmental Action Network, 
Lower Mississippi Riverkeeper, and Natural Resources Defense Council 
(July 14, 2010) (attached).
---------------------------------------------------------------------------
Conclusion
    To ensure that the Bureau of Ocean Energy Management, Regulation, 
and Enforcement and the Coast Guard are better able to address the next 
major oil spill, they must greatly expand their support of research and 
development and push the oil industry to adopt the best possible oil 
spill response technology. The Congress must greatly increase the 
funding available for necessary research into the efficacy and 
environmental impacts of developing technologies. Moreover, oil 
companies should be required to invest significant monies on: (1) 
production of oil spill response equipment, including the construction 
of ``caps'' and the like needed to stop the release of oil from 
deepwater wells should a blowout occur, in advance and have them at the 
ready in each region, and (2) oil spill response technology research 
and development to ensure that we move into the twenty-first century in 
terms of our response capability.
    Finally, national contingency planning for oil spills must 
incorporate better methods for involvement of the public and 
independent scientists in oil spill response activities.
          Appendix A: Editorial on Coast Guard ``Safety Zone''

     Is the Coast Guard working for the public or BP? An editorial

 Published: Monday, July 05, 2010, 6:24 AM Updated: Tuesday, July 06, 
                             2010, 9:30 AM

                Editorial page staff, The Times-Picayune

    The Coast Guard says that rules aimed at keeping the public and 
news media away from the oil spill response are necessary to protect 
the environment and the people and equipment involved in the cleanup.
    But the new ``safety zone'' that the agency has set up within 65 
feet of any response vessels or booms on the beach or the water mostly 
protects BP from bad PR.
    Since booms are often placed more than 40 feet outside of islands 
or marsh grasses, this additional buffer will make it difficult to 
document the effect of oil on the land or wildlife.
    That's not in the best interest of the Gulf Coast. Reporters and 
photographers, including those who work for The Times-Picayune, serve a 
vital function in documenting the disaster and the response.
    This decision isn't the only one that has hampered media coverage 
of the oil spill. The Federal Aviation Administration has ordered that 
no media flights to photograph the spill can go below 3,000 feet 
without special permission.
    Coast Guard Admiral Thad Allen, national incident commander for the 
spill, said that the safety zone restrictions are not unusual. He said 
BP didn't bring up the issue, but that local officials in Florida and 
elsewhere had raised safety concerns.
    But plenty of local officials understand the need to inform the 
public. ``Anytime you all want, you all can come in there wherever we 
go on our boats,'' Plaquemines Parish President Billy Nungesser told 
reporters.
    At this point, the Coast Guard has not justified its position. In 
fact, its reasons keep changing. First the restrictions were needed to 
protect civilians. Now the claim is that workers and equipment are at 
risk. But what's clearly at risk is the public's right to know, and 
that deserves protection, too.
    <SUP><dbl-dagger></SUP> 2010 NOLA.com. All rights reserved.
            Appendix B: Letter to Fish and Wildlife Service
Atchafalaya Basinkeeper, Gulf Restoration Network, Lake Pontchartrain 
        Basin Foundation, Louisiana Environmental Action Network, Lower 
        Mississippi Riverkeeper, and Natural Resources Defense Council
                                                      July 14, 2010
Acting Director Rowan W. Gould
U.S. Fish and Wildlife Service
Washington, DC.

Dear Acting Director Gould:

    The undersigned groups write to express our concerns about several 
elements of the ongoing response to the BP drilling disaster. Our 
concerns stem both from the efforts to clean-up the oil on barrier 
islands and areas used by birds as rookeries and our concern that 
little is being done to rescue fledglings from nests abandoned by oiled 
birds.
    First, we have received reports from volunteers monitoring response 
efforts that cleanup crews are negatively impacting nesting areas. For 
example, cleanup crews working on islands off the Louisiana coast 
crushed nests and eggs of birds nesting on that island. Similarly, 
crews on beaches have been disturbing least tern nests along the water 
edge and, at times, crushing or otherwise endangering fledglings.
    In relation to beaches, the environmental/conservation community 
are willing to work with USFWS to establish a beach steward volunteer 
program. These volunteers could help to flag and then monitor beach-
nesting bird colonies, educating contractors and other people about the 
risk to the birds and the need to not encroach on colonies. Of course, 
to be effective, beach stewards would need either some authority to 
interact with/direct BP contractors, or would need to simply document 
and report encroachment on colonies, preferably directly to Louisiana 
Department of Wildlife and Fisheries (LDWF) biologists in Joint 
Incident Command (JIC). The state of Louisiana has maps of the 
colonies, and has indicated a willingness to have this kind of help. 
Although we understand that USFWS has indicated an interest in getting 
a beach steward program, this effort appears stalled. Forward movement 
must occur quickly, as time is of the essence if we are to ensure 
maximum action to protect nesting birds.
    Additionally, there must be improvement in communication from JIC 
to BP field supervisors regarding this issue--supervisors must be 
trained to recognize risks and better control access to dune and back 
beach areas by their workers. This will only occur if Department of 
Interior directs BP to make training available and take the necessary 
action to reduce interactions between cleanup crews and nesting birds.
    Second, while efforts are being made to rescue adult oiled birds; 
similar attention is not being paid to abandoned fledglings. We have 
the following suggestions for action that can be taken to increase 
survival of oiled birds and fledglings:

        1. Evaluation Teams: Small evaluation teams should be formed in 
        each state to assess, at least weekly, the oiled bird situation 
        in the field and recommend improvements to the field rescue 
        effort. The teams should consist of one lead person from IBRRC, 
        USFWS, the appropriate state wildlife agency (i.e., LDWF) and 
        one or two individuals from uninvolved NGO's with experience in 
        wildlife rescue. . These teams should focus on sharing best 
        techniques, discussing innovative approaches, and realistically 
        evaluating changing needs and break-downs/logjams in the 
        effort, not critiquing past efforts.

        2. Oiled Bird Capture Experts with the most Field Experience 
        Should Guide/Provide Training: The field rescue team currently 
        lacks input from the non-profit groups and rescuers with the 
        most extensive field rescue experience, who likely know the 
        most refined field capture techniques. USFWS has asked that 
        International Bird Rescue and Research Center (IBRRC) conduct 
        classroom training for incoming field rescue personnel from 
        USFWS and LDWF. Having IBRRC provide this requested basic 
        training, and including a field training rescue component to 
        demonstrate the more effective techniques that they employ 
        should improve the rescue effort. (E.g., IBRRC has methods of 
        baiting birds that allow them to draw birds out of a colony so 
        that they can single out the oiled birds and capture them 
        without risk to the nestlings in the colony.

        We recognize that the professionals involved are caring and 
        doing difficult work under trying conditions. To improve this 
        difficult environment and strengthen the efforts of USFWS we 
        recommend decreasing territoriality among the various agencies/
        organizations, while also providing training, enhancing 
        communication, boosting teamwork and supplying expert oversight 
        where appropriate.

        3. Increase Efforts to Rescue Orphaned birds: USFWS personnel 
        routinely capture and band all fledgling chicks, including 
        royal terns, pelicans and others, on colonies. However, 
        currently little effort is being made to monitor colonies at 
        night to identify nests not incubated by an adult pelican. The 
        orphaned chicks could then be collected and forwarded to 
        available rescue centers. There is likely much more mortality 
        of adults than we are seeing through the rescue effort, and 
        there needs to be more effort to identify orphaned chicks and 
        forward them to centers that have the capacity to rear and 
        release orphaned chicks. If orphaned chicks are not heavily 
        oiled and may have better survival rates than oiled birds, this 
        may be an effort that helps at more of a population level. If a 
        lack of personnel for night monitoring is a problem, 
        experienced volunteer rescue groups could be drafted for this 
        purpose.

        4. Rehabilitated Chick-rearing: Many chicks have been rescued 
        and rehabilitated, and need to be raised on islands until they 
        are ready to fledge in the presence of wild birds. Standard 
        practice is to put them on a grassy island that is not a 
        nesting colony, feed them, and allow them to begin to follow 
        wild pelicans as they are ready.\10\ Planning for this type of 
        release has been ongoing for most of a month with little 
        result. This is a serious logjam, and holding these chicks too 
        long is not improving their odds of surviving and fledging 
        well. We understand that concerns about where to raise the 
        chicks is the central obstacle. For example, we understand that 
        Louisiana has stated a preference for rearing chicks on 
        Louisiana islands, because adults tend to return to nest on or 
        near the islands from which they fledged. At this point we feel 
        that the central consideration in choosing the location should 
        be protection from re-oiling. Given the oil now reaching 
        Florida, locations in far-western Louisiana or Texas would seem 
        to make sense from the standpoint of increasing the likelihood 
        that these birds would not be re-oiled. Whatever site is 
        chosen, there are several experienced rehabilitation groups 
        that are well-qualified to handle the on-site rearing process. 
        These groups should be identified and subcontracted through the 
        current lead rescue groups as appropriate.
---------------------------------------------------------------------------
    \10\ There is precedence for this type of rearing and release from 
the Louisiana Brown Pelican restoration plan from the 1970s, and this 
technique was also used successfully to rear and release 250 pelican 
chicks in 2005 after the Breton Island oil spill. This technique 
results in comparable survival rates to naturally-reared pelican 
chicks.

        5. Improvement Needed to Oiled Wildlife Hotline: This hotline 
        functions, but does not inspire confidence in callers. The 
        hotline is located in Houston, TX, and is run by BP. Many of 
        the operators do not speak English very clearly, and none of 
        them are familiar with birds or the areas from which oiled 
        birds are being rescued. This results in a need to repeat all 
        information very clearly, several times, and to spell the names 
        of every bird, usually several times. Also, operators seem to 
        be following a script, resulting in them repeatedly asking 
        where the nearest town or city is, and at what intersection a 
        bird is located. The process is causing increasing concern for 
---------------------------------------------------------------------------
        people calling in to the hotline.

        We concede that the information does go directly to a wildlife 
        biologist in Joint Incident Command, and is relayed to a field 
        team that goes to the site and evaluates the rescue potential 
        for the bird. So, the system seems to work. But the 
        communication difficulty has caused concern about whether 
        reported birds will actually be rescued.

        This problem could easily be solved by putting local people, or 
        birders, in the call centers. There are many potential 
        volunteers through Audubon and other bird advocacy groups who 
        may be able to fulfill this function. At the very least, 
        someone with good knowledge of the landscape and birds should 
        be assigned to each of the centers. Further, the script being 
        used by operators must be re-evaluated and more training given 
        to operators to make the process of collecting information more 
        efficient. Large, well-labeled maps in the centers might also 
        help.

    Third, I understand that all birds are being banded prior to 
release. However, rehabilitation is expensive, survival studies are 
few, and the oil in this spill has weathered more than most before it 
hits shore. We should take advantage of the opportunity to learn more 
about survival for future oil spills. Color-marking Brown Pelicans is a 
logical first effort, as they are most commonly captured and should 
return to areas where they could be more easily re-sighted next year. 
As Laughing Gulls are also being rehabilitated in large numbers, they 
too would be a logical choice as a second study species using color-
banding. We should also be working in advance to design studies to look 
at survival of migratory shorebirds, since little is known about how 
they survive oiling. The study plan should specify how survival will be 
estimated, and frequency of re-sighting efforts, if color-banding 
studies are the method of choice.
Conclusion
    While we recognize the many pressures imposed on the USFWS by the 
ongoing disaster, we believe that through implementation of the above 
suggestions and more effective use of well trained volunteers, more 
birds can be saved. We request that the actions/approaches suggested 
above be implemented immediately to increase the protection of both 
adult birds and chicks. We would appreciate a written response to this 
letter. Moreover, if you have questions or concerns, please contact us 
to set up a meeting. We would like to have an opportunity to meet with 
you to discuss our concerns and suggested solutions.
        Sincerely,
Dean Wilson,
Atchafalaya Basin Keeper.

Cynthia Sarthou,
Executive Director,
Gulf Restoration Network.

John A. Lopez, Ph.D.,
Director--Coastal Sustainability Program,
Lake Pontchartrain Basin Foundation.

Richard Bryan, Jr.,
Vice President,
Louisiana Audubon Council.

Marylee Orr,
Director,
Louisiana Environmental Action Network,
Lower Mississippi Riverkeeper.

Lisa Speer,
Director of Ocean Programs,
Natural Resources Defense Council.

Barry Kohl,
Vice Chair,
Sierra Club Delta Chapter.

    Senator Cantwell. Thank you very much.
    Dr. Kinner. Thank you for being here.

        STATEMENT OF DR. NANCY E. KINNER, CO-DIRECTOR, 
   COASTAL RESPONSE RESEARCH CENTER, AND PROFESSOR OF CIVIL/
     ENVIRONMENTAL ENGINEERING, UNIVERSITY OF NEW HAMPSHIRE

    Dr. Kinner. Chairman Cantwell, Ranking Members Snowe and 
distinguished members of the Committee, thank you for giving me 
the opportunity to appear before you today.
    My name is Nancy E. Kinner, and I am a Professor of Civil 
and Environmental Engineering in the Environmental Research 
Group at the University of New Hampshire, and I am the UNH Co-
Director of the Coastal Response Research Center.
    The center is a partnership between NOAA's Office of 
Response and Restoration and the University of New Hampshire. 
It acts as an independent, honest broker to oversee research on 
oil-spill response and restoration and serves as a hub for the 
spill-response R&D community.
    In my testimony that I have submitted for the record, I 
discuss several products created during center-funded research 
that are being used in the Deepwater Horizon spill, including 
the Environmental Response Management Application, ERMA, which 
manages and displays information about the spill to responders, 
and, now, to the public.
    Today, I will focus on what I see as the major obstacles 
impeding transformation of spill response and restoration 
research into practice and possible solutions going forward. 
The first and most significant obstacle is that there has not 
been enough funding to address oil-spill R&D needs.
    The two pieces of proposed legislation that accompanied 
Chairman Rockefeller's invitation to speak before you today, 
and a number of other bills pending before Congress, address 
Federal spill R&D and would markedly increase the amount of 
funding available.
    Unfortunately, technology development is often very time 
consuming and costly, and most R&D funding ends before the 
technology becomes part of standard practice.
    Compounding this, oil spills are relatively infrequent and 
the payback on a commercial venture is a very long process, if 
it ever occurs.
    The key is to ensure that the R&D funding is authorized and 
is consistent and long term and does not follow a boom-and-bust 
cycle similar to the one that occurred after the Exxon Valdez, 
when much of the money was never appropriated and certain key 
response agencies did not receive an annual R&D budget for 
spill-response research.
    Put simply, response research and development must be 
conducted to develop new and enhanced approaches to spill 
response and restoration so that we can limit the impacts of 
future spills when they occur. In order to reap the benefits of 
that R&D, we must provide consistent and sufficient funding.
    Second, R&D needs must be identified by more than Federal 
agencies involved in spill response and restoration. For 
example, workshops should be held on spill-related topics to 
identify R&D needs and develop research plans to address them. 
These workshops should include stakeholders from Federal and 
state agencies, industry and NGO's, as well as international 
entities.
    Once the research plans are established, the funding 
entities must work together to coordinate which projects each 
one will fund, sharing the findings produced and identifying 
new R&D needs when they arise. This kind of extensive 
coordination must occur among the spill-response community to 
prioritize research and translate that research into practice.
    Third, while R&D can develop solutions to address a variety 
of oil-spill response and restoration issues, there is always a 
problem adapting these technologies to specific spill scenarios 
and local environmental conditions.
    While there must be some direct investment in site-specific 
technologies, the better overall approach must be to build 
flexibility into a technology, so that it can be developed and 
rapidly adapted and deployed.
    Fourth, it is important to address spill-related human 
dimensions R&D issues, most of which have been largely ignored. 
Topics such as risk communication, valuing natural resources 
and social impacts are always major factors in spill-response 
and restoration.
    One major problem is the frequent disconnect between the 
metrics used by responders and those used by the public to 
judge success of a cleanup. Seeking a consensus on these 
metrics for success must be addressed as part of spill-response 
planning and preparedness.
    Fifth, it is critically important that the research undergo 
rigorous peer review and be widely available to maximize its 
ability to improve spill response and restoration.
    Finally, as the discussions and activity surrounding R&D 
evolve in the wake of the Deepwater Horizon, there must be 
coordination among all of the stakeholders and funding 
entities, if we are to avoid duplicating efforts, overlooking 
critical R&D needs and having valuable research results sit on 
the shelf.
    In summary, I believe we do have a chance to overcome the 
problems conducting and implementing R&D that have occurred in 
the 20 years since OPA 1990 became law, but, in order to do 
this, we must coordinate our efforts to make it happen.
    Thank you for giving me this opportunity to speak before 
you today. I would be happy to answer any questions.
    [The prepared statement of Dr. Nancy Kinner follows:]

    Prepared Statement of Dr. Nancy E. Kinner, Co-Director, Coastal 
    Response Research Center, and Professor of Civil/Environmental 
                             Engineering, 
                      University of New Hampshire
    Chairman Cantwell, Ranking Member Snowe, and distinguished members 
of the Committee on Commerce, Science, and Transportation's 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, thank 
you for the opportunity to appear before you today on behalf of the 
Coastal Response Research Center and the Environmental Research Group 
at the University of New Hampshire. My perspective on the use of the 
applied research during the Deepwater Horizon (DWH) spill response, and 
obstacles that impede transforming research results into practice, is 
highly influenced by my work with the Coastal Response Research Center 
(CRRC). In order to make that perspective clear, I will first give you 
an overview of the Center's history, mission, activities and its 
approach to oil spill research and development (R&D).
1. Overview of Coastal Response Research Center
    In 2002, NOAA's Office of Response and Restoration (ORR) became 
increasingly aware of the lack of oil spill R&D in its areas of primary 
responsibility: fate and behavior of spills and their impacts on 
natural resources and human activities. ORR recognized the role that a 
research university could play in addressing these needs, and started 
working with the University of New Hampshire to address this problem. 
The CRRC (http://www.crrc.unh.edu), a partnership between NOAA ORR and 
the University of New Hampshire, was created to address the need for 
improved spill response and restoration. The Center oversees and 
conducts independent research, hosts workshops, and leads working 
groups that address gaps in oil spill research in order to improve 
response, speed environmental recovery, and reduce the societal 
consequences of spills. In 2004, the partnership was codified by a 
memorandum of agreement between the University of New Hampshire and 
NOAA. CRRC acts as an independent, non-partisan entity to bring 
together members of the oil spill community, as well as those in 
relevant fields outside the spill community, including industry, local 
stakeholders, and state, Federal and international agencies to address 
the many technical, economic, social, and environmental issues 
associated with oil spills in marine environments. Funding for the 
Center has been largely by Congressional appropriation (Table 1) with 
some allocations from ORR's base budget.

                                         Table 1.--CRRC Funding History
----------------------------------------------------------------------------------------------------------------
     Fiscal Year           Appropriation         Grant to UNH                 [Other funding; specify]
----------------------------------------------------------------------------------------------------------------
              2002              $750,000              $701,997
----------------------------------------------------------------------------------------------------------------
              2003              $750,000              $714,580
----------------------------------------------------------------------------------------------------------------
              2004            $2,000,000            $1,978,955
----------------------------------------------------------------------------------------------------------------
              2005            $2,000,000            $1,694,312
----------------------------------------------------------------------------------------------------------------
              2006            $3,000,000            $2,481,900          $75,000 (Marine Debris/NOAA, ORR) \1\
----------------------------------------------------------------------------------------------------------------
              2007            $1,800,000            $1,435,249
----------------------------------------------------------------------------------------------------------------
              2008                     0                     0                                    $49,000 (eSCAT/NOAA, ORR) \1\
                                                                               $60,000 (ERMA /NOAA, ORR) \1\
                                                                                    $36,000 (In-situ/API) \2\
                                                                                     $145,000 (2008 Subtotal)
----------------------------------------------------------------------------------------------------------------
              2009                     0                     0              $25,000 (Workshop/ExxonMobil) \2\
                                                                                     $63,000 (Workshop/NOAA OCRM) \3\
                                                                              $162,000 (ERMA /NOAA, ORR) \1\
                                                                                     $250,000 (2009 Subtotal)
----------------------------------------------------------------------------------------------------------------
              2010                     0              $200,000            $220,000 (ERMA /for Gulf/NOAA) \1\
                                                                                                  $30,000 (eSCAT for Gulf/NOAA) \1\
                                                                                             $65,000 (NOAA, OCRM) \3\
                                                                                         $139,000 (NOAA, ORR)
----------------------------------------------------------------------------------------------------------------
       TOTAL 02-10           $10,300,000            $9,206,993                                       $924,000
                                                                                               ($139,000 for CRRC's Direct Oil Spill R&D
                                                                                                         Use)
----------------------------------------------------------------------------------------------------------------
\1\ eSCAT and ERMA  funding is primarily for the UNH Research Computing Center to work on computer programming.
  Marine Debris funding was for an Environmental Research Group project.
\2\ $61k to the Center for Spills in the Environment from API ($36k for In Situ Burning) and $25k from Exxon
  Mobil for partial support of the 2009 R&D Workshop).
\3\ Funding for workshop on Ocean Thermal Energy Conversion (OTEC) from NOAA OCRM--not oil spill related.


    The Center is served by a multi-agency advisory board, comprised of 
members from U.S. EPA, NOAA, USCG, state-based R&D programs, and 
industry that provide guidance on program direction. The board, in 
conjunction with the UNH and NOAA co-directors, developed five 
objectives for CRRC: (1) funding and oversight of relevant, peer-
reviewed research that is able to be developed into practical 
improvements in oil spill response; (2) hosting topical workshops and 
working groups that include representatives of all spill community 
stakeholders to focus research efforts, and ensure that crucial real-
world experience from oil spill practitioners is considered; (3) 
educating the next generation of spill responders through outreach and 
support of undergraduate and graduate student projects; (4) involving 
members of the international oil spill community to tap into expertise 
from around the world; and (5) develop response tools to aid 
responders.
    Funding of relevant, peer-reviewed research is accomplished through 
a periodic request for proposal (RFP) process. Proposals are reviewed 
by three to four experts in the area of the proposed research. They are 
ranked by their scientific validity and how well they address key 
research needs related to the fate, behavior and effects of oil in the 
environment, and is likely to lead to practical improvements in oil 
spill response and restoration. A panel of leading scientists and 
practitioners then review the peer-reviewed and ranked proposals and 
recommend which should be funded. Each funded research project is 
assigned a NOAA liaison to ensure the research can be transformed into 
practice, and, in addition, CRRC's Science Advisory Panel meets 
annually to review progress of the research and provide feedback to 
improve the quality and efficacy of the research.
2. Use of Applied Research Available and Implemented During DWH 
        Incident
    There are numerous examples of information and technology created 
during applied oil spill R&D being used during the DWH incident. I will 
highlight a few that CRRC has been involved with.
A. CDOG/GNOME Model Linkage
    One of the first projects that the Center funded was conducted by 
Dr. Poojitha Yapa of Clarkson University. Dr. Yapa developed a computer 
model to predict the fate and behavior of oil and gas as it rises to 
the surface from a deepwater well blowout. The development of the 
Clarkson Deepwater Oil and Gas (CDOG) model was funded by the Minerals 
Management Service (MMS). NOAA's Office of Response and Restoration 
(OOR) uses its GNOME model to predict the fate and behavior of oil in 
surface water. A key issue, identified by NOAA modelers, was the 
inability to input data from the CDOG model into the GNOME model. This 
link is essential to the understanding of the fate, behavior and 
trajectory of the oil from a leaking deepwater well, as well as 
developing impact predictions (i.e., where the oil from a leaking 
deepwater well would appear on the surface and what resource it would 
potentially impact). With this information, responders can determine 
the best response strategy to protect these critical resources. During 
the DWH response, ORR modelers used the CDOG/GNOME predictions to 
generate daily trajectories for the Unified Command to aid in decision-
making.
B. Environmental Response Management Application (ERMA <SUP>'</SUP>)
    In the Spring of 2006, the Center began funding a collaboration 
between NOAA ORR scientists and UNH computer researchers to display 
spill related information in a graphical and user-friendly manner. Data 
visualization can increase situational awareness during a large spill, 
especially when many of the decisionmakers are in different locations 
(e.g., for the DWH incident: Houma, LA; Mobile, AL; Tyndall, MS; St. 
Petersburg, FL; Washington, D.C.). In addition, it is important that 
the application is in a common format that allows most individuals to 
easily use it. The common way to display geographical data (referenced 
by its latitude/longitude) uses GIS software that requires special 
expertise and high-end computers to operate.
    The NOAA/UNH collaboration resulted in the Environmental Response 
Management Application (ERMA <SUP>'</SUP>), a web-based platform that 
displays data (e.g., spill trajectories, current and predicted wind 
direction and strength) on a map that is familiar to most people. In 
this way, data can be overlaid on a common geospatial grid (e.g., the 
Gulf of Mexico) to see resources at risk of oiling, the predicted 
trajectory, and the assets available to protect oil from contacting the 
sensitive resources.
    ERMA <SUP>'</SUP> is a good example of how a data management and 
visualization tool used in one field (wastershed management) can be 
applied to another (oil spill response) as a result of interactions 
between scientists and spill response practitioners. The method in 
which ERMA <SUP>'</SUP> evolved was crucial to its development and 
successful transfer from academia to the DWH Incident Command systems. 
In June 2006, after a very basic prototype was developed for 
Portsmouth, NH harbor. CRRC hosted a workshop that brought together 
Region I spill responders to demonstrate how ERMA <SUP>'</SUP> could 
aid in spill response. The workshop helped identify a team of 
practitioners who were willing to work with ORR and UNH researchers to 
develop a more detailed version of ERMA <SUP>'</SUP>. During the next 
several months, development continued, as did demonstrations of ERMA's 
<SUP>'</SUP> capabilities to various agencies and the private sector. 
EPA Region II then funded an ERMA <SUP>'</SUP> for the Caribbean which 
was fully developed and used in a spill exercise in 2009.
    When the DWH blowout occurred, the base platform of ERMA 
<SUP>'</SUP> was used to create and populate a Gulf of Mexico ERMA 
(GOMEX ERMA) specific to the incident, and has been in use ever since. 
A public site (www.geoplatform.gov) was created, and much of the 
information is also available to the public.
C. Other Applied Research Being Used During the DWH Incident
    CRRC facilitated a webinar the third week of June hosted by the 
Interagency Solutions Group (IASG) of the National Response Team (NRT). 
The purpose of the webinar was to determine what data is available and 
being collected regarding the efficacy and effects of surface and 
subsurface dispersant use during the DWH incident. Over 70 
representatives from Federal and state partners participated, and data 
was presented by USGS, USCG, NOAA, U.S. EPA, and DOE scientists and 
practitioners. Much of the data was being collected using techniques 
developed and modified for use in oil spills during the last decade 
(e.g., Tier II/III SMART dispersant monitoring protocols, LISST 
particle counter, holographic imagery to determine particle size and 
distribution). While many of these tools are in use, they are not at a 
stage where the interrelationships among them and the ability to use 
their output in a quantifiable manner are possible. This is in large 
part because the resources to fund such research and development have 
not been available.
    I would be remiss if I did not also acknowledge that as is typical 
during most prolonged environmental events, technology has also been 
developed and applied during the spill. Some noteworthy examples 
include the work of the Flow Rate Technical Group (FRTG) where members 
used mass balance, plume analysis, and nodal and reservoir analyses 
methods to estimate the flow of oil from the wellhead. Their work has 
refined the estimate of the size of this leak from its initial 
estimated 1,000 to 5,000 barrels/day (BPD) to the range of 35,000 to 
60,000 BPD. Additional post-spill R&D will improve the ability to 
predict the flow and yield a more precise estimate. Another example is 
the Oil Budget tool being developed by USGS, NOAA, and the USCG which 
will help estimate the mass of oil that is naturally weathered (e.g., 
evaporated, biodegraded, dispersed) as well as that mechanically 
recovered and chemically dispersed or burned. Again, the tool is a 
prototype and will need further development, testing, and refinement 
before it is part of the standard package of a response, but it is well 
on its way.
    Obviously, it is not desirable to have to build tools or response/
restoration technologies during a spill, but as has been demonstrated 
over history, ``necessity is the mother of invention.'' This is 
especially true because oil spill R&D has been typically under-funded 
since the mid-1990s.
3. Obstacles that Impede Transformation of Research into Practice
    There are several obstacles that impede the transformation of 
research results into practice, but the most significant among them is 
that much of the necessary oil spill response and restoration research 
is not funded. I was delighted to read the two pieces of legislation 
that accompanied the invitation from Chairman Rockefeller to speak 
before you today. The establishment of a Federal Oil Spill Research 
Committee and improvement of NOAA's, USCG's, and the coastal states' 
abilities to sustain healthy ecosystems through the spill preparedness, 
prevention, response, restoration, and research will help address the 
lack of adequate resources to do the R&D needed. As you clearly know, 
the existing R&D structure codified in OPA 90 has not been adequate to 
address the gaps in data, tools, and techniques that have been 
highlighted in the DWH incident and in many of the workshops the CRRC 
has held since 2003. (Table 2).

                 Table 2.--CRRC-led R&D Needs Workshops
------------------------------------------------------------------------

------------------------------------------------------------------------
U.S. Coast Guard Arctic Response--April 23, 2010
------------------------------------------------------------------------
NRDA in Arctic Waters: The Dialogue Begins--April 20-22, 2010
------------------------------------------------------------------------
Sea Grant and NOAA ORR Collaboration--January 25, 2010
------------------------------------------------------------------------
Ocean Uses Atlas--January 12-14, 2010
------------------------------------------------------------------------
Response to Liquid Asphalt Releases in Aquatic Environments--October 21,
 2009
------------------------------------------------------------------------
2009 Research and Development Needs--March 17-19, 2009
------------------------------------------------------------------------
Oil Spill Modeling Working Group Meeting--September 16-17, 2008
------------------------------------------------------------------------
Opening the Arctic Seas: Envisioning Disaster and Framing Solutions--
 March 18-20, 2008
------------------------------------------------------------------------
HEA Metrics Workshop--December 4-6, 2007
------------------------------------------------------------------------
Environmental Response Data Collection Standards--September 25-27, 2007
------------------------------------------------------------------------
Modelers' Summit--June 26, 2007
------------------------------------------------------------------------
Submerged Oil Workshop--December 12-13, 2006
------------------------------------------------------------------------


            Table 2.--CRRC-led R&D Needs Workshops--Continued
------------------------------------------------------------------------

------------------------------------------------------------------------
Innovative Coastal Modeling for Decision Support: Integrating Physical,
 Biological, and Toxicological Models--September 26-28, 2006
------------------------------------------------------------------------
Toxicology Working Group Summit--August 15-16, 2006
------------------------------------------------------------------------
Workshop on Research Needs: Human Dimensions of Oil Spill Response--June
 13-15, 2006
------------------------------------------------------------------------
Research and Development Needs for Making Decisions Regarding Dispersing
 Oil--September 20-21, 2005
------------------------------------------------------------------------

    In fact, the Center, in its workshop reports has outlined consensus 
R&D plans for dispersants, dispersed oil, submerged oil, modeling, 
Arctic response, National Resource Damage Assessment (NRDA), and human 
dimensions, as well as a 5-year overall R&D plan that includes 
proposals for oil forensics, geospatial data management, and spill 
response during disasters. These workshops have included participants 
from Federal, state and international agencies, NGO's, industry, 
academia, and private sector researchers. The issue is not identifying 
the needed R&D, but rather it is having the funds to support this work. 
The Center maintains five working groups (Table 3) that consist of 
members of oil spill R&D community. These working groups coordinate 
which agency funds specific R&D projects to help avoid duplication of 
effort and best use of scarce financial resources. In addition, these 
working groups help to disseminate results among practitioners and 
monitor which research needs have been addressed. The CRRC typically 
works in concert with other working group members to hold educational 
sessions at conferences such as Clean Gulf where practitioners meet to 
learn about recent developments in oil spill R&D. Some examples are 
found in Table 4.

                    Table 3.--CRRC-led Working Groups
------------------------------------------------------------------------

------------------------------------------------------------------------
Dispersants Working Group
------------------------------------------------------------------------
Modeling Working Group
------------------------------------------------------------------------
Submerged Oil Working Group
------------------------------------------------------------------------
Toxicity Working Group
------------------------------------------------------------------------
Ephemeral Data Working Group
------------------------------------------------------------------------


  Table 4.--Conferences Where CRRC Hosted/Co-Hosted 1/2 Day Technology
                   Transfer Sessions for Practitioners
------------------------------------------------------------------------
   Conference           Date        Title of Session        Sponsors
------------------------------------------------------------------------
Clean Gulf        November 17-19,  Applied Research    LOSCO, OSRADP,
                   2009             for the Spill       TGLO, and CRRC
                                    Response
                                    Community
------------------------------------------------------------------------
Clean Gulf        October 28-30,   Applied Research    LOSCO, OSRADP,
                   2008             for the Spill       TGLO, and CRRC
                                    Response
                                    Community
------------------------------------------------------------------------
International     May 4-8, 2008    Efficacy and        CRRC
 Oil Spill                          Effects of
 Conference                         Dispersants in
                                    Oil Spill
                                    Response:
                                    Progress since
                                    the 2005 NRC
                                    Report
------------------------------------------------------------------------
Clean Gulf        November 15-16,  Applied Research    LOSCO, OSRADP,
                   2007             for the Spill       TGLO, and CRRC
                                    Response
                                    Community
------------------------------------------------------------------------

    Another key issue with R&D funding is that it follows a ``boom and 
bust'' cycle, usually centered only spurred by major oil spills. A 
large infusion of funding for oil spill preparedness, prevention, and 
response came after the Exxon Valdez in 1989, encouraged in part by 
implementation of OPA 90. While R&D funding was authorized and 
appropriated for USCG, MMS, and EPA, as well as the two Alaska regional 
citizen's advisory councils (RCACs) and the Oil Spill Recovery 
Institute (OSRI), the budgets have not grown commensurate with 
inflation, resulting in less R&D as time goes on. For example, the MMS 
full-scale oil spill research tank in Leonardo, NJ (OHMSETT) has run a 
number of equipment and training studies with mechanical recovery 
devices and dispersants. However, these tests are expensive and 
maintenance on such a facility is high. A fixed budget has diminished 
what can be tested at OHMSETT, and many research and development 
budgets cannot accommodate the costs of doing full-scale testing there, 
even though it would be desirable.
    Technology transfer is an arduous process and is often very costly 
and time consuming. It requires linking the researcher and the end user 
together, so that the goals and capabilities of each party are 
identified clearly so that the technology can be best adopted to meet 
their final goals. It is not only the researcher who must continually 
modify and adapt, but often also the practitioner who begins to ``see'' 
the potential and weaknesses of the new technology and revises his/her 
understanding of its application. The CRRC addresses this by assigning 
NOAA liaisons to each funded project to help ensure the project remains 
focused on the end user. As with ERMA <SUP>'</SUP>, this may evolve 
into interactions with teams of end users as the technology matures. 
For example, several CRRC staff and students worked with NOAA 
Assessment and Restoration Division (ARD) scientists/practitioners to 
develop a field manual on acute toxicity data for polycyclic aromatic 
hydrocarbons (PAH), a common contaminant during release of oil to the 
environment. The information and format of the manual was presented to 
a cross-section of private sector and Federal and state end users on 
several occasions via webinar. Each time, the end users have excellent 
recommendations for improving the product, some of which were addressed 
in subsequent editions of the manual. The toxicity manual is currently 
being used as a source of toxicity information during the DWH incident 
because each data point included has met the most rigorous quality 
control standards (i.e., the data have all been carefully validated) 
and it is in format available and useful to practitioners.
    A significant obstacle to continued oil spill R&D is the infrequent 
nature of oil spills. The last major well blowout in the Gulf of Mexico 
was the IXTOC in 1979. In the interim, drilling and production 
technology for offshore oil and gas has grown tremendously and allowed 
work to proceed at water depths greater than 5,000 feet, tapping 
reservoirs many miles below the sea floor. R&D for the requisite 
response technology needed to address such a deepwater accident as the 
DWH has not occurred.
    The Center is currently involved in organizing a series of meetings 
with a broad spectrum of stakeholders on the R&D issues identified 
during the DWH incident, using models we have used for similar topics 
in the past (e.g., dispersants R&D workshops followed by working 
groups) including Federal, state, and local stakeholders, NGO's and the 
private sector. These workshops will also involve a commensurate effort 
to identify and collect existing literature on related topics to ensure 
research efforts are not being duplicated. The stakeholders involved in 
the spill as a result of BP's funding of LA, MS, AL, and FL researchers 
at universities and institutes will also be included. This is 
absolutely necessary and must be done immediately to avoid duplication 
of effort, insure that the practitioners' research needs are addressed 
and the research is transferred to end users for incorporation in 
future spill response and restoration.
    Even if the needed spill response or restoration technology is 
developed as a result of an R&D effort, the incentive for a private 
sector partner to produce it for commercial sale is minimal. This is 
less true if use of the technology is mandatory. For example, if the 
DWH incident results in regulations requiring caps to be available for 
immediate deployment in case of a blowout, there will be a fairly major 
incentive to manufacture the caps (i.e., there are roughly 4,000 
platforms of production platforms alone in the U.S. waters of the GOM). 
The incentive to manufacture large numbers of technology-enhanced 
skimmers and booms is less clear. The reality is that a fleet of such 
devices is expensive to maintain, especially when the likelihood they 
will be used more than a few times, if at all during their useful life. 
Even then, the ``fleets'' will likely be regional and not site specific 
as it is almost impossible to predict where and when a spill will 
occur. In this regard, the Arctic poses an even more difficult 
challenge, as assets may only need to be deployed seasonally when there 
is open water.
    While R&D can develop solutions to address a variety of oil spill 
response and restoration issues, there is always the problem of 
adapting those technologies to a specific spill and the prevailing 
environmental conditions. Each spill is unique in its timing, location 
(e.g., water depth), and variables (e.g., flow rate, type of oil) as 
well as the habitats and resources that must be protected. While this 
dictates some direct investment in site-specific technologies (e.g., 
skimmers designed to collect and process oil in broken sea ice), it 
often can be addressed by building in flexibility in devices or 
developing robust templates, as with ERMA <SUP>'</SUP>, that can be 
used and adapted quickly to a given spill. These are details that must 
be addressed in the initial stages of an R&D project.
    Finally, it is important to address human dimensions-related 
issues, a topic that, with the exception of how to incorporate 
volunteers in response, has been largely under-funded for oil spill 
response and restoration. Human dimensions R&D relates to risk 
communication, valuing natural resources, social impacts, coordination 
in response and restoration, subsistence, and environmental ethics. It 
is a factor in every spill. It involves regional and local culture and 
can render a ``successful'' spill response in the perspective of the 
local community a ``disaster.'' One major problem is the frequent 
disconnect between the metrics used by responders to assess success of 
a clean-up vs. those used by the local community. For example, the 
number of gallons of oil recovered per day in on-sea activity by 
skimmers and in-situ burning may be meaningless to local residents or 
fishermen if the beaches are fouled or commercial fisheries are closed. 
Likewise, in Alaska, responders who do not incorporate local knowledge 
of currents and seasonal migration may find that they are greeted 
suspiciously. Indeed, this may turn to scorn if generated oil 
trajectory is incorrect and the oil goes where the local fisherman 
predicted it would. Going forward, human dimensions research, such as 
that conducted by Tuler and Webler for CRRC, must become a R&D priority 
(Table 5).

  Table 5.--Socio-economic research by SERI (Thomas Webler, Seth Tuler)
------------------------------------------------------------------------

------------------------------------------------------------------------
``Establishing Performance         $229,362   Completed 2007
 Metrics for Oil Spill
 Response, Recovery and
Restoration''
------------------------------------------------------------------------
``Social Disruption from Oil       $239,335   Fall, 2010
 Spills and Spill Response:
 Characterizing Effects,
 Vulnerabilities, and the
 Adequacy of Existing Data to
 Inform Decision-Making''
------------------------------------------------------------------------

Conclusion
    There are several impediments to translating oil spill R&D into 
practice:

  <bullet> The lack of adequate, sustained, funding for R&D on a long-
        term basis.

  <bullet> The need for rigorous peer review at all stages of the R&D 
        process.

  <bullet> The need for coordination between Federal, state, and 
        international governmental agencies and other critical 
        stakeholders (e.g., NGO's, industry) regarding oil spill R&D.

  <bullet> The need to facilitate the translation of the results of 
        spill R&D into practice.

  <bullet> The infrequency of major spill events and the resulting 
        disincentive for the private sector to produce technologies 
        that may be in low demand.

  <bullet> The site specific nature of most spills that dictates 
        specialized technologies (e.g., for use in the Arctic) and/or 
        robust templates that can be adapted quickly to a given spill.

  <bullet> The issues of diverse and specific human dimensions related 
        aspects to a given spill involving: (a) the ecological role of 
        humans as proximate causes of ecosystem stress, and underlying 
        social drivers of those causes; (b) consequences of ecosystem 
        stress for the achievability, sustainability, and trade-offs 
        among diverse societal objectives; and (c) human mitigation and 
        adaptive responses to ecosystem stress, that must be addressed 
        to insure productive interactions with local and regional 
        stakeholders.

    Going forward, R&D needs can be identified using an inclusive 
stakeholder approach with specific R&D workshops and coordination of 
subsequent efforts by working groups.
    R&D must incorporate rigorous peer review by scientists, engineers 
and practitioners and end users as well as human dimensions related 
stakeholders to ensure the technologies developed will meet the needs 
identified. This may include assigning practitioners as liaisons during 
R&D and in using the team approach to review as the technology matures.
    There must be coordination of R&D across the stakeholder groups for 
the U.S. to succeed in spill response and restoration technology 
development and implementation. This requires cross-agency Federal 
coordination, as addressed in legislation being considered in Congress, 
but must also encompass other governmental agencies (e.g., state, 
local, international), as well as NGO, academia, industry and the 
private sector.
    Federal R&D funding must be authorized and appropriated on a 
consistent, long-term basis.
    Federal R&D funding should require the research to address: 
existing data and appropriate literature on the topic, technology 
transfer by incorporating end users in all aspects of the process, 
flexibility to adapt to spill specific conditions, and consideration of 
human dimensions.

    Senator Cantwell. Thank you, Dr. Kinner, and thank you for 
your testimony.
    I want to go first to you, Dr. Stahr, because you talked 
about these Seagliders and the fact that some of them were 
deployed.
    I thought the issue is that they could be much more 
technological, sophisticated in the information that they could 
gather and we could be deploying many more of them. Is that 
correct?
    Dr. Stahr. That's correct. You know, as is usual in a 
crisis situation, people pick up the phone and say, you know, 
What have you got available?
    The Navy was charged with putting a couple of their 
Seagliders into the Gulf right away. They had some ship 
problems, so they didn't get them out there right away.
    But the issue--There are two issues. One is gliders can 
only go to 1,000 meters. Currently available gliders can only 
go to 1,000 meters. This wellhead is at about 1,800 meters. So 
we cannot actually look at the bottom end of this plume, which 
we believe from shipboard data to be down around 1,300 meters.
    There is in development right now a deep glider. Professor 
Charlie Eriksen of the University of Washington is actually 
going out this week or next week to the Puerto Rico Trench to 
test that. That glider will be capable to 6,000 meters. It will 
cover anywhere and deeper than you can put an oil well, 
basically.
    The other issue is instrumentation. What we have for 
instrumentation on the gliders right now are measuring proxies 
for oil, oxygen utilization. So microbes break down oil and 
they use oxygen in the water column in that process, and the 
measurement of something called Colored Dissolved Organic 
Matter in a fluorescence capacity.
    That's not oil, but it acts--Oil fluoresces somewhat like 
CDOM. So from our CDOM fluorescence measurements we can guess 
that what we're looking at is oil, but we don't know.
    There are actual oil sensors for polynucleic aromatic 
hydrocarbons, but they're all too big and too power hungry to 
actually put on a glider, so more development in that respect 
would help in terms of getting gliders that could be used to 
observe oil plumes under water.
    Senator Cantwell. And let's just envision that for a second 
that that kind of technology and research, again, was--somebody 
said let's make that investment. Somebody was making a decision 
that, given the level of deep-sea drilling that we were doing, 
that kind of information might be valuable and that we actually 
were at that stage of having Seagliders that were capable of 
measuring the hydrocarbons, what would our response plan look 
like today then? What would we have been able to take advantage 
of?
    Dr. Stahr. I think that probably one of the most important 
issues is to know where the plume is. And it's being pushed 
around by currents that are different than the surface 
currents, and the oil in that plume will affect different 
things, because it's not coming to the surface.
    It's not being weathered by the sun or the air, and it is 
being absorbed by animals--deep shrimp, et cetera--that we 
don't really know how it's going to move up the food chain.
    But there's a plume of toxic oil and dispersant--we assume 
the dispersant is still with it in some respect--but we don't 
really know how big it is or where it is. And this plume is 
likely to hang out in that environment for much, much longer 
than the surface oil.
    So I don't know that the response--The response plan could 
have been to get more gliders into service more quickly and to 
have a better idea of where the edges of this plume were. 
Although, there was some debate about whether the plume 
contained oil at all up until probably the end of May when I 
think it was pretty well proven with the shipboard data that, 
in fact, this was as well, an oil plume.
    Senator Cantwell. And, Dr. Kinner, can't we, in coming up 
with standards and protocol, look at what kind of activities 
are most--that basically are putting forth the most risk to us 
and then make sure that the R&D is going there?
    I appreciate your comments about vessel and human safety, 
because I know that on these large cargo container ships we 
have seen a lot of confusion or let's just say not good 
communication among various commands on the ship and then, 
consequently, incidents occurring, so that very important 
issue.
    But can't we look at the risks for oil spill, or, as Dr. 
Stahr is saying, oil vents, and say that these are our big 
risks and this is where R&D should be applied?
    Dr. Kinner. Yes, I think we can do that, Senator, and if 
you look at some of the topics that have been addressed in the 
last couple of years--for example, dispersants. There have been 
a number of workshops, the first of which happened in 2005, 
looking at a whole array of R&D needs for dispersants, and many 
of those issues are still the ones that we are facing today in 
this particular spill.
    Of that about $40 million of R&D that was identified that 
needed to be conducted, there was a dispersants working group 
formed of the different funding entities. They decided we have 
these resources. This is what we can fund and prioritize. But a 
total of only $8.4 million was available to do that research. 
So a whole range of questions, all of which would be very vital 
to know today, have not been answered.
    So I think by getting together practitioners, as Dr. Pegau 
said, and scientists we can get the questions addressed that 
need to be addressed. It's just getting them into the R&D 
pipeline and then into implementation.
    Senator Cantwell. Thank you.
    Senator Snowe.
    Senator Snowe. Dr. Stahr, what surprised you most about our 
response?
    Dr. Stahr. I think what surprised me the most was this 
notion of it being a vent very similar to a hydrothermal vent 
didn't seem to register with the agencies in charge of dealing 
with it.
    I did learn later that, in fact, some folks from Woods 
Hole, at that time between the attempted top kill, but before 
they sliced the riser--I think it was late May--were there with 
an ROV and they took some measurements, and, from video, 
basically, came up with a number of like 60,000 to 100,000 
barrels a day of discharge.
    So I was surprised, one, at the almost denial of what the 
flow rate really could be or actually was with numbers like 
5,000 barrels a day, and the fact that the hydrothermal-vent 
research community was not really engaged in trying to make 
better measurements of that.
    And I think perhaps a lot of people were frustrated by 
that, and perhaps that was one of the causes of the formation 
of the flow-rate technical group that Admiral Allen finally put 
together in late May.
    So that it really sort of took me by surprise, and I was 
very happy to see that some folks just completely 
independently, like Dr. Crone, actually wrote an op-ed piece in 
The New York Times--it was published on May 21--with their best 
estimates based on the little bit of--you know, the thirty-
second video clip that finally got released.
    Senator Snowe. Well, it was a huge issue at the time: 
trying to determine the true flow rate. That could have made a 
huge difference in our response, could it not?
    Dr. Stahr. I think so.
    Senator Snowe. In terms of tenor and pace of the response?
    Dr. Stahr. I agree, and I believe that's what I felt in my 
community, in the oceanographic community, and I believe the 
public was feeling also, that being prepared for a lot more 
oil, which really there was a lot more oil coming out, would 
have been important.
    I found a very nice little video clip that was taken at the 
NOAA operations center in Seattle, their hazmat offices, 
sometime shortly after April 22, may have even been on April 
22. And in that video clip, you see on white boards, in 
people's notebooks and you hear audibly estimates of 50,000 to 
110,000 barrels a day. This is what they were thinking about at 
that time, and yet it wasn't until June, I believe, that the 
rest of the public ever heard any figure to that effect.
    So I guess, to me, what was disappointing, and perhaps it's 
because us in the physical oceanographic sciences hold NOAA to 
a high standard, it was just disappointing that we didn't get 
that kind of robust--well, what we thought was robust numbers.
    Senator Snowe. Well, at one point prior to our last hearing 
there was an article in the paper that somebody from NOAA was 
even dismissing the idea that we needed to know the true flow 
rate.
    Dr. Stahr. Yes, that was disappointing as well, and I 
understand the idea that--I mean, their job is to create a 
response that is, in the terms of Dr. C.J. Beegle, who used to 
be there--quote--least regrets, and that's important. They also 
have to envision what the--sort of the worst case was. And, 
truly, doing everything you can, regardless of what the flow 
rate is, right. That's the right thing to do.
    But just not knowing that number felt like a lack of 
control, you know. Yes, I agree. It was frustrating.
    Senator Snowe. Mr. Jones, where are you in the process 
right now with respect to your method?
    Mr. Yellowhorse Jones. Senator, we submitted our proposal 
and we have heard back via e-mail from the Coast Guard that we 
are in the screening process.
    Other than that, that's all we have heard.
    Senator Snowe. How long have you been in this process now?
    Mr. Yellowhorse Jones. Probably 60 days.
    Senator Snowe. Sixty days.
    Mr. Yellowhorse Jones. Yes, ma'am.
    Senator Snowe. And is there anything you would like to tell 
us about your experience with respect to this process or 
recommendations on how to improve it?
    Mr. Yellowhorse Jones. Well, it's a tedious, long, drawn-
out government process. I expected a faster response. We had 
submitted our proposal, our whitewater paper to our elected 
officials in New Mexico and Arizona, and it has just been a 
tough road.
    You know, it's like the lady said there, if you don't have 
any political connections, you're just kind of one of many. 
You're just out there in a big stack of proposals and hoping 
some way, somehow, some day you will make it to the top where 
people will take an objective review.
    And that's what we're asking for our proposal is just an 
objective review of what we're telling the Coast Guard on our 
product.
    Senator Snowe. Yes, I understand your frustration. We've 
heard from others in that regard, and it's unfortunate that 
there hasn't been, as I said earlier, a level of urgency moving 
this process along.
    Your organic methodology--Is it a liquid product?
    Mr. Yellowhorse Jones. It's both liquid and dry, but what 
we have approached here is strictly on shore, so it will be a 
dry product that will be dispersed on shore in lagoons, 
marshes, beaches.
    Senator Snowe. So it's an absorbent?
    Mr. Yellowhorse Jones. Yes, ma'am. It will absorb and 
eventually break down the contaminated oil and increase the 
microbial activity.
    Senator Snowe. Has it been used before in any way?
    Mr. Yellowhorse Jones. Yes.
    Senator Snowe. It has been. So----
    Mr. Yellowhorse Jones. Yes, Senator.
    Senator Snowe. How long----
    Mr. Yellowhorse Jones. And that has been in conjunction 
with my colleague here from the University of Oklahoma, who's 
received EPA funding and have studied exactly what my product 
does in terms of soil remediation for several years.
    Senator Snowe. Well, hopefully, it's going to get attention 
now, from the Coast Guard via Captain Sisson.
    Mr. Yellowhorse Jones. I do, too. I really do.
    Senator Snowe. [Laughter.] I do. I do. I know. We need to 
bring everything to bear in this process that's workable, and I 
just feel very sorry for people in the region, the families----
    Mr. Yellowhorse Jones. So do I.
    Senator Snowe.--and the businesses, the livelihoods. Both 
of us, the Chair and I live in the coastal regions, and it's a 
way of life for generations. It's heartbreaking.
    Mr. Yellowhorse Jones. It's sad.
    Senator Snowe. That's why it just seems we must move heaven 
and earth, literally, to get this done in a way that is 
commiserate with the level of this destruction, and what it 
means and what it portends for the future.
    Thank you.
    Senator Cantwell. Thank you.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Madam Chair, and I thank both you 
and the Ranking Member for allowing me to participate today, 
and I very much appreciate the questions directed to Mr. 
Yellowhorse Jones, and I want to welcome him here today.
    I believe you're a geologist from Gallup, New Mexico, and 
it's great to have you here, and I've been staying very 
involved in your procedure that you've put forward. I've read a 
number of the slides and things. And I think you've put forward 
the idea that is really the focus of this hearing: How can we 
take an idea like yours, and, as our chair has outlined, have 
it be effective cleanup and a restoration, and this is what 
this material that you've come up with does is it not only 
helps in the cleanup, but it restores the environment and the 
ecosystem to where it was before.
    So we need to find a way, and I think it's being emphasized 
in this hearing, to take these ideas and take them early on and 
get them into the process, so that we can have an effective 
cleanup.
    I also want the record to reflect that Mr. Jones is here 
testifying based on the recommendation, and you said it, of the 
Oil Spill Recovery Institute. And your proposals have been 
backed by engineers and scientists at the University of 
Oklahoma. So it's had a good deal of vetting.
    And I'd also like to take the opportunity to briefly 
highlight some of the other proposals New Mexico and New 
Mexicans have put forward. We have the Sierra County Economic 
Development Organization has proposed another New Mexico 
material called Zeolite for oil-spill cleanups. Zeolite is a 
mineral with a number of uses, including as an absorbent for 
oil.
    Other New Mexicans have also made proposals for oil 
containment and skimming devices, including engineers from Los 
Alamos, Santa Fe and Albuquerque. And, Madam Chair, I'd ask 
unanimous consent to include these proposals in the Committee 
record----
    Senator Cantwell. Without objection.
    [The information referred to follows:]

                                           St. Cloud Mining
                                         Winston, NM, July 20, 2010
Mr. Anthony Sedillo,
c/o Office of Senator Tom Udall,
110 Hart Senate Office Building,
Washington, DC.

Via E-mail

Dear Mr. Sedillo:

    It was a pleasure speaking with you today and we thank you and 
Senator Udall for your willingness to take a few minutes to understand 
the benefits St. Cloud zeolite could bring to the environmental 
rehabilitation efforts underway in the wake of the BP--Deepwater 
Horizon calamity.
    St. Cloud Mining Company is in the business of locating, 
developing, mining, producing and selling industrial minerals in North 
America. We are currently the largest natural zeolite producer in North 
America producing from our mine located near Winston, NM. St. Cloud is 
in the early stages of producing and selling dolomite from its mine 
located near Deming, NM, where the company also produces industrial 
aggregates. We also provide mine reclamation and civil construction 
services throughout the Southwest United States. St. Cloud Mining 
Company has been in continual operation in Sierra County since 1970 and 
currently employ 65 full-time employees. We enjoy an outstanding 
reputation within the public and private sectors and have received 
numerous awards and recognition for our environmental stewardship by 
the State of New Mexico.
    Attached please find a very brief summary of the applications and 
benefits of St. Cloud Zeolite for the remediation of petroleum 
contaminants and spills. If you have additional questions or concerns, 
please feel free to contact me. In the meantime, you can learn more 
about St. Cloud and our products by visiting our websites at 
www.stcloudmining.com and www.stcloudreclamation.com.
    We thank you for your efforts on our behalf and we are confident 
the natural mineral resources of New Mexico can help address this 
problem of national concern.
            Very Truly Yours,
                                        Joseph P. McEnaney,
                                                    Vice President.
                                 ______
                                 
                                         St. Cloud Zeolite,
                                                       Winston, NM.
St. Cloud Mining Company
  <bullet> Produces environmentally inert, highly absorbent/adsorbent 
        natural zeolites from its operations in southwest New Mexico.

  <bullet> Has strategic, collaborative relationships for the 
        development of proprietary sorbtion technology for specialty 
        filtration/separation/environmental remediation applications.

  <bullet> Has working relationships with marine service providers 
        currently operating in the Gulf of Mexico.
Products/Technology
    Our natural zeolites are lightweight alumino-silicates widely used 
for their high cation exchange capacity in filtering and adsorbing 
harmful cationic compounds such as heavy metals and ammonia. Industrial 
applications encompass hazardous waste clean up and radionuclide 
remediation, as well as waste water, mine water, industrial process 
water, and agricultural effluent treatment. Our specialty chabazite 
products are used for mercury removal in coal fired boilers as well as 
additives in down hole cement applications.
    Our zeolite material will absorb 100-125 percent of their weight in 
water and 80-85 percent of their weight in petroleum products. Because 
of their open lattice structure, high surface area, and pore sizes 
ranging from 4-7 angstroms, zeolites are also widely used as molecular 
sieves in separation technologies.
    St. Cloud manufactures specialized sorbents (surfactants) for use 
in spill remediation which when applied to the zeolite media chemically 
bond complex anionic molecules, which once reacted, will not separate 
from the sorbent/zeolite structure.
    Our products can be produced and packaged according to customer 
specification in particle sizes ranging from <325 mesh (44 microns) to 
percent inch material. Packaging is available in bulk, supersack or 50 
lb bags. Production and shipping facilities are located near major 
interstate highways. Rail trans-loading is also available.
Land/Sea Oil Spill Remediation

  <bullet> Lightweight and highly sorbent

  <bullet> GRAS Products--Generally Recognized as Safe

  <bullet> Catalytic mineral surfaces to help breakdown the oily wastes

  <bullet> Porous to allow the organic contaminants to enter as well as 
        allow natural or inoculated bacteria access to the oil for more 
        rapid decomposition

  <bullet> Modified (surfactant treated) or unmodified products 
        available

  <bullet> Cost effective with multiple modes of application and 
        treatment (Sorbent, Catalyst, Bioremediation, Solidification)

  <bullet> Effective as on shore beach or tidal barrier; or in near 
        shore waters as sorbent and sink agent

  <bullet> Immediately available

  <bullet> Proven

  <bullet> Continuous technical assistance provided

 Upper Production/Drilling Conduit Support System and Equipment Shield

                         Inventor: Kenneth Cain

Background of the Invention
    Recent off shore environmental disasters were caused by off shore 
oil well operations that were in part not controllable at the surface. 
The loss of the risers and drilling stem also has resulted problems in 
the recovery operations thereby producing excessive loss of 
hydrocarbons on the sea floor and in the water column. The lack of 
upper sub sea control also has resulted in problems in follow-up 
operations to regain well control.
    The loss of a drilling ship recently resulted in the loss of 
property and life. The environmental damage due to lack of well control 
at or near the surface has resulted in hydrocarbons from the accident 
being dispersed over a large area of the water*. This and other major 
disasters have been devastating to the environment and have cost 
billions of dollars to partially rectify.
    These events alone have demonstrated that a need exists for an 
effective and easily deployable system for the support of the drilling 
and/or production conduit used in the drilling and/or production of 
hydrocarbons to be controlled at or near the surface.
    There is also the potential loss of control of drilling and/or 
production facilities due to the present time consuming process of 
deploying and redeploying of drilling and/or production surface 
facilities when conditions require deployment and redeployment such as 
storms at sea. This process also results in loss of production, 
drilling time and adds additional expense in drilling and/or production 
operations.
References
Shearable completion riser joint
United States Patent 5979943
    The following list includes some of the major oil spills involving 
off shore drilling and production since 1977. The circumstances 
surrounding the spill, amount of oil spilled, and the attendant 
environmental damage is also given.

        1977--April, North Sea: blowout of well in Ekofisk oil field 
        leaked 81 million gallons.

        1979--June 3, Gulf of Mexico: exploratory oil well Ixtoc 1 blew 
        out, spilling approximately 140 million gallons of crude oil 
        into the open sea. Although it is one of the largest known oil 
        spills, it had a low environmental impact.

        1980--March 30, Stavanger, Norway: floating hotel in North Sea 
        collapsed, killing 123 oil workers.

        1983--February 4, Persian Gulf, Iran: Nowruz Field platform 
        spilled 80 million gallons of oil.

        1988--July 6, North Sea off Scotland: 166 workers killed in 
        explosion and fire on Occidental Petroleum's Piper Alpha rig in 
        North Sea; 64 survivors.

        November 10, Saint John's, Newfoundland: Odyssey spilled 43 
        million gallons of oil.

        1990--June 8, off Galveston, Tex.: Mega Borg released 5.1 
        million gallons of oil some 60 nautical miles south-southeast 
        of Galveston as a result of an explosion and subsequent fire in 
        the pump room.

        1991--May 28, Angola: ABT Summer exploded and leaked 15-78 
        million gallons of oil off the coast of Angola. It's not clear 
        how much sank or burned.

        1992--March 2, Fergana Valley, Uzbekistan: 88 million gallons 
        of oil spilled from an oil well.

        2010--*April 24, Gulf of Mexico: The Deepwater Horizon, a semi-
        submersible drilling rig, sank on April 22, after an April 20 
        explosion on the vessel. Eleven people died in the blast. When 
        the rig sank, the riser--the 5,000-foot-long pipe that connects 
        the wellhead to the rig--became detached and began leaking oil. 
        In addition, U.S. Coast Guard investigators discovered a leak 
        in the wellhead itself. As much as 25,000 barrels (1,050,000 
        gallons) of oil per day were leaking into the water, 
        threatening wildlife along the Louisiana Coast. Homeland 
        Security Secretary Janet Napolitano declared it a ``spill of 
        national significance.'' BP (British Petroleum), which leased 
        the Deepwater Horizon, is responsible for the cleanup, but the 
        U.S. Navy supplied the company with resources to help contain 
        the slick. Oil reached the Louisiana shore on April 30, 
        affected about 125 miles of coast. By early June, oil had also 
        reached Florida, Alabama, and Mississippi.
        It is the largest oil spill in U.S. history.
        The Ixtoc off shore oil well blow out in the Gulf of Mexico off 
        the coast of Mexico and the sinking of the BP Deepwater Herizon 
        simi-submersible drilling rig in the Gulf of Mexico off the 
        Louisiana coast resulted in unprecedented environmental 
        destruction to the water, shore line, habitat and the 
        livelihood of thousands of people receiving the brunt of the 
        aftermath of these events.

    One object of this invention is to establish a system to protect 
the drilling and/or production conduit and hold it at or near the 
surface to allow for more expedient well recovery operations.
    Another object of this invention is to establish a platform and 
shield for at or near the surface for safety equipment for greater 
safety for drilling and production surface facilities.
    Another object of this invention is to allow for the quick 
disconnect of the upper portion of the drilling and/or production 
conduit for rapid deployment and redeployment of surface operations.
    Yet another object of this invention is to allow for greater 
protection from willful destruction of surface operations.
    This invention is cost effective, easily constructed and deployed 
at the site without interruption of existing surface operations.
    This invention meets other objectives, advantages and capabilities 
that are apparent from the following detailed description and 
accompanying drawings illustrating a preferred embodiment of this 
invention.
Description of the Invention
    The Upper Production/Drilling Conduit Support System and Equipment 
Shield consists of an upper safety shield for equipment and lower 
vessels for buoyancy of the safety shield and the drilling and/or 
production conduit.
    The Upper Production/Drilling Conduit Support System and Equipment 
Shield can be configured and constructed to meet any water depths and 
drilling and/or production conduit configurations and safety equipment 
in all equipment configurations. The system is deployable by surface 
operations and/or subsurface vessels such as ROVs as an onsite 
component assembly system.
    The equipment shield is deployable by surface operations and/or 
subsurface vessels such as ROVs after the drilling and/or production 
conduit and the safety equipment are in place. The safety equipment can 
also be installed after the Upper Production/Drilling Conduit Support 
System and Equipment Shield is in place. The safety equipment should 
consist of at least two stacked shear rams. A quick disconnect system 
included in the safety equipment should be included as outlined in the 
referenced patent United States Patent 5979943 would also be desirable.
    In one embodiment, the invention relates to a riser support system 
and BOP shield at or near the surface for off shore drilling and 
production of hydrocarbons where there exists a riser and/or drilling 
stems and/or production tubing or similar apparatus for the exploration 
and production of hydrocarbons in water comprising:

        a. An upper portion having a submersible member for the 
        shielding of safety equipment;

        b. A lower portion(s) connected below the upper portion, said 
        lower portion(s) having a plurality or singularity of 
        substantially vertical vessels providing buoyancy to support 
        the safety equipment and the drilling and or production 
        apparatus.

    These and other embodiments of the present invention will also 
become readily apparent to those skilled in the art from the following 
detailed description of the embodiments having reference to the 
attached figures, the invention not being limited to any particular 
embodiment(s) disclosed.
    The following drawings below outline some preferred embodiments of 
the Production/Drilling Conduit Support System and Equipment Shield 
``System'':

        a. Fig. 1 depicts the view of various configurations for 
        deployment of the System. The System has no configuration 
        limitation in its deployment and can be deployed around any 
        apparatus for the exploration and/or production of 
        hydrocarbons.

        b. Fig. 2 depicts one embodiment of the equipment shield of the 
        System which provides shielding for the safety equipment.

        c. Fig. 3 depicts the plan view of one embodiment of the 
        equipment shield of the System.

        d. Fig. 4 depicts one embodiment of the floatation vessel(s) of 
        the System that extends downward in the water column from the 
        equipment shield of the System to provide support and buoyancy 
        for the System.

        e. Fig. 5 depicts the plan view of one embodiment of the 
        floatation vessel(s) of the System.
    The elements of the drawings arc not necessarily to scale, emphasis 
instead being placed upon clearly illustrating the principles of the 
invention. Furthermore, reference to ``an embodiment,'' ``one 
embodiment,'' ``various embodiments,'' or any variant thereof means 
that a particular feature or aspect of the invention described in 
conjunction with the particular embodiment is included in at least one 
embodiment of the present invention. Thus, the appearance of the 
phrases ``in one embodiment,'' ``in another embodiment,'' or variations 
thereof in various places throughout the specification are not 
necessarily all referring to its respective embodiment. All embodiments 
disclosed may be provided in other specific forms and embodiments 
without departing from the essential characteristics as described 
herein. The embodiments described below are to be considered in all 
aspects as illustrative only and not restrictive in any manner.
    While particular embodiments of the invention have been described, 
it will be understood, however, that the invention is not limited 
thereto, since modifications may be made by those skilled in the art, 
particularly considering the teachings herein. It will be, therefore, 
contemplated by any claims in an ensuing non-provisional application 
claiming priority to this document to cover any such modifications that 
incorporate those features or those improvements that embody the spirit 
and scope of the present invention
    Deployment of the System:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The System has no configuration limitation to its deployment.
    The configurations for the deployment of the System can be at or 
near the surface and deployed either by ship or ROV. The depth of 
deployment can be at the surface or below the surface to meet the 
various requirements of need. The deployment can be for drilling, work 
over of existing wells and/or production. The deployment of the System 
is not limited to drilling and/or production platforms but may be 
deployed under any surface operation vessels and around any sub-sea 
conduit apparatus employed in the operations involving hydrocarbons. 
The System may be used any or no safety equipment for the operation 
involving hydrocarbons as necessary.
    The deployment of the System can be accomplished in an assembled 
configuration or in any various assembled components to meet the 
deployment situation.
    The System is constructed from readily available materials and is 
cost effective and easily deployed. The materials used in the 
construction of the System can be, but not limited to, steel, PVC, 
cables, cable connectors, rope, and other subsystems.
    One embodiment of the equipment shield of the System:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The equipment shield of the System consists of an open to the water 
vessel providing a shield to any safety equipment and a support for the 
lower buoyancy vessel(s) below.
    The top of the equipment shield preferably is at or below the 
surface of the water and to allow for ingress and egress by service 
equipment and to prevent damage to the System from surface conditions 
such as storms and surface structure failure or other surface dangers 
to the System.
    A support column at the floor of the equipment shield provides 
attachment of the drilling and/or production conduit to the System and 
to secure the drilling and/or production conduit to the System.
    A key locking system as shown provides further securing of the 
drilling and/or production conduit to the System.
    One embodiment of the plan view of the equipment shield of the 
System is shown below:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A slot is provided to guide the drilling and/or production conduit 
into position during deployment of the System.
    A cut-out that is appropriate for the equipment is provided to 
allow for the placement of the equipment durning deployment of the 
System.
    Grappling rings are provided for deployment of the System by 
surface vessels and or sub-surface vessels such as ROVs.
    One embodiment of the floatation vessel(s) of the System:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    A slot is provided to guide the drilling and/or production conduit 
into position during deployment of the floatation vessel(s) of the 
System.
    A cut out that is appropriate for the equipment is provided to 
allow for the placement of the equipment dunning deployment of the 
floatation vessel(s) of the System.
    Grappling rings are provided for deployment of the floatation 
vessel(s) of the System by surface vessels and or sub-surface vessels 
such as ROVs.
    Valves are provided to control the buoyancy floatation vessel(s) of 
the System for deployment. Negative buoyancy is achieved for deployment 
by allowing water to inter the floatation vessel(s) through the water 
valve and exit the floatation vessel(s) through the check valve. Once 
the floatation vessel(s) is (are) fully deployed with the key locked 
into place, complete buoyancy is achieved by introducing compressed air 
for the surface into the floatation vessel(s) and discharging all of 
the water from the floatation vessel(s).
    In one embodiment of the plan view of the floatation vessel(s) of 
the System:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    A slot is provided to guide the drilling and/or production conduit 
into position during deployment of the System.
    A key locking system as shown provides further securing of the 
drilling and/or production conduit to the System.
    Grappling rings are provided for deployment of the System by 
surface vessels and or sub-surface vessels such as ROVs.
                                 Claims
    What is claimed is:
    A system for the support of production and/or drilling conduit for 
any and all operations involving hydrocarbons and for the shielding of 
equipment for any and all operations involving hydrocarbons at or near 
the surface of the water for all operations involving hydrocarbons 
including:

        a. An upper portion having a shielding system for equipment for 
        any and all operations involving hydrocarbons.

        b. Lower protions that provide for support vessels for the 
        shielding system and production and/or drilling conduit and for 
        any and all equipment for all operations involving 
        hydrocarbons.
                                 ______
                                 
                               Title Page
Solution to the Gulf Oil Leak Problem--Broad Agency Announcement (BAA) 
                           HSCG32-10-R-R00019
Oil Wellhead Control and Submerged Oil Response
    Offeror: Melvin L. Prueitt
    Contact person: Melvin L. Prueitt,
    Address: See above
Solution to the Gulf Oil-leak Problem
    This proposal is different than other tank solutions that have been 
proposed. The solution used so far at the Gulf oil spill was a 
relatively small tank or cap that they put over the well. Turbulence 
and ocean currents caused much of the oil to miss the tank, and the oil 
did not have a chance to separate completely from the water. Natural 
gas leaking from the well also created turbulence. The mixing of the 
gas with the cold ocean water produced hydrates, which formed a semi-
solid slush that clogged the exit from the cap. Since the cap (tank) 
was small, the slush had only a few seconds to harden. It hardened in 
the tank exit.
    The drawing below illustrates a solution to the leaking oil well at 
the seafloor. A large steel tank is suspended above the leaking well. 
The tank is suspended from a ship. The tank is open at the bottom so 
that materials flowing up from the broken well pipe will be caught. 
Since oil has a lower density than water, the oil will float up into 
the tank and float up to the inside top of the tank. There will be a 
separation of the oil and the water as the oil forms a thick layer in 
the top of the tank. Since the gas is lighter than the oil, it will 
form a gas layer above the oil. Gas vent pipes allow the gas to escape. 
Float valves below the bottom of the vent pipes control the thickness 
of the gas layer in the tank. The hydrate slush will not have a chance 
to plug vent pipes, because the gas layer prevents the slush from 
reaching the pipe openings. That is, the pipe opening is next to the 
top of the tank, but the float that controls the opening is below the 
opening so that the slush cannot reach the opening.
    The gas will provide buoyancy to the tank so that extra mass may 
need to be added to the tank to prevent its rising. Cables with anchors 
or weights could be attached from the tank to the seafloor.
    A pump above the tank pumps the oil out of the tank into a large 
hose that transports the oil to an oil tanker. When the tanker is full, 
it can transport the oil to a shore where the oil can be processed and 
sold. The oil pipe that extends from the pump down into the tank should 
extend down below the gas layer into the oil. To prevent rising slush 
from entering the oil pipe, there can be a U-shaped curve in the pipe 
at its bottom.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The tank should be high enough above the well so that equipment may 
move below the tank to perform work on the well without interference 
from the tank. The drawing is not to scale. The tank may be 100 feet in 
diameter and 30 feet tall.
    To get the tank from the shore to the leaking well, the tank can be 
towed from the shore to the leaking well by a ship. By having air in 
the top part of the tank, it will be buoyant and will float as it is 
towed. When it reaches the destination, the air can be drained so that 
the tank will sink while it is supported by cables from the ship. The 
gas vents will need to be closed until the tank reaches its 
destination.
    This method of oil collection can be used for the Gulf oil spill, 
or if there are future similar oil leaks on the bottom of the ocean, it 
can be used for those.
    This paper does not cover all the details.
    If there are questions, please call Melvin Prueitt.
    This paper is non-proprietary.
ROM
    The cost of constructing and installing the large tank and 
collecting oil will depend on the speed with which the work is done. By 
collecting and selling the oil, revenue will be provided so that the 
total cost of the operation may be negative.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Udall. And I'd also like to highlight the 
contributions of New Mexico's national laboratories, both 
Sandia National Laboratory and Los Alamos, which are both in 
New Mexico, and the other national security laboratory, 
Livermore in California, have dedicated over 200 scientists to 
this oil-spill cleanup effort.
    And they have not all been down in Houston. Some of them 
have. One of the national directors has been down there, and 
these scientists have been very actively involved in overseeing 
what BP is doing in making sure that they have the very, very 
best science.
    These scientists have contributed modeling, simulation, 
engineering and complex risk analysis of the oil spill on 
various attempts to contain the spill.
    Now, one of the things, Mr. Jones, I wanted to ask you 
about, you, in one of your slides I saw you had a comparison of 
cleaning up one mile of shoreline, and I think you had a cost 
of $5.1 million per mile, is that correct?
    Mr. Yellowhorse Jones. Yes, Senator.
    Senator Udall. Tell me how that compares with other cleanup 
materials that do the same thing that are bioremediation, not 
only do they clean up, but then they have microbes that 
organically get rid of the toxics.
    Mr. Yellowhorse Jones. Well, from what I have been told by 
people that work for me who has done some comparison studies, 
we're economically and viable and competitive in doing this.
    And depending on the different areas that we would be 
looking at, that scale could go down or in--That was probably 
like the worst-case scenario, doing 20-feet wide, five miles 
long, and we made notations in our supplemented material that 
that can be adjusted accordingly.
    But from what I've been told, the comparison to the SR 200s 
and some of the other things that's out there--and this is just 
what I've been told by the people that work for me--that our 
product is very competitively priced.
    Senator Udall. Great. Well, thank you very much.
    And thank you, Madam Chair, for holding this hearing and 
being such an advocate for our oceans. Thank you.
    Senator Cantwell. Thank you. I was wondering if you were 
joining the Coastal Caucus with New Mexico. So thank you.
    [Laughter.]
    Senator Udall. Well, all we really have is ancient oceans 
over a million-years old, and so we're a little bit dry right 
now as a desert. So if I qualify, I would love to join----
    Senator Cantwell. Absolutely. And we need all the advocacy 
we can get.
    So that's all the questions we have. I thank the witnesses 
for their testimony and for their actions in this area. It's 
very helpful to us.
    I can see, if we had this panel engaged on an ongoing basis 
about the latest and important technology investments we should 
be making, and we had the resources to be making them, we would 
be further ahead. So, obviously, we will be pushing legislation 
to do so. Hopefully, you can review that legislation and give 
us feedback on it.
    So thank you very much. The hearing is adjourned.
    [Whereupon, at 11:58 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             Douglas Helton
    Question 1. NOAA's 2011 budget request for the Office of Response & 
Restoration is the lowest that it has been in the past 6 years. This 
office is responsible for modeling oil spill movements and tracking the 
slick based on satellite data. Under the proposed 2011 budget, will 
your office within NOAA have the resources to:

  <bullet> Completely eliminate the multi-year backlog of outdated oil 
        spill Environmental Sensitivity Index (ESI) maps?

  <bullet> Conduct advanced three-dimensional modeling of deep-water 
        releases of oil into the water column?

  <bullet> Conduct a thorough program of research to study the effects 
        of oil and dispersants on open-ocean species and ecosystems?

    Under the proposed 2011 budget, what are some of the ``lower-
priority'' oil spill efforts that will not be funded?
    Answer. The President's FY 2011 Budget Request includes $19.5M for 
the Office of Response and Restoration (OR&R). This level of funding 
would allow OR&R to conduct priority response and restoration 
activities (pending final appropriations) and would allow NOAA to 
update at least one Environmental Sensitivity Index (ESI) map (however 
this will not eliminate the backlog of outdated ESI maps). OR&R has 
already begun to develop three-dimensional modeling and this effort 
will also continue in FY 2011.
    OR&R does not currently have a formal research program to study the 
effects of oil and dispersants on open-ocean species and ecosystems. 
However, NOAA and co-trustees (Department of the Interior (DOI) and 
states of Texas, Louisiana, Mississippi, Alabama, and Florida) have 
been collecting data across the Gulf of Mexico that will be useful to 
determine what natural resources have been injured due to the BP 
Deepwater Horizon oil spill. Several technical working groups composed 
of state and Federal natural resource trustees and representatives from 
BP are gathering historical information and developing and implementing 
baseline (pre-spill) and post-impact field studies for multiple 
resource categories. Open-ocean resources being assessed include fish 
and shellfish, bottom dwelling biota, birds, marine mammals, turtles, 
and the water column, including bottom sediments. In addition, other 
Federal agencies (e.g., the National Science Foundation, Environmental 
Protection Agency) support research with respect to the effect of oil 
and dispersants.

    Question 2. As a result of the threat of the oil spill to the Gulf 
of Mexico ecosystems, there has been and will continue to be an 
increase in scientific research, both government and non-government 
(academic, private, etc.), in order to assess the full environmental 
damage and the steps to recovery. This event will also be highly 
litigated, both by the government and private entities. I am concerned 
that these scientific data, which will be needed to direct recovery 
efforts, may get caught up in judicial tape and not be publicly 
available. What is the Administration's current policy for sharing and 
disseminating scientific data that may be used by the Department of 
Justice in litigation? What are the mechanisms currently in place for 
the Department of Justice to interact and coordinate with NOAA and 
other scientific agencies, in regards to scientific data and 
information on the oil spill that might be used in criminal or civil 
prosecution of the responsible parties? What efforts will NOAA make to 
ensure that these data remain publicly available for review and for use 
in the recovery efforts?
    Answer. As the response to the BP Deepwater Horizon oil spill and 
the natural resource damage assessment (NRDA) continue, NOAA is 
honoring our commitment to openness and transparency, both with our co-
trustees and other Federal and state agencies, and externally with the 
American public, the media, and our various partners and stakeholder 
groups. For example, through ERMA <SUP>'</SUP>, a web-based GIS 
platform developed by NOAA and the University of New Hampshire, we are 
working to make information available to the public as quickly as 
possible in an accessible and user-friendly format at 
www.geoplatform.gov/gulfresponse. Additionally, with our partners and 
co-trustees, we are developing new policies to make our NRDA data 
available to the public. As of July 8, the Federal trustees agreed to 
make public NRDA ``pre-assessment'' science data--once collected, 
analyzed, and properly quality checked--available in the interest of 
transparency. Releasing NRDA ``pre-assessment'' science data is rarely 
done in the NRDA process, but it was decided in the interest of 
transparency, and because of the heightened interest in this particular 
spill, that this information would be made public. Initial data has 
already been made available to the public.
    We recommend referring the question mechanisms currently in place 
to interact and coordinate with NOAA and other scientific agencies, in 
regards to scientific data and information on the oil spill that might 
be used in litigation to Department of Justice who can provide 
information on this topic.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Douglas Helton
    Question 1. How would you characterize the current state of 
collaboration between NOAA's Office of Response and Restoration (ORR) 
and your partners in the Integrated Ocean Observing System (IOOS) 
office? How has the data gathered by the system and its regional 
component, the Gulf of Mexico Coastal Ocean Observing System, enhanced 
your ability to respond to, track, and clean up this spill? As NOAA-ORR 
is likely to see more responsibilities during oil spill responses in 
the future, what enhancements to the current IOOS system would improve 
the amount, type, or quality of data you receive from the system?
    Answer. NOAA's Integrated Ocean Observing System (IOOS) Office 
works closely with NOAA's Office of Response and Restoration (OR&R). An 
example of past collaboration between the two offices includes the Safe 
Seas Exercise in San Francisco Bay in August 2006. This exercise 
established data formats and data exchange between high frequency radar 
data providers and OR&R trajectory modelers. This was then used in the 
actual San Francisco Cosco Busan spill in November 2007. IOOS and OR&R 
continue to coordinate during other oil spill exercises. In addition, 
IOOS coordinates with OR&R to provide additional observational and 
modeling capabilities. IOOS identified an on-staff expert to coordinate 
between the IOOS Regional Associations and OR&R to allow for quick 
coordination of modeling, imagery, observation platforms, and products 
to be made available quickly and used effectively.
    In the wake of the BP Deepwater Horizon oil spill, the framework 
and communication was in place so that high frequency radar data was 
automatically ingested into OR&R trajectory models. During the BP 
Deepwater Horizon spill response effort, OR&R used data from IOOS 
assets including high frequency radar, drifters and other data 
collection devices like Airborne Expendable Bathy-Thermograph sensors 
(AXBTs). These assets are used to understand the large scale 
circulation patterns in the Gulf of Mexico to inform our understanding 
of where the oil is and where it is going to aid response efforts. 
Models from Texas A&M, University of South Florida and the University 
of North Carolina were also incorporated into the information evaluated 
to develop the daily spill trajectory model provided by OR&R and used 
in planning response activities. Imagery was also made available from 
Center for Southeastern Tropical Advanced Remote Sensing at the 
University of Miami. These entities are a part of IOOS' partners, the 
Gulf of Mexico Coastal Ocean Observing System (GCOOS) and the Southeast 
Coastal Ocean Observing Regional Association (SECOORA). This imagery 
was used by OR&R, as well as the U.S. Geological Survey and the 
National Geospatial Intelligence Agency.
    NOAA envisions a national network that delivers high-frequency 
radar data as an important step in enhancing the Nation's response 
capabilities. Because we cannot predict where a spill will occur, data 
delivery from high-frequency radars is envisioned to be part of a 
seamless national system that will ensure observational information is 
available. To detect the presence of subsurface oil and estimate its 
movement beneath the surface, one needs a suite of observing assets 
combined with three-dimensional ocean circulation models. In addition 
to the high-frequency radars to monitor the surface currents, high-
resolution circulation models informed by three-dimensional fields of 
temperature and salinity are needed. While ship surveys have been the 
conventional method for observing three-dimensional fields of 
temperature, salinity, and other properties, such as chlorophyll and 
nutrients, this method is slow and costly.

    Question 2. Despite NOAA being the Nation's primary oceanographic 
research agency, there is no official NOAA role in approving use of 
dispersants, nor any mandate for EPA to consult with NOAA before 
approving the novel use of dispersants in subsea applications. To what 
degree has NOAA been involved in conversations with EPA or other 
agencies regarding the use of dispersants, including subsea 
applications, and the amount, duration, and frequency of their use? 
What specific testing has NOAA carried out regarding the potential 
impact of the 1.8 million gallons of dispersant will have on the living 
marine resources of the Gulf of Mexico? What tests can NOAA continue to 
do in the wake of this disaster to help us better understand the impact 
of these unprecedented volumes of chemical dispersants on the 
environment?
    Answer. The National Contingency Plan (NCP) establishes the 
framework for use of dispersants in an oil spill response. The NCP 
requires the Regional Response Teams (RRT) and Area Committees to plan 
for the use or non-use of dispersants in advance of spills. This 
collaborative process, which brings together expertise from both 
Federal agencies and state governments, ensures that the tradeoff 
decisions between water column and surface/shoreline impacts are 
deliberated. The RRT consists of designated representatives from each 
Federal agency participating in the National Response Team (NRT), 
including NOAA as a representative of the Department of Commerce, and 
state representatives.
    NOAA does not have a regulatory role in approving dispersant 
products, but NOAA has three main roles with respect to dispersant use: 
(1) NOAA serves on behalf of the Department of Commerce in spill 
response preparedness and decision-making activities through the NRT 
and RRT. As a trustee agency on the RRT, NOAA must approve any 
preauthorization for the use of dispersants in that region; (2) as a 
trustee agency on the RRT, NOAA must be consulted by the Federal On-
Site Coordinator (FOSC) on any incident-specific use of dispersants 
within the region; and (3) NOAA participates in monitoring for the 
efficacy of dispersants via the Special Monitoring of Applied Response 
Technologies (SMART) program. NOAA's Scientific Support Team is 
designated as a special team by the National Contingency Plan and 
provides a broad array of scientific services to the response, 
including recommendations to the FOSC on the appropriate use of 
dispersants. NOAA is also a member of the SMART program, an 
interagency, cooperatively designed program, which includes the U.S. 
Environmental Protection Agency (EPA), the U.S. Coast Guard, and other 
agencies, to monitor the efficacy of dispersant and in situ burning 
operations. SMART relies on small, highly mobile teams that collect 
real-time data using portable, rugged, and easy-to-use instruments 
during dispersant and in situ burning operations. Data are channeled to 
the Unified Command to help address critical questions. NOAA also uses 
SMART data to inform 24, 48 and 72 hour oil fate and trajectory models 
as dispersants can affect the behavior of the spilled oil.
    EPA has conducted studies to determine the toxicity of different 
dispersant products. On June 30, 2010, EPA released the results of 
initial screening tests to assess cytotoxicity (cell death), endocrine 
activity, and acute toxicity of eight available dispersants.
    The second phase of EPA's testing, released on August 2, 2010. The 
dispersant-oil mixtures can be generally categorized in the moderately 
toxic range.
    On June 30, 2010, EPA released the results of initial screening 
tests to assess cytotoxicity (cell death), endocrine activity, and 
acute toxicity of eight available dispersants. The second phase of 
EPA's testing, released on August 2, 2010 demonstrated that the 
dispersant-oil mixtures can be generally categorized in the moderately 
toxic range.
    Research on the effectiveness and effects of dispersants and 
dispersed oil have been underway for more than three decades, but vital 
gaps still exist. The Supplemental Appropriations Act of 2010 provides 
EPA with an investment of $2 million to study the potential human and 
environmental risks and impacts of the release of crude oil and the 
application of dispersants, surface washing agents, and other 
mitigation measures listed in the National Contingency Plan Product 
Schedule and directs EPA to coordinate with the Secretary of Commerce 
and the Secretary of the Interior. One area of focus has been on 
determining the toxicity and long-term effects of dispersants and 
dispersed oil on sensitive marine life. It is now clear that 
effectively dispersed oil declines rapidly in concentration due to 
ocean mixing, and degrades faster than untreated surface or shoreline 
oil.
    NOAA is currently undertaking testing of the uptake and depuration, 
or cleansing, of dispersants in Gulf species, including fish, shrimp, 
and oysters. The results from these studies will guide any further 
testing of the toxicity of dispersant and dispersant plus oil.
    NOAA continues to evaluate whether dispersants are bioavailable 
(physiologically absorbed) in different marine species, environments 
and conditions. In addition, NOAA continues to evaluate whether 
exposure to the combination of oil and dispersants affects toxicity in 
a range of species relative to exposure only to oil.
    The effects of the dispersed oil on marine life depend on 
concentration and duration of exposure of organisms to the dispersed 
oil. At the sea surface, early life stages of fish and shellfish are 
much more sensitive than juveniles or adults to dispersants and 
dispersed oil. This increased sensitivity coupled with the fact that 
these organisms reside just below the surface of the ocean where 
concentrations of the dispersed oil are initially greatest means that 
these organisms are most likely to be impacted. There are no data on 
the toxicity of dispersed oil to deep-sea biota at any life stage, so 
we have to extrapolate based on existing knowledge. However, at both 
the surface and subsurface level, modeling and monitoring is confirming 
that dispersed oil concentrations decline rapidly with distance from 
the well head as the oil mixes with sea water and, with the currents, 
moves away from the treatment areas.
    Under the Oil Pollution Act of 1990 (OPA), state and Federal 
Natural Resource Trustee agencies are responsible for assessing the 
injury, loss or destruction of natural resources due to spills--
including ecological services and lost human uses of those resources. 
The trustees are also assessing impacts from the response, including 
burning, and dispersant use at the surface and at bigger depths. While 
it is still too early in the process to know what the full scope of the 
damage assessment will be, NOAA and co-trustees continue to collect 
data in the Gulf and across the five affected states. These data will 
be used to determine what natural resources have been injured and what 
human uses have been diminished or lost due to the spill.

    Question 3. The IATAP process has unfortunately made only a few new 
technologies operational during this spill response. Given the fragile 
nature of much of this shoreline, for example, extensive wetlands, and 
beaches with sensitive bird and turtle nests, development of new, 
environmentally sensitive restoration methods and technologies will be 
vital to the longterm success of this effort. How can NOAA and the 
Coast Guard adapt the IATAP process to avoid the delays and duplication 
that has resulted in approval of so few new response technologies?
    Answer. This question is outside NOAA's area of expertise as NOAA's 
role in the BP Deepwater Horizon oil spill is to provide scientific 
support to the Unified Command and National Incident Commander, to 
conduct a natural resource damage assessment pursuant to the Oil 
Pollution Act with co-trustees to assess and restore natural resources 
injured by the oil spill, and to represent the Department of Commerce 
in spill response decision-making activities through the National 
Response Team. We recommend the Committee contact the Coast Guard for a 
response to this question.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                             Douglas Helton
    Question 1. In your written testimony you speak at length about the 
activities to improve future response efforts by NOAA to future oil 
spills, including new technologies to study the movement of oil 
subsurface. What resources are available to NOAA through partnerships 
with the private sector and academic institutions to enhance response 
activities to future oil spills?
    Answer. NOAA has built strong relationships with the academic 
sectors, which prove to be a valuable resource in quickly leveraging 
expertise and resources in response to environmental disasters. 
Currently, NOAA supports 18 Cooperative Institutes consisting of 42 
universities and research institutions across 23 states and the 
District of Columbia. Because many Cooperative Institutes are co-
located with NOAA research laboratories, there is a strong, long-term 
collaboration between scientists in the laboratories and in the 
university. Cooperative Institute scientists in all of NOAA's 
scientific mission areas can be quickly mobilized through cooperative 
agreements. NOAA's National Sea Grant Program also awards grants to 
state Sea Grant College programs which are co-located at universities 
in coastal states. In addition, NOAA also supports the Undersea 
Research Program (NURP), which is comprised of six regional Centers and 
one National Institute, all located at universities. NURP provides NOAA 
with the unique ability to access the undersea environment, either 
directly with submersibles and technical diving, or virtually using 
robots and seafloor observatories.
    The use of the U.S. Integrated Ocean Observing System (U.S. IOOS), 
a Federal, regional, and private-sector partnership working to enhance 
our ability to collect, deliver, and use ocean information, was 
successfully demonstrated in the response effort to the BP Deepwater 
Horizon oil spill. Information on surface currents of the ocean is a 
key input to the models that generate estimates of the extent and 
trajectory of an oil spill. This information is provided from the Gulf 
of Mexico Coastal Ocean Observing System (GCOOS) and the Southeast 
Coastal Ocean Observing Regional Association (SECOORA), regional 
associations that are part of U.S. IOOS.
    NOAA also partnered with several private firms (e.g., Roffers Ocean 
Fishing Forecasting Service, WET Labs, and Turner Designs) to provide 
rapid, high-tech solutions to detect, monitor, and analyze the presence 
of oil in the Gulf.
    NOAA was able to provide rapid response to the oil spill through 
academic and private sector partnerships. These collaborations 
leveraged personnel, research vessels and ship time, aircraft, cutting-
edge technology, and other resources to:

  <bullet> Conduct multiple research cruises to:

    <ctr-circle>Collect and analyze water and tar ball samples

    <ctr-circle>Study the physical properties of the Gulf and

    <ctr-circle>Catalog impacted organisms

  <bullet> Better understand and monitor the Gulf's circulation in 
        order to predict the surface and subsurface oil movement

  <bullet> Monitor oil plumes in the water column

  <bullet> Develop new sensors for detecting oil in the water column

  <bullet> Fund rapid response projects to study impacts of the oil 
        spill on marine and coastal ecosystems

  <bullet> Fund community extension activities, including:

    <ctr-circle>Identifying and communicating crucial stakeholder needs 
            to authorities and researchers

    <ctr-circle>Providing guidance and coordination regarding seafood 
            safety, fisheries closures and approaches to re-opening 
            closed fisheries

    <ctr-circle>Explaining the types of legal claims available to the 
            public

  <bullet> Model air quality impacts from the oil burning and 
        evaporation

  <bullet> Provide surface current data for NOAA's spill trajectory 
        models

  <bullet> Assist with collecting data below the surface of the water 
        through autonomous underwater vehicles, or gliders

    Within the NMFS, limited resources are available under NMFS Product 
Quality and Seafood Safety Program for partnerships on oil spill 
response for seafood safety. NMFS does work with many partners to 
rescue, study, and respond to injured or health-impaired marine mammals 
and sea turtles. NMFS Southeast Region has a close relationship with 
the Northern Gulf Institute (NGI), a NOAA Cooperative Institute with 
five university partners along the northern Gulf of Mexico. NGI has a 
formal relationship with the Institute for Marine Mammal Studies, one 
of the participants of the Marine Mammal Stranding Network. NGI 
partners perform post-mortem analyses and NGI-member universities have 
the capability and capacity to collaborate and participate in a NOAA-
led stranding and response network.

    Question 2. Has NOAA identified areas in response to this spill 
where services provided by private sector operations or academic 
institutions could be further utilized?
    Answer. NOAA has always utilized private sector services for 
response and assessment activities, and has standing working 
relationships with academic institutions, such as Louisiana State 
University and University of New Hampshire. These are key members of 
our team who participate in regular meetings and trainings to be ready 
to respond. NOAA welcomes the opportunity to continue to work with the 
private sector and academic institutions in the future.

    Question 3. What makes the IOOS partnership work successfully? What 
is the potential for more specific partnerships between NOAA and the 
private sector, such as that of IOOS?
    Answer. The IOOS partnership is successful because it is a 
collective partnership between the Federal Government and non-Federal 
partners collecting and managing ocean, coastal and Great Lakes data. A 
key element of this partnership is using ocean, coastal and Great Lakes 
data that both meets regional needs and supports national priorities. 
This regional component, known as the Regional Coastal Ocean Observing 
System (RCCOS) structure has matured over the last 3 years under the 
U.S. IOOS office in NOAA. This arrangement positions the United States 
to take advantage of a coherent collection, management and open 
availability of data in usable formats to support the development of a 
variety of products and services to assist coastal managers and 
decisionmakers in need of information.
    Industries participate in and benefit from IOOS in a number of 
ways:

  <bullet> As providers of observing system components (for example, 
        design and manufacture of ocean sensors, instruments, buoys and 
        satellites);

  <bullet> As providers of observing system data and communications 
        infrastructure (for example, designing and building data 
        assembly, data analysis and data/information dissemination 
        systems);

  <bullet> As operators of some system components and infrastructure 
        providing maintenance and support functions (For example, 
        maintaining buoy systems and hosting data systems);

  <bullet> By providing privately funded data/information to the IOOS 
        endeavor;

  <bullet> As intermediate service providers who use IOOS data/
        information as an input to the creation of value added products 
        for use in specific applications;

  <bullet> As end-user beneficiaries whose business operations and 
        business decisions benefit directly or indirectly from IOOS 
        data, which includes quality controlled, real time hourly 
        observations.

    Question 4. Is there capacity for more seafood testing to be 
performed in Pascagoula?
    Answer. Capacity in Pascagoula, Mississippi has been expanded to 
increase timely sample processing and sensory testing of seafood in 
order to reopen areas to fishing when it is shown that seafood is not 
exposed to oil at levels that are of concern to human health. In 
addition, NOAA is currently adding capacity in Pascagoula to allow for 
additional chemical testing for both the seafood safety program and for 
future monitoring of the Gulf of Mexico in the aftermath of the BP 
Deepwater Horizon oil spill.

    Question 5. Can the NOAA facility in Pascagoula perform chemical 
testing?
    Answer. The National Seafood Inspection Laboratory in Pascagoula is 
currently establishing the capacity to perform the chemical screening 
test recently developed by the Food and Drug Administration, in 
addition to the chemical test for polycyclic aromatic hydrocarbons. 
Analytical chemical testing requires both specialized equipment and 
staff with a high level of analytical chemical expertise and experience 
with oil spills. This specialized expertise and equipment currently 
exists at the Northwest Fisheries Science Center laboratory in Seattle 
and the scientists there have been involved in multiple oil spill 
events starting with the Exxon Valdez spill. Moreover, staff from 
Seattle have been on rotational assignments to assist the Pascagoula 
lab to meet the demands of this spill of national significance. NOAA is 
evaluating the chemical testing capacity in Pascagoula to determine the 
appropriate expansion to increase efficiency and complement existing 
capacity in Seattle.

    Question 6. What seafood tests related to this oil spill are being 
performed at other NOAA facilities outside the Gulf Coast region that 
could be performed at the Pascagoula facility?
    Answer. There are no other seafood tests currently being conducted 
at other facilities that can be carried out in Pascagoula. As noted 
above, NOAA is currently establishing chemical seafood testing capacity 
in Pascagoula based on what exists in Seattle.

    Question 7. How much time would be saved if this testing was 
performed by the locally-equipped and capable NOAA facility?
    Answer. Currently, all samples are prepared for both sensory and 
chemical testing in Pascagoula, but the chemical analyses is done in 
Seattle. The sensory tests are performed on-site in Pascagoula the same 
day the samples are prepared. Once the samples are prepared they are 
then shipped overnight to Seattle for chemical analyses, thus the 
savings in time of having capacity in Pascagoula would be 1 to 1.5 
days. The advantage of chemical testing capacity in Pascagoula would 
not necessarily reduce the time required for analysis, but would 
increase the capacity for additional samples to be analyzed on a weekly 
basis.

    Question 8. What steps is NOAA implementing to increase seafood 
testing capabilities along the Gulf Coast?
    Answer. NOAA is confident in the sensory and chemical testing 
currently being conducted to detect possible contamination in seafood. 
In response to ongoing public concerns about seafood safety and 
dispersants, we have been working together with our scientific partners 
at FDA to develop a chemical test to detect dispersant in seafood. This 
test, once validated, will provide additional public confidence in the 
safety of Gulf seafood. NOAA is also evaluating the efficacy of 
establishing the comprehensive analysis method which is currently used 
in Seattle in Pascagoula. This requires more sophisticated equipment 
and analytical chemistry expertise.

    Question 9. Is the speed of testing holding up the re-opening of 
fishing grounds?
    Answer. The reopening of fishing grounds is not being delayed by 
NOAA's capacity to conduct both the sensory and chemical testing 
required. Capacity to both process and conduct sensory analysis has 
been increased and additional chemical testing capacity is being 
implemented currently.

                                  <all>

</pre></body></html>
